<html>
<title> - FUNDING FOR FIRST RESPONDERS: ENSURING THAT FEDERAL FUNDS ARE DISTRIBUTED INTELLIGENTLY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      FUNDING FOR FIRST RESPONDERS

=======================================================================

                                HEARING

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

                           Serial No. 108-32

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-512                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, Jr., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

               DAVID H. SCHANZER, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................     7
The Honorable Sherwood Boehlert, a Representative in Congress 
  From the State of New York.....................................    17
The Honorable Benjamin L. Cardin, a Representative in Congress 
  From the State of Maryland.....................................    40
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    38
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    33
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada
  Prepared Statement.............................................     3
The Honorable Peter King, a Representative in Congress From the 
  State of New York..............................................    25
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    61
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    28
The Honorable Ken Lucas, a Representative in Congress From the 
  State of Kentucky..............................................    38
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri
  Prepared Statement.............................................     3
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    23
The Honorable Harold Rogers, a Representative in Congress From 
  the State of Kentucky..........................................    35
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    21
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York..........................................    26
The Honorable Bennie Thompson, a Representative in Congress From 
  the State of Mississippi.......................................    19
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................    31

                               WITNESSES

Mr. Scott Behunin, Director: Division of Emergency Service and 
  Homeland Security, Salt Lake City, Utah
  Oral Statement.................................................    53
  Prepared Statement.............................................    55
Mr. John D. Cohen, President and CEO of PSCOMM, LLC, Co-Director, 
  Progressive Policy Institute-Homeland Security Task Force
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Mr. Ray Kelly, New York City Police Commissioner, State of New 
  York
  Prepared Statement.............................................    63
Mr Ray A. Nelson, Executive Director, Office for Security 
  Coordination, Commonwealth of Kentucky
  Oral Statement.................................................    50
  Prepared Statement.............................................    51
The Honorable John G. Rowland, Governor, State of Connecticut
  Oral Statement.................................................     9
  Prepared Statement.............................................    12

                                APPENDIX
                   Material Submitted for the Record

Questions for Mr. Scott Behunin..................................    69
Questions and Responses from Mr. John D. Cohen...................    71
Questions and Responses from Mr. Mr. Ray A. Nelson...............    75
Questions for the Honorable John Rowland.........................    68

 
                     FUNDING FOR FIRST RESPONDERS:
                    ENSURING THAT FEDERAL FUNDS ARE
                       DISTRIBUTED INTELLIGENTLY

                              ----------                              


                       Tuesday, October 21, 2003

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:45 a.m., in room 
2318, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Rogers, Boehlert, 
Smith, Weldon, Shays, Camp, Diaz-Balart, King, Shadegg, 
Gibbons, Granger, Sweeney, Turner, Dicks, Cardin, DeFazio, 
Lowey, McCarthy, Jackson-Lee, Pascrell, Christensen, Ethridge, 
Lucas, Langevin, Meek, Thompson and Harman.
    Chairman Cox. Good morning. A quorum being present, the 
Select Committee on Homeland Security will come to order. This 
committee is meeting today to hear testimony on the critical 
topic of funding for our first responders.
    I want to inform the members at the outset that I have 
consulted with the Ranking Member, Mr. Turner, and we have 
agreed that in order to allow us to proceed more directly to 
testimony from our witnesses on this important issue and to 
help members keep to our schedules, including the vote that we 
expect on the floor at 11 o'clock, we would ask unanimous 
consent that opening statements be limited to the Chairman and 
Ranking Member. Is there objection? If other members have 
statements, they can be included in the hearing record under 
unanimous consent. So ordered.

Opening Statement of the Honorable Christopher Cox, a Representative in 
 Congress From the State of California, and Chairman, Select Committee 
                          on Homeland Security

    The Select Committee on Homeland Security held a hearing today on 
first responder grant funding today and Chairman Cox's (R-CA) recently 
introduced legislation, H.R. 3266, ``Faster and Smarter Funding for 
First Responders.'' The witnesses included the Honorable John G. 
Rowland, Governor, State of Connecticut, and New York Police 
Commissioner Ray Kelly. Chairman Cox emphasized the need for threat-
based analysis to be incorporated into homeland security grant formula 
funding decisions. Chairman Cox made the following statement:
    Since 9/11, the President, the Congress, and the American people 
have come to recognize the pressing need to prioritize homeland 
security funding. If we try to protect everything equally, we will 
protect nothing.
    The Administration and Congress worked together to stand up a 
Department of Homeland Security with the analytic capability to set 
these priorities. The Information Analysis & Infrastructure Protection 
Directorate (IAIP) has the statutory obligation to develop risk 
assessments that map threat against vulnerability, both on a strategic 
and tactical level. IA&IP analysis must be authoritative, 
comprehensive, and dynamic. It will integrate the best intelligence 
with the rigorous vulnerability assessments of state and local 
governments, and the private sector. This is the best way to ensure 
that we are targeting these funds appropriately and getting the most 
security--not pork--for our dollars.
    The amount of money at stake is significant. The President signed 
into law the first Homeland Security Appropriation bill which will 
distribute over four billion dollars to first responders. In fact, in 
the past two years, Congress has increased the amount of funding to 
first responders by more than 1000 percent, for a total of almost 20 
billion dollars since 2001. We can expect even more funds for homeland 
security in the years ahead. This is all the more reason to ensure now 
that we are targeting these funds appropriately.
    This Committee has met over the past several months with first 
responders in Seattle, Los Angeles, Long Beach, and Orange County as 
well as in Detroit, Buffalo, and New York City. It has held four 
Committee hearings in the Congress on this topic. First responders 
acknowledge that the Federal Government has significantly increased its 
allocation of homeland security funds, but they continue to complain 
that they are not getting their share. In July, Orange County Assistant 
Sheriff George Jaramillo testified before this committee that Orange 
County had only collected $875,000 of its 12 million dollar federal 
grant. Just last week, Mayor James Garner of the US Conference of 
Mayors testified that 90 percent of cities have not received their 
share of funds from the states. It is our duty to ensure that federal 
funds get to our first responders more quickly.
    We must find ways to direct federal funds to states and regions 
that are at greatest risk. Currently, grant money is allocated by 
political formula, based chiefly on population. Under the present 
system, in 2003, California, New York, and Texas received approximately 
five dollars per capita in homeland security funding, compared to 
twenty-nine dollars per capita for North Dakota and almost thirty-five 
dollars per capita for Wyoming. Does California with its large 
population, hundreds of miles of coastline, and large cities with 
vulnerable targets present a greater risk than North Dakota, a primary 
source of food for the nation? Our current grant system does not--and 
cannot--address this. New York, of course, continues to be a major 
terrorist target. Yet, the current formula does not adequately weigh 
the higher risks in that region. Our country needs a new formula for 
distributing funds based on rigorous authoritative risk assessments 
that match threat with vulnerability - the core mission of the 
Department of Homeland Security.
    Today, funds cannot be directed to regions, and this too must 
change. In July of this year, Captain Michael Grossman of the Los 
Angeles Sheriffs Department testified that, `any attack in the Los 
Angeles/Orange County area would unquestionably require a regional 
response. . . (but) the dispersal method of funds does not address the 
overall regional readiness and needs requirements.' Regional 
collaboration is fundamental to the success of the President's Homeland 
Security strategy; we must do everything we can to encourage it.
    Since 9/11, we have identified serious problems with our grant-
making process and now is the time for solutions. I look forward to 
working with the Ranking Member, Mr. Turner, and all Members of the 
full Committee to develop a bill that will enhance the preparedness of 
our first responders. We owe it to the men and women who put their 
lives at risk everyday to keep this nation safe.

     Prepared Opening Remarks from the Honorable Karen McCarthy, a 
         Representative for Congress From the State of Missouri

    Today's hearing is about first responders. Both pieces of first 
responder legislation before the Committee include provisions that 
would affect the directorate for Information Analysis and 
Infrastructure Protection.
    Both bills make important adjustments to the Homeland Security 
Advisory System, requiring changes in the threat level to be issued on 
a regional and industrial sector basis. This is a welcome improvement, 
and one that I know is supported by local and state governments and, 
most importantly, by first responders. The bills also address the 
backlog of security clearance investigations, and the need to grant 
clearances to key state and local officials in order to improve the 
sharing of information.
    The most critical provision, however, is the requirement in 
Chairman Cox's language that the Under Secretary of Information 
Analysis and Infrastructure Protection assess and prioritize all first 
responder grant applications. I have seen no evidence in the course of 
the Intelligence and Counterterrorism Subcommittee's work that the 
directorate is capable of conducting this task on top of its other 
duties. In fact, the Department frequently states that the intelligence 
it has does not point to a specific threat or a specific target. Given 
the nature of threat intelligence, I want to know how the Department 
will determine priorities for grant funding to one state or another, 
and which regions may not warrant funding.
    The High Threat, High Density Urban Areas Grant Program, first 
created in the 2003 Supplemental Appropriations Act, already 
distributes grants based solely on terrorist threat. Members of 
Congress have rightly asked how these grants are determined, and the 
Department has not provided any answers. As a representative of a major 
metropolitan area, I understand the need to send additional grant 
dollars to areas of higher threat. Kansas City, which I represent, 
received nearly $10 million in high threat grant funds. It is uncertain 
if we will receive additional funds in the next round, or upon what 
threats the Department based that $10 million.
    I look forward to the witnesses' comments on whether any threat 
intelligence from the Department of Homeland Security leads one to 
conclude that detailed resource allocation decisions can be determined 
by our current threat intelligence. Information from the Department on 
how it decides where to spend high threat urban area appropriations is 
unclear and undermines the confidence of our local responders. Thank 
you, Mr. Chairman.

    [The statement of Mr. Gibbons follows:]

 Prepared Statement of the Honorable Jim Gibbons, a Representative in 
                   Congress from the State of Nevada

    Mr. Chairman, thank you for highlighting this important issue and 
assembling these prestigious panels--I appreciate the dedication of you 
and your committee staff, working to ensure the security of our 
homeland. I would like to welcome our panel members and look forward to 
the information they will provide.
    Chairman Cox unveiled the first part of a comprehensive, homeland 
security reform proposal two weeks ago. The first piece of his four-
part plan focuses on emergency responder funding.
    The emergency response piece, called the ``Faster and Smarter 
Funding For First Responders Act,'' would establish a new grant system 
for homeland security activities. The funds would be dispersed based 
solely on the terrorist threat level faced by the locality. Grant 
applications will be ranked by the Information Analysis and 
Infrastructure Protection Directorate of the Department of Homeland 
Security. The language in this bill would guarantee direct funding to 
local governments.
    H.R. 3266 directs the Information Analysis and Infrastructure 
Protection Directorate to evaluate and prioritize applications for 
first responder grants based on:
        <bullet> The threat to population, including military and 
        tourist populations.
        <bullet> Threats to the water supply.
        <bullet> Threats to energy supply.
        <bullet> Threats to structures of symbolic national importance, 
        particularly those that routinely attract large numbers of 
        tourist visitors.
        <bullet> Threats to significant concentrations of natural 
        resources.
    Other homeland security bills are now in circulation. Among them 
are one sponsored by Representative Sweeney, one by Representative 
Shays and another sponsored by Ranking Member Jim Turner, which would 
respectively revise the grant funding formula, establish quality 
standards for training and equipment, and prioritize first-responder 
funding. These bills raise many good points, and I look forward to 
debating these issues in future hearings for a positive overall outcome 
toward first responder funding.
    Since September 11th of 2001, Congress has provided states and 
other government entities with significant assistance to upgrade 
infrastructure and personnel to meet domestic security needs. In 
addition, Congress has also provided increased funding for first 
responders.
    When Congress passed the wartime supplemental appropriations bill 
(H.R. 1559) on April 16 of 2003, we provided $2.23 billion for grants 
to first responders through the Office of Domestic Preparedness (ODP), 
$230 million above the president's request.
        <bullet> $1.3 billion was provided for ODP's basic grant 
        program to the states with 80 percent of the funds going to 
        localities.
        <bullet> $200 million was provided for grants for critical 
        infrastructure distributed by formula with no less than 50 
        percent of the funds going to local governments.
        <bullet> $700 million was provided as a discretionary grant to 
        address security requirements in high threat, high-density 
        urban areas with critical infrastructure.
        <bullet> $1.5 billion in grants to states and localities has 
        been made available via ODP, aimed at helping first responders 
        with planning, training, equipment, and other costs associated 
        with enhanced security measures deployed during the heightened 
        threat period.
    The Departments of Homeland Security and Justice have received 
extra funding for the sole purpose of helping local and state 
governments. These grants are available for all aspects of securing our 
communities, from educating and training first responders to helping 
purchase new equipment. The biggest obstacle in the process is getting 
direct funding to local jurisdictions, because most of the available 
grants go directly to the states rather than localities.
    With the constant threat of terrorism, the future of this massive 
funding effort is bright. With different threats being identified 
everyday the need is great and Congress is pressed to meet this need. 
Congress understands that increased funding will be essential to 
safeguard our communities. The expectations for public safety are high 
and with this legislation, Congress will make progress toward securing 
our communities even more.
    Homeland Security Secretary Tom Ridge has previously stated that he 
would like to change the state formula to include risk factors. A major 
issue we must discuss and resolve is whether or not to require the 
Department of Homeland Security to develop a new formula for allocating 
funding to states based solely on threat. Currently, every state 
receives a minimum of 0.75 percent, and then the remainder of the 
funding is allocated based on population.
    The problems with the current grant-making process were highlighted 
in a recent report entitled, First Mayors' Report to the Nation: 
Tracking Federal Homeland Security Funds Sent to the 50 State 
Governments. This 50-state analysis surveyed 168 cities of all sizes 
about the delivery often different homeland security funding streams 
designed for first responders.
    The survey found that 90 percent of cities have not received the 
intended funding designed to assist local officials, police and fire 
departments, and other ``first responders,'' such as public hospitals. 
Additionally, over half of the cities have either not been consulted or 
have had no opportunity to influence state decision making about how to 
use and distribute funding. In my home State of Nevada, we have begun 
working these same issues and recognize the importance of collective 
community input--working together we will continue to make progress.
    Mr. Chairman I look forward to the education this hearing will 
provide and also to working with my colleagues on resolving these 
issues for a better prepared America.

    Chairman Cox. Without objection, those members who are 
present and who have agreed to waive opening statements will, 
therefore, be allowed 3 additional minutes for questioning.
    Governor Rowland, thank you for making the time to testify 
before the committee, for joining us again here in your old 
haunts here in the House of Representatives on this critical 
issue of first responder funding. Your demonstrated commitment 
to our first responder community and the invaluable perspective 
you bring to us as a State Governor will help this committee 
toward its goal of expediting the delivery of Federal funds to 
our first responders.
    I also want to take this opportunity to thank New York 
Police Commissioner Kelly and the other witnesses on our second 
panel. You are excellent representatives of the first responder 
community, almost 2.5 million strong across our country. Our 
first responders are truly the front line in our defense 
against a terrorist attack on the homeland and, as you will 
see, there is strong bipartisan support on this committee for 
legislation that will make the grant process more responsive to 
your needs.
    The latest tape released to al-Jazeera over the weekend is 
one more reminder that our struggle against global terrorism 
will be a long one. Osama bin Laden, allegedly speaking on this 
tape, tells us ``We will continue to fight you as long as we 
have weapons in our hands.'' Two years after 9/11, the United 
States still remains al Qaeda's first target, but the threat as 
usual is purposely vague. The terrorists want us to act out of 
fear. They would like us to believe that they can strike 
anywhere, at any time, and they want us, in response, to act 
desperately; take measures of uncontrolled spending on 
unfocused security measures that would seriously weaken our 
economy and weaken our country.
    Since September 11, the President, the Congress, and the 
American people have come to recognize the pressing need to 
prioritize homeland security funding. We quickly learned that 
if we try to protect everything, we will, in fact, protect 
nothing. The administration and Congress have worked together 
to establish the Department of Homeland Security and, 
importantly, to give it an intelligence analytical capability 
to help set these priorities.
    Under the Homeland Security Act, the Information Analysis 
and Infrastructure Protection Directorate, which we on this 
committee are fond of calling IAIP, has the obligation to 
develop risk assessments that map threat against vulnerability, 
and to do this on a strategic and tactical level. To do this 
job right, the Department's analysis will have to be 
authoritative, comprehensive, and dynamic. A perishable 
snapshot of threats won't be sufficient. The Department must 
integrate the best intelligence with rigorous vulnerability 
assessments produced in cooperation with State and local 
governments and the private sector. Relying on this threat 
analysis is the best way to target first responder funds for 
our Nation's security and to ensure that they go towards 
security and not pork.
    Just recently, the President signed into law the first 
homeland security appropriation bill, which will distribute 
over $4 billion to first responders. Already, over the past 2 
years, Congress has increased the amount of funding to first 
responders by more than 1000 percent, for a total of almost $20 
billion since September 11, 2001. We can expect even more funds 
for homeland security in the years ahead. That is why spending 
this money wisely is so important.
    The committee has met over the past several months with 
first responders in Seattle, Los Angeles, Long Beach, Orange 
County, Detroit, Buffalo, and New York City. We have held four 
committee hearings in Washington on this topic. First 
responders have told us that the Federal Government has 
significantly increased its allocation of homeland security 
funds, but they continue to complain that they are not getting 
their share. In July, Orange County Sheriff George Jaramillo 
testified before this committee that Orange County, California 
had collected only $875,000 of its $12 million Federal grant. 
Just last week, Mayor James Garner of the U.S. conference of 
Mayors testified that 90 percent of cities have not received 
their share of funds from the States.
    At the same time, we have heard repeatedly in all of our 
meetings with first responders that they are not receiving 
adequate threat information. As a result, they can't prioritize 
their own costly security protective measures. A first 
responder in Seattle earlier this month said that today, 
information, not money, is our biggest problem. The demand for 
more and better intelligence along with interoperable 
communications is clearly a top priority for our first 
responders.
    It is the job of this Congress and the DHS to direct 
Federal funds to the greatest risks. Currently, grant money is 
allocated by political formula. Chiefly, this means population, 
but even the population allocation is not working. Under the 
present system, in 2003, California, New York, and Texas, three 
of our most populous States, received approximately $5 per 
capita in homeland security funding compared to $29 per capita 
for North Dakota and $35 per capita for Wyoming. Is California, 
which has a large population, hundreds of miles of coastline 
and large cities with vulnerable targets, more important than 
North Dakota's agricultural sector which feeds our entire 
Nation? The current system cannot answer this question. Our 
country needs a new formula for distributing funds based on 
rigorous authoritative risk assessments that match threat with 
vulnerability, the core mission of the Department of Homeland 
Security.
    It is equally important to recognize that many of the 
highest threat areas in our country are regions which cross 
State boundaries or are included within them. Police 
Commissioner Kelly works hard with his counterparts in 
neighboring burroughs and States to build collaboration and 
expand interoperability against the continuing terrorist threat 
in New York. Governor Rowland not only has to protect 
Connecticut, but also collaborate across his borders to protect 
the Long Island Sound. The port cities of Los Angeles and Long 
Beach have been a model of interjurisdictional collaboration 
since well before 9/11. Washington, D.C., where we meet today, 
sits at the intersection of two States and in the midst of a 
five-State region. For years, the evacuation plans for each of 
us in Congress had us being taken from the Nation's Capital in 
Washington to West Virginia.
    Today, funds cannot be directed to regions, and this must 
change. In July of this year, Captain Michael Grossman of the 
Los Angeles Sheriff's Department testified that ``Any attack in 
the Los Angeles/Orange County area would unquestionably require 
a regional response,'' but, continuing the quotation, ``the 
dispersal method of funds does not address the overall regional 
readiness and needs requirements.'' Regional collaboration is 
fundamental to the success of the President's homeland security 
strategy, and we must do everything we can to encourage it.
    Since September 11, we have identified serious problems 
with our grant-making process. Now is the time for solutions. I 
look forward to working with the Ranking Member, Mr. Turner, 
and all members of the full committee to develop a bill that 
will enhance the preparedness of our first responders. We owe 
it to the men and women who put their lives at risk every day 
to keep this Nation safe.
    I now yield to the Ranking Member, Mr. Turner, from Texas 
for his opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    This hearing today is perhaps the most important hearing 
that this committee has conducted because, as we know, next 
year we will spend $4 billion on efforts to strengthen our 
first responders to make America safer, and how we spend that 
money and where we spend that money is essential to knowing 
whether we are doing the job of protecting America against 
terrorism.
    In my view, our current spending on homeland security is 
haphazard, unfocused, and, more often than not, based on past 
events with little regard to the threats and vulnerabilities we 
face today and will face in the future. The Chairman and I have 
both introduced separate legislation, because we wanted to try 
to get the best ideas on the table before this committee. The 
two bills are similar in some respects, but differ in others. 
We both agree that we need a greater emphasis upon regional 
planning to deal with the terrorist threat. We both agree that 
we must move money faster to our States and to our localities 
than we are doing today. And we both agree that to simply 
disperse money based on the sole factor of population is not 
dealing honestly with the security needs of our country.
    We must, in my judgment, train and equip our local first 
responders with, what we call in the legislation that I have 
introduced, along with 144 of my Democratic colleagues we must 
prepare our local responders by determining what the essential 
capabilities are that we need to prevent and respond to 
terrorist attacks. The essential capabilities.
    It has been suggested to this committee from many sources 
that we need a standard by which we measure our progress in 
making the homeland secure. In order to measure our progress, 
we believe it is important to establish what the essential 
capabilities are for every region and community in America in 
order to make that region or that community safe and secure and 
capable of responding and defending against a terrorist attack. 
The expanded capabilities must be determined in a bottoms-up 
approach, and that is why in our legislation we propose a task 
force of local responders to make recommendations to the 
Department of Homeland Security as to what the essential 
capabilities of every area of the country must be.
    Now, these essential capabilities must be determined in 
light of the threats and vulnerabilities that exist in our 
country. Those threats obviously vary from time to time, from 
community to community, and the vulnerabilities of the regions 
and communities in our country vary. And in order to properly 
determine the essential capabilities, the determination must be 
made upon a fair assessment of the threats and capabilities.
    Our approach contrasts with the Chairman's legislation, 
which bases preparedness funding on a snapshot of the threat 
faced by a community or region. In our judgment, that would 
ignore the reality that threat information is often vague, 
often inconsistent, and certainly ever-changing.
    We hope that as we approach the legislation before us, that 
we can reach a compromise piece of legislation that will move 
us forward in better preparing our local communities to deal 
with the threat of terrorism. We both share the same goal, and 
that is to make our first responder grant-making process be 
rational, be targeted, and utilize the threat and vulnerability 
information upon which it must be based. Our judgment is not 
enough simply to reslice the available funding pie by using 
threats alone to determine who gets money. We need a 
comprehensive, nationwide plan where we understand what the 
essential capabilities for every community must be. Those 
essential capabilities will be different in New York City than 
they are in my hometown of Crockett, population 7,500, in east 
Texas.
    As Massachusetts Governor Romney stated at an earlier 
hearing before this committee, and I quote, ``It is essential 
to have guidelines as to what it is we are trying to 
accomplish.'' If you ask the cities and towns and the States 
how much money they need for homeland security but don't tell 
them what you expect them to do, what kind of event they are 
trying to prepare for, then the sky is the limit as to what 
they will come back with. Our legislation and the task force 
included in our legislation is designed to provide the 
guidelines that Governor Romney is seeking.
    second, our legislation will measure our country's security 
gap, and our goal is to close it in 5 years. By setting the 
targets, we will be able to measure our progress and, 
hopefully, succeed in establishing the essential capabilities 
that all of our communities need.
    As I said, the act will determine these needs based on 
recommendations of first responders themselves. We think this 
is critical, to have the local and State buy-in to support this 
legislation.
    Mr. Chairman, I look forward to the testimony today. I am 
very grateful for Governor Rowland's presence here today. I 
appreciate seeing Commissioner Kelly here, and I thank him for 
the hospitality extended to our committee a few weeks ago when 
we visited him in New York, and I commend him on the progress 
that he has made in leading his city toward greater security.
    Thank you, Mr. Chairman, and I look forward to the hearing.
    Chairman Cox. I thank the gentleman.
    Chairman Cox. Governor Rowland, I am sure you are aware of 
the range of possibilities when the bells ring, but you will be 
pleased to know that there is a single vote on the floor. There 
are 7 minutes left in that vote. I think that in order to 
permit members to make that vote, we should interrupt the 
proceedings for the purposes of members going to the floor, 
voting on the CR and returning, and that should put us back in 
action at 11:15, if that is acceptable to you.
    Governor Rowland. That would be fine.
    Chairman Cox. Thank you, and we will see you at 11:15.
    [Recess.]
    Chairman Cox. I welcome members back from the vote. I thank 
you, Governor Rowland, for your patience.
    Our first witness is Governor John G. Rowland of the State 
of Connecticut, not only a distinguished Governor, but also a 
distinguished former Member. Welcome back.

STATEMENT OF THE HONORABLE JOHN G. ROWLAND, GOVERNOR, STATE OF 
                          CONNECTICUT

    Governor Rowland. Thank you very much, Mr. Chairman. I 
thank you for your comments and your opening remarks. 
Congressman Turner, thank you. It is an honor to be here today. 
As well as being the Governor of the State, I have also been 
serving as a member of the State and Local Officials Senior 
Advisory Committee to Homeland Security, and I hope that 
between those two roles, I can provide some input and some 
insight into what occurs back home.
    I prepared a written statement that I have entered into the 
record, and what I would like to do with your support is to 
make a few summary remarks, hopefully stimulate some continued 
discussion and debate and, frankly, to take what I think has 
been a thoughtful proposal that is before us today.
    Based on your comments, Mr. Chairman, and based on 
Congressman Turner's comments, it seems that you are going in 
the right direction. And we would like to I am sure the rest of 
the testifiers as well would like to talk about some of the 
proposals and some of the improvements that we would like to 
see.
    First and foremost, it stimulates a very necessary 
discussion about how grants are going to be awarded. The 
Chairman, of course, talks about risk and threat, and I would 
suggest that left to our own devices, the grant distribution 
would take place in a very different way, probably based just 
on option or, at the very least, perhaps based on political 
considerations, political pressures, lobbying, perhaps the 
appropriate committee assignments. That process, although it 
may work in other areas like education, I don't think would 
work necessarily all that well or just that well for 
distribution of these grants for homeland security.
    I would like to offer a couple of tweaks, if I may. First 
and foremost, State oversight. It is imperative that the States 
have oversight and that we be seen as a pass-through to the 
cities and towns and to the first responders. In the last 6 
months or so, the States have been very effective in passing 
through a lot of the dollars that have come from homeland 
security, and we continue to coordinate and work with all of 
our cities and towns.
    In listening to both the opening remarks of the Chairman 
and Ranking Member, I would also offer a suggestion perhaps to 
my fellow colleagues and Governors. Governor Ridge does a great 
job in communicating to the Governors. It is probably little 
known that he has conference calls with Governors and homeland 
security directors almost on a weekly basis, sometimes to talk 
about very routine matters, other times to discuss an increase 
in focus on our security across the country.
    One of the things that I have taken from that is that I 
have done conference calls on a monthly basis with my mayors 
and first selectmen. In my small State of Connecticut we have 
169 political divisions, namely cities and towns, and I have 
found that by having conference calls with the mayors, first 
selectmen, fire chiefs and police chiefs, they feel part of the 
process and so some of the disconnect does not occur.
    There is a discussion in the bill about regionalization and 
in conference and in discussions with some of the staff here, I 
call it self-administered regionalization would never work; 
self-administered regionalization meaning that any number of 
cities and towns in my State would come together for a 
particular reason to submit grant requests. If that were to 
occur in our State or any of the other 50 States in a self-
administered manner, it would be chaos. It is difficult enough 
to try to communicate to the political subdivisions in a 
formalized way. To then have numerous other regions would be 
very difficult.
    So I would suggest one of two things. One, that you 
predetermine the regions through the homeland security 
officials, or possibly that it goes through the Governors so 
that the Governors sign off. Is it appropriate, for example, 
that southern New York and New Jersey work together on a 
region? Absolutely. But I think it has to happen through the 
Governors or through a predetermined mechanism. Some would 
suggest that the New England States should automatically form a 
region which may or may not work as well. But to have cities 
and towns self-administer regions would be chaotic at the very, 
very least.
    There is also a discussion of a 25 percent match. I read 
that to understand a 25 percent match either from the States or 
from the cities and towns. I don't think that is needed. I know 
that the mindset there must be to have stakeholders to have 
some skin in the game, if you will, but by having a 25 percent 
match, you add another increment to the funding request and an 
increment, of course, is economic ability to pay. Some States 
may have the economic ability to pay, some may not. Some cities 
and towns may be able to afford a 25 percent match, and some 
may not. So if we are going to base this on greater risk and 
proportion, then I think we should take the economic--the 25 
percent requirement off the table, or at least suspend it for a 
few years until we go through the process.
    There is also discussion of the time for the pass-through. 
I have found in my experience, whenever we set up a schedule of 
time, in this case in the bill it talks about 45 days, 
everybody focuses on the 45 days; and if it takes longer than 
45 days, then it is not a success. So I would be a little bit 
more lenient on that period of time and allow the process to 
work its way through. This is a bidding process in many cases 
when States are procuring equipment and training personnel, and 
procedures have to be followed which may take more than that 
period of time.
    I must say that as a neighboring State to New York City, we 
lived through the horrors of 9/11. More than 150 Connecticut 
families lost a loved one. We lived through one of the five 
anthrax deaths that occurred in our country, and it was our own 
public health officials that helped pinpoint the contamination 
that took part in our mail system.
    I want to point out that when tragedy strikes, it is the 
Governors and the mayors that are the traffic cops. And as we 
consider any funding levels, it is important to remember that 
it is the soundness of the investment and not necessarily the 
speed of the investment that is made. What I mean by that is 
that the right investment against the right risk or threat is 
the way to go versus worrying about the particular period of 
time.
    The question of regional procurement again should be worked 
out, and I would encourage you to again work that through the 
Governors.
    I know that the bill suggests that it would be 100 percent 
consideration of the risk assessment and, to be facetious, I 
would say that in that case you would look at the risk and 
evaluate that certainly New York City and Washington, D.C. are 
the two greatest threats that we have in our country. Someone 
might argue we should take all the homeland security dollars, 
divide it down the middle and distribute that money to 
Washington, D.C. and New York City. Obviously, the threats are 
far more diverse than that. And although we recognize those two 
areas as dominant, we also know that each and every day the 
threat changes. One particular day it might be bridges. Another 
particular day it might be our borders. Another particular day 
it might be national historic landmarks. Another day it might 
be undefined biological attacks on our public water systems. 
Therefore, we need a continuation of the COPS program, the Fire 
Act, and many other existing grant programs. The emergency 
management performance grants are working very, very well.
    So the bottom line is that I would suggest that we maintain 
a minimum baseline of funding to all States to be used for 
training, to be used for basic equipment, and then incorporate 
a risk-need assessment for additional funding. I understand 
that the debate will begin as to what percentages and what 
dollars will apply. The key here is I don't believe we want to 
rob Peter to find money in the grant dollars to give to Paul, 
and I don't think anybody should suffer from the baseline 
support that they need.
    So the most important message I would like to leave with 
you today is that the 50 States are the key distribution 
points. The 50 States and the Governors are needed for 
coordination, for planning, for communication and response. It 
needs to be streamlined. I saw some of the reports from GAO 
with regard to streamlining and some of the confusion that 
takes place. You are right to pass the money on to the cities 
and towns through the States, not directly. That would be 
chaotic, at best.
    In reality, if there is disaster in our States, whether it 
is a State nuclear disaster, whether it is an anthrax threat, 
smallpox, bioterrorism, who is in charge? When there is a 
declaration of a state of emergency, who makes that 
declaration? And the answer, of course, is the Governors.
    This proposal goes in the right direction, Mr. Chairman. 
The theory is correct, and I would just encourage you to 
maintain a base allocation to the States and incorporate the 
risk assessment on top of that, and, to Mr. Turner's point, 
apply standards as well.
    So I think you are going in the right direction. The utmost 
flexibility given to the Governors and given to the States 
would be helpful. I believe that you will see that we will act 
responsibly in coordination with our cities and towns.
    In finality, I would say that just a few moments ago the 
press was asking me, well, the cities and towns haven't gotten 
their money, and that is a mindset that we need to get rid of. 
The focus should be that the cities and towns will get the 
necessary equipment they need to do their jobs based on the 
risks that we face in each and every one of our States. It 
should not be a formula which merely distributes funds to 
cities and towns for their use. With all due respect, you will 
then find what I call the toy grab, and everyone will be buying 
their favorite newest high-tech toy available. That is not the 
way to assess the threats that we face as States and the 
threats that we face as a country.
    So I thank you for the opportunity to make a few brief 
remarks, and I am more than happy to take any questions that 
you might have.
    [The statement of Governor Rowland follows:]

          Prepared Statement of the Honorable John G. Rowland

    Thank you Chairman Cox, Ranking Member Turner, and distinguished 
committee members for this opportunity to offer my testimony on 
homeland security funding and programs for first responders. It is my 
honor to appear before you to help represent the progress and 
challenges faced by our first responder community in protecting states 
and municipalities.
    Let me also commend you for the timeliness of this hearing as well 
as the support of Congress and the Administration to date in 
implementing a new Department of Homeland Security and assisting states 
with our preparedness. There continues to be uneasiness in America, now 
even two years after the attacks of September 11th, 2001. Citizens are 
concerned about their own futures and their own security. We must, 
through continued dialogue and actions, demonstrate the great 
commitment of this nation and our individual states to do everything 
possible to maintain a secure homeland. The willingness and leadership 
of both Congress and Secretary Ridge to make changes, implement new 
structure and programs, and seek feedback from those on the frontlines 
sends a powerful message to our citizens.
    The world in which we now live has been largely influenced and 
shaped by the events which occurred on a beautiful Tuesday morning just 
over two years ago. And while we are still coming to grips with a 
changed world, we have had to immediately act on the new reality of 
preparing for an enemy that can strike at any place, at any time, with 
virtually any weapon.
    States and municipalities have done just that.
    Over the last two years, as both a memorial to those who died and 
as a collective passionate attempt to do everything possible to prevent 
further attacks, there has been significant activity at all levels of 
government, academia, and private industry to buttress domestic 
preparedness and security.
    From this experience and as a result of our endeavors, emergency 
management has been redefined evolving from a natural disaster, cold 
war civil defense focus to a much more comprehensive and inclusive 
discipline. Barriers have been broken down and cooperation is at an all 
time high. But more can and must be done.
    All threats--from burning buildings to an odorless, invisible 
biological agent--must be considered. All stakeholders--from 
professional responders to volunteers to medical personnel--must be 
involved and highly trained.
    For government, the despair and destruction of 9/11 served as a 
jolting reminder that its foremost responsibility is to protect the 
health, safety and well-being of its citizens--there is no more 
important mission. The United States now spends in excess of $100 
billion per year on homeland security, not including military 
spending--certainly one measure of its commitment.
    But with this commitment, are we safer than before 9/11? That 
ultimately is the question before us today. The answer is yes--we are 
safer and each day that passes is safer than the one before. Still, the 
more we do, the more we learn what we need to do. The new and emerging 
dangers of today instruct us that we can only meet these challenges by 
developing a more comprehensive and shared vision of how best to secure 
America.
    And although we all feel the urgency to shore up our capacity to 
defend against and respond to new threats, we must give ourselves the 
time and space to do it right. I have been in your shoes. I know the 
tendency of Congress to measure and quantify all success in terms of 
time and speed. I would submit our measure for this particular mission 
should focus more on quality, integration, and effectiveness. The 
soundness of our investments is more important than the speed of those 
investments. In short, we must define and measure against set 
standards.
    One of those clear standards is to provide easily accessible 
funding, equipment, and training--that is the tools to respond--to our 
front line first responders.
    I am here today to speak in favor of several of the principles 
expressed in HR 3266, ``The Faster and Smarter Funding for First 
Responders Act,'' and other related pieces of homeland security 
legislation before Congress. Ultimately, together, we must craft and 
support legislation that with help make the day-to-day responsibilities 
of first responders and emergency planners easier and more effective.
    The three goals this legislation is built around are simple yet 
vital.
    First, grants must be allocated through--but not necessarily for--
state governments. Despite all the controversy and debate, states have 
effectively worked with municipalities and pushed funding and equipment 
down to the local level in accordance with state developed plans and 
Congressional guidelines. Governors clearly understand the importance 
of regional cooperation and mutual aid but we should not encourage 
regional efforts to be developed in a vacuum. Comprehensive, 
interoperable national and state plans simply cannot be created if 
funding goes directly to municipalities or other separate organizations 
without the involvement of a state.
    When large scale disaster strikes and local resources are 
overwhelmed, it is Governors who are directly responsible for the 
safety and well-being of our citizens. The buck rests at our desks. 
State coordination is essential and must be maintained.
    Secondly, we must streamline and simplify the grant process. The 
sixteen different grant programs spread across three major federal 
agencies, and several sub-offices, are simply too cumbersome and too 
confusing. The more overhead and bureaucracy at the federal level, the 
more overhead we must maintain at the state level.
    Thirdly, grants should be at least, partially, distributed based on 
threat analysis and unique regional vulnerabilities. All states and 
communities need a base level of response capabilities and we certainly 
should not do away completely with formula, non-competitive based 
funding. But let's put some substantial funding where the intelligence 
professionals think we have the greatest vulnerabilities and offer 
financial incentives for creative preparedness partnerships.
    All chief executives--whether governors, mayors, or county 
executives--are concerned about controlling budgets and the ability to 
provide matching funds. Available grants are of no use if we cannot 
afford the match. Unfortunately, that is a reality in today's economic 
environment. This is all the more reason why regional grant initiatives 
and applications for grants must be coordinated through the states. I 
have 169 municipalities who have their own tight budgets and look to 
the state for maximum assistance with matching funds. Allowing towns 
and regional entities to apply for their own grants, while looking to 
the state to help cover matching requirements, is simply not practical.
    Those real life economic issues mean we must keep two other 
principles in mind as we design future grant programs.
    We must approach this from an all-hazards approach and not short 
change the basic needs of our firefighters, law enforcement personnel, 
and emergency management professionals. We have a lot of catching up to 
do in basic infrastructure and communications improvements. That takes 
dedicated, restricted funding. We cannot loose sight that the most 
common and frequent threats to this nation and our states remain 
natural disasters, fires, and the scourge of drugs on our streets.
    That is why I am encouraged to see that most of the legislation 
before you will not modify the existing and very successful FIRE ACT, 
COPS, and Emergency Management Performance grants that are so vital to 
that progress. They are working, essential, and must be maintained. 
This funding provides the base level infrastructure, programming, and 
staffing that will allow us to take our preparedness to the next level. 
Let's not ``rob Peter'' to find new grant money for ``Paul.''
    Additionally, maximum flexibility must be a core component of 
future grant programs. For example, for too long grant funding for 
first responder training has been limited and restrictive. Although the 
equipment is starting to flow into the field, municipalities cannot 
afford to take their public safety employees off-line and get them 
through necessary training. We must improve access to training and help 
localities with the costs of personnel backfill and overtime.
    Both states and municipalities have proven that we can rise to the 
homeland security challenge, even in difficult economic times. While 
many Governors have made very painful budget decisions, including 
permanent layoffs of employees, we have used our own resources to 
respond to terrorism threats while keeping up with the management of 
federal homeland security grants
    States have obligated over 75 percent of the homeland security 
funding obtained through FY02. States and municipalities are now 
working jointly on new, detailed threat assessments and new plans in 
preparation for FY04 funding. Many Governors and legislatures have 
authorized millions in state funding to develop new offices to focus on 
homeland security, invest in new infrastructure, improve communications 
capabilities, develop new response teams, and respond to periods of 
heightened alert.
    In Connecticut, our experiences range from being one of New York's 
neighbors during the terror of 9/11 to having a citizen killed by 
anthrax spores sent through the mail. We have created one of the best 
staffed Homeland Security offices in the nation entirely with state 
resources. We have created our own state anti-terrorism task force to 
better serve the intelligence needs of local agencies. We have linked 
police, fire, and emergency medical incident commanders together 
through a single, statewide communications system. We have developed 
and trained regional mental health response teams to provide behavioral 
health services in time of crisis. We are bonding $3 million to equip a 
state Urban Search and Rescue Team. We expect to invest $30 million in 
a new state-of-the-art public health lab and portable 100-bed hospital 
to be prepared for any public health emergency. And I could easily go 
on.
    Like many other states, our experiences, initiatives, and 
capabilities are varied and impressive. We can effectively turn federal 
funding into tangible, effective preparedness.
    In summary, we must always keep in mind that there will be 
consequences for all of us if we fail to improve processes, streamline 
requirements, and focus on standards, not time. Specifically, we will 
end up with equipment that is not interoperable; purchases that are 
inefficient; response protocols that are not uniform; and training that 
is disparate. Now is the time to take stock of where we are, where we 
need to go, and what is the most efficient way to get there. We cannot 
afford to wait for the next tragic attack.
    Your continued efforts to help streamline this process and assist 
us with the challenges we face will surely continue to advance our 
readiness. Thank you for your support and consideration.

    Chairman Cox. Thank you, Governor. That was very useful 
testimony. In particular, I am impressed with the concern that 
you raised about subdivisions, political subdivisions of States 
looking to the State after they have applied as regions for 
matching funds. Would it satisfy your concern if no region 
would apply without disclosing the source of its matching 
funds, and to the extent that the matching funds were to be 
provided from without the region, there were a further 
requirement that the supplier of the matching funds be party to 
the application?
    Governor Rowland. My observation and my experience in the 
last 10 years says that regionalization will be very confusing 
in and of itself. Where we are right now is confusing. And the 
press reports that we have seen that the money has been wasted 
or hasn't made it to the cities and towns, that is all wrong. 
The money has made it to the cities and towns, but it is not 
like a fire chief is standing around with a check in his hand. 
He is standing around with new protective equipment, 
communications equipment, perhaps training, and contamination 
containers that we have supplied across our State.
    So my point is that if indeed there is a regionalization, 
it should take one of three venues:
    One, that it goes through the particular States. If we are 
going to have regionalization between southern Connecticut and 
Long Island, the two Governors should be part of that process. 
Otherwise, who knows what resources we have, what coordination 
we have, or what direction we are going in? If it is among 
States, again, I think there has to be some coordination that 
it is not just an effort to grab more dollars in a particular 
area.
    And then, third, the concept of cities and towns coming 
together would be a total disaster. It is complicated enough 
with the political systems that we have set up.
    With regard to matching dollars, I think I understand where 
you are going, and that is to require these political entities 
to have some skin in the game; in other words, to put something 
on the table.
    Chairman Cox. Well, no, actually, it is a different point 
that I am trying to make. It is literally responsive to the 
concern that you raise; it was not a concern that we had 
focused on previously. But if the concern is, as stated in your 
testimony, that subdivisions of States are applying for grants 
and then after getting the grant they are going to look to the 
State, with everyone being strapped for funds to match it, that 
the State will not be able rationally to plan or to provide.
    Governor Rowland. Mr. Chairman, I would eliminate the whole 
25 percent match to begin with. It doesn't bring anything to 
the table. The States, most States, 40, are still suffering 
through some kind of economic recession, and if it is required, 
you may not have the political entities--whomever they may be, 
whether it is the State, the cities and towns or the regions 
may not apply for those dollars because of the inability to 
match the 25 percent. I would also suggest to you that most 
Governors will not like the idea of passing on 80 percent of 
the Federal dollars to the cities and towns and then the State 
being required to match another 25 percent to the city and 
town. We would look at that as a string tied to that grant. But 
I think it becomes more difficult.
    Chairman Cox. In your comments you have referred multiple 
times to cities and towns as paradigm political subdivisions. I 
think it is useful that you are here as our witness today to 
describe the situation of Connecticut. I would just observe 
that Connecticut has, correct me if I'm wrong, approximately 3 
million people?
    Governor Rowland. 3.2.
    Chairman Cox. And so does my county in California, which is 
one of 58. We have cities with a lot more than 3 million 
people. So the paradigms are different, depending on where you 
look. I think it is correct that it would be somewhat chaotic 
for the Department of Homeland Security to have to deal with 
grant applications from all of the cities in Orange County, the 
cities and towns. But Orange County, jurisdictionally, and 
Connecticut is also, at least as a State, is geographically 
compact. Orange County and Connecticut may be comparable for 
this purpose, but we have a lot of different States. Some are 
vast, Alaska being the limiting case, very few people, but lots 
of territory. We have some that are compact with lots of 
people, and all different varieties. If we are not planning for 
the purpose of protecting the country and instead we start with 
the map that we got and the constitutional compromise that gave 
us 2 percent of the vote for every State in the Senate, and we 
do our funding that way, I think we are going to leave a lot of 
room for error.
    So I want you to know that we take your point, and that I 
don't think anybody here has in mind burdening you as the 
Governor of Connecticut with an unmanageable situation in which 
every city and town has the right to go apply to DHS. Likewise, 
the Secretary has made it very clear that he doesn't want the 
Federal Government to have that burden because the Federal 
Government won't be able to deal with that many suitors. We 
have to have the States in position to ration those requests. 
So I think it is an excellent point, and I think everybody on 
the committee appreciates it.
    Governor Rowland. Thank you.
    Chairman Cox. The gentleman from Texas is recognized for 
questions.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, Governor. There were several comments that you 
made that I certainly agree with. One was that no one, you 
said, should suffer from the baseline of support they need. 
That concept is very consistent with the legislation that I 
introduced with 144 of my Democratic colleagues, because what 
we do in our legislation is we provide for the determination up 
front of what the essential, if you will, baseline capabilities 
of every community in the country should be, by a task force 
consisting of first responders, local officials, local 
emergency management people, to take the threat vulnerability 
information that exists and to build a definition of the 
capabilities that you need in your State and our communities.
    The Chairman and I were approached by Congresswoman Emerson 
on the way to the floor a minute ago, and she expressed some 
concern about basing the funding solely on threat, because she 
represents a rural area, as I do, and she is also the cochair 
of the Rural Caucus. And she wanted to be sure that we 
understood that there are threats to her district from the 
march of traffic up and down the Mississippi River that may not 
be a threat today, but that clearly represent a vulnerability.
    You said in your testimony that you wanted all communities, 
and I quote, ``to get equipment based on the risk we face.'' 
And as you know, risk is composed of two elements: the threat 
and the vulnerability.
    So our proposal is that we have the planning process to 
establish the baseline and then we fund to that baseline, and 
by establishing that up front, we will have the ability to 
measure our progress. Because if we continue like we are, just 
ad hoc funding based on applications coming to Washington, we 
will never know whether we have achieved a given level of 
preparedness or not.
    I also liked what you had to say about the problems of 
regional administration. You said self-administered 
regionalization will not work, and I certainly agree with that. 
The way we attempt in our legislation to get around that is 
through this planning process that establishes a baseline, 
which the task force and the Department of Homeland Security 
that reviews the task force recommendations, we would hope, 
would force regions to plan together so that when we determine 
what kind of capability, for example, we needed to have to deal 
with a chemical attack, then many times that should be looked 
at in terms of what is the regional capability to move to the 
location of that attack and to deal with it successfully.
    So we would attempt to get regionalization in the basic 
planning process for the determination of what you call the 
baseline.
    So I don't know how that strikes you, that approach, but I 
would be interested in your comments about that direction that 
we envision.
    Governor Rowland. Well, Congressman, you make some very 
good points. I think we are all going in the same direction. I 
observe that the devil is always in the details, and the devil 
always becomes the process in who gets what.
    My experience tells me that you have to find the honest 
broker, and that is really the challenge that we are facing 
today and as we move ahead. Is the honest broker the Department 
of Homeland Security? Is it the entire United States Congress? 
Is it the task force you refer to, or is it the advisory 
committee of first responders that do report to Governor Ridge?
    The States are required to submit State plans, and in that 
we do our own assessments and we commit to the homeland 
security folks that these are the risks that we see. We have 
asset lists, we have all kinds of evaluations that take place. 
And then the hard part begins, because I do know Congresswoman 
Emerson's district, and her needs and her costs and her 
baseline are certainly different than what I need in my State.
    So having said that, I again kind of fall back to a 
baseline of support as determined probably by Homeland 
Security, with input from the Congress. I think what we are 
trying to avoid at all costs is take the funding, make up a 
number, and divide it by 435 and we are finished. That is kind 
of the process, left unsaid, and we all know that. That is the 
fairest and easiest process. We could pass that bill in about 5 
minutes, but it is not the right thing to do, because the 
biological terrorism that we may face in the northeastern part 
of the country is significantly different than the threat in 
Missouri. Nuclear threat. If we have a nuclear threat, there 
are 30 States with facilities. Ports, and, of course, airports 
and so forth.
    So define the baseline. It is the baseline that every 
single firefighter has protective equipment and HAZMAT training 
and portable radios and segues and the latest and greatest. 
Maybe, maybe not. But my concern is process, and I think the 
only way you can find the honest, most honest broker, if you 
will, is either homeland security folks in concert with 
homeland security State officials and the Governors. Not to say 
that we are not prone to political pressures and everything 
else, but perhaps at the end of the day when the call comes and 
that 911 call takes place, that call doesn't come here, it goes 
to that first responder. And in the best of all worlds we are 
trying to anticipate what that vulnerability is, to your point, 
what the risk is. And that is why I believe and my best guess 
is you are going to have some number between .25 and .75, that 
is going to be the baseline to States, and then whatever 
difference is there, and then some--because this is not a one-
shot deal by any stretch of the imagination, this is forever, 
at least our adult lives--that difference in funding will 
probably, hopefully, I would suggest, be determined by the risk 
and the threat.
    Mr. Turner. Thank you, Governor.
    Governor Rowland. Thank you, Congressman.
    Chairman Cox. The gentleman from New York, the chairman of 
the Committee on Science, Mr. Boehlert, is recognized for 
questions.
    Mr. Boehlert. Governor, I want to thank you very much for 
excellent testimony. You presented a case very effectively and 
logically. And you are absolutely right. The States are on the 
firing line, and I agree with your basic thesis.
    A concern I have is, would you be receptive to some sort of 
limitation on administrative costs for States? Because we have 
found from time to time when we have pass-through programs, the 
State is supposed to pass it through, and then a 
disproportionate share of the resources are used up for 
administrative charges.
    Governor Rowland. Absolutely, Congressman. I think that is 
a great point. Governors will always tell you we want 
flexibility. I mean it is in our oath of office, you know, that 
we want flexibility from all of you. But when we are getting 
Federal dollars, I think you have a responsibility to the 
taxpayers, and we do as well. We don't want to create a 
situation where the dollars are glommed in creating fiefdoms 
and creating empires called homeland security offices. And we 
do want to pass it on. One of the requirements, frankly, is 
that you pretty much require us to pass on 80 percent to cities 
and towns, and that is appropriate. The hard part, to the 
Chairman's point, is we pass on 80 percent and oh, by the way, 
then you have to match the 25 percent. You will find Governors 
aren't going to be crazy about that. But we have no problems on 
restrictions on administrative costs, making sure the dollars 
get where they need to go.
    But I think if we do anything today, I hope we get away 
from this idea that fire chiefs and police chiefs are going to 
be running around with checks in their hands. That is not the 
process, in my opinion. If they are running around in 
protective clothing and training and decontamination containers 
and HAZMAT training, then we are getting somewhere. But this 
should not be a check distribution system. If it is, then we 
are going in the wrong direction.
    Mr. Boehlert. Well, we would all agree with that up here, 
too. We don't envision this as a check distribution system, we 
envision it as a method to get the equipment to the people who 
need the equipment and in that regard, we want to get it to 
them sooner rather than later.
    Let me ask you one other thing. Do you think that the 
Department of Homeland Security Information Analysis and 
Infrastructure Protection Directorate, is that the place, based 
upon your knowledge, are they adequately prepared to make 
threat assessments?
    Governor Rowland. That is a good question. My experience is 
getting information from Governor Ridge on kind of a monthly 
basis, and they are very good about disseminating the 
information to the Governors. Nine times out of 10, it is not 
with reference to any specific area. It is very generic 
information. It sends shivers down our spines as we try to 
figure out what our vulnerabilities are as Governors but, for 
the most part, I think that the Department is doing a better-
than-expected job in collecting the intelligence information, 
in sharing it. And you know and I know, getting intelligence 
operatives, whomever they may be, from the CIA to the FBI and 
any other information we can gather, we are breaking a culture 
of getting them to share information. So that is quite an 
extraordinary event. But Governor Ridge seems to be doing it 
better than any expectation I think any of us had, and has been 
able to get the information to us.
    The proof of the pudding is that we have had a pretty good 
2 years, and the proof of the pudding is that we are getting 
better at it every single day.
    Mr. Boehlert. Well, I too would give Governor Ridge very 
high marks. I was comforted by the fact that you indicated on a 
regular basis, I think you said weekly, the Governor and his 
team at DHS is in contact with the Governor's conference calls?
    Governor Rowland. Either talking to us or homeland security 
directors, or in contact all the time, weekly.
    Mr. Boehlert. Thank you very much. Thank you.
    Chairman Cox. Mr. Thompson is recognized for questions.
    Mr. Thompson. Thank you, Mr. Chairman. Welcome, Governor. I 
am sure you have had this experience many times.
    Some of us don't have the luxury of living in urban areas 
and, therefore, sometimes get overlooked as we prepare 
vulnerability studies and threat assessments. But as I look at 
the legislation before us, I like to talk about some things 
that any legislation ought to have. As I talk to mayors and 
commissioners and other things, they say every time we raise 
the so-called threat levels, it costs us money. And in return, 
we don't get anything back from the agency that caused the 
threat level.
    Do you think it is feasible to include in this legislation 
some reimbursement for the elevation of those threats?
    Governor Rowland. Congressman, you are asking a Governor if 
he would like to be reimbursed from the Federal Government? All 
day long. You raise a very legitimate point. When we do raise 
the threats, our State police, we have incurred costs to the 
State and generally some of our cities incur some additional 
costs. So we work very hard at trying to figure out what the 
incremental difference is, and try to reimburse them through 
the Federal dollars when it is allowable, or through our own 
State dollars. The truth of the matter is that it is going to 
become a way of life. It is going to become kind of a daily 
cost of doing business, if you will, in protecting our 
citizens. But if we can be smart about figuring out the 
incremental difference when we change our codes for example, we 
send more State police, for example, to the nuclear facilities 
or Border Patrol.
    Mr. Thompson. Well, I understand that, but I hope you are 
aware that one piece of legislation allows for the 
reimbursement and another does not. What I am trying to get 
from you is that whatever legislation that comes forth from 
this committee should have that as an integral component of it.
    Governor Rowland. I guarantee you the Governors would love 
to get more reimbursement.
    Mr. Thompson. Not more reimbursement--.
    Governor Rowland. More than what we have now. Well, there 
is a process for reimbursement that we follow.
    Mr. Thompson. But under this legislation, you don't have 
that.
    Governor Rowland. It might be silent on it, yes.
    Mr. Thompson. Well--.
    Governor Rowland. But that is why if you pass through the 
dollars to the States and give us some flexibility, we could 
respond to that. But I am sure in the committee process--.
    Mr. Thompson. But the pass-through is not in the 
legislation that we have considered.
    Governor Rowland. That is correct.
    Mr. Thompson. So I am just trying to make sure we keep that 
in whatever we pass.
    The other notion is interoperability or the ability to 
communicate. One legislation is silent on it and another makes 
it a priority. As a Governor, do you think the ability for 
police and fire departments and other emergency personnel to 
talk to each other is something that ought to be in any kind of 
legislation?
    Governor Rowland. I would suggest to you that it has 
probably already been done. The very, very first thing that I 
did with $2.9 million that I received from the Federal 
Government was to buy a portable radio communications system 
for every mayor and first selectmen, for every fire chief and 
for every police chief in every one of my political 
subdivisions. We have that intact.
    Mr. Thompson. And you are to be congratulated.
    Governor Rowland. I suspect that most States have already 
done that.
    Mr. Thompson. But they have not.
    Governor Rowland. Well, then, Governors ought to think 
about it.
    Mr. Thompson. I am just saying that if we are trying to set 
public policy from a national perspective, then we should make 
that a benchmark for the legislation so that people can talk to 
each other.
    Governor Rowland. The first thing we did.
    Mr. Thompson. I am not--.
    Governor Rowland. I am just suggesting to you that 
Governors are smart enough to figure out that is the first 
thing you should do, and whether you make it a benchmark--if 
you make it a benchmark, I think that is fine, but I think you 
will find most States have already done that.
    Mr. Thompson. Well, you individualize it, and then you do 
the other. But I am just saying that the legislation that we 
are talking about now does not make that a priority, and I 
think it should be, and I just asked your opinion. I am not 
trying to--.
    Governor Rowland. Okay.
    Mr. Thompson. The only other thing is you--no other 
questions.
    Chairman Cox. I thank the gentleman. I will just observe 
that we actually haven't any disagreement on either side of the 
aisle on the importance of interoperability of communications. 
The spectrum allocation question to which the gentleman refers 
by agreement between this committee and the Energy and Commerce 
Committee is within the jurisdiction of the Telecommunications 
Subcommittee and the full Committee on Energy and Commerce, and 
we are not going to legislate in that area. But for that, I 
don't think there would be any question we would have our own 
bill on it.
    Mr. Thompson. Well, but, you know, until we get some 
jurisdiction--and you know we go across the waterfront, we are 
a select committee.
    Chairman Cox. But I think on the bill that allocates 
spectrum for first responders, we might well seek a sequential 
referral. But I don't think as Chairman I am prepared to ask 
for jurisdiction even for a permanent Homeland Security 
Committee over the spectrum.
    Mr. Thompson. Well--and I still have a little time. My 
point is for a lot of communities, the ability to communicate 
is important, so we are talking about first responders and 
other things. I think it is clear that that is an important 
part of any legislation. So if, in fact, we are talking about 
emergency preparedness, the ability to communicate is 
essential. I don't think we ought to pass it; I think we ought 
to acknowledge it and suggest that it should be included.
    Chairman Cox. Well, I agree strongly with the gentleman, to 
the maximum extent that we can do so jurisdictionally in which 
committee, we should do. As you know, two members on this 
committee on the majority and minority side, Mr. Weldon and Ms. 
Harman, have testified before a hearing of this committee on 
this subject. I think we have complete bipartisan agreement.
    The gentleman from Connecticut, the Vice Chairman of the 
Committee on Government Reform, Mr. Shays is recognized for 
questions.
    Mr. Shays. Thank you very much, Mr. Chairman.
    The Connecticut delegation of Governors is very proud to 
have you here, and appreciate your outreach to the local 
communities. And the way you have communicated with them has 
been very helpful. And we think your Department has done a very 
good job as well.
    The question I ask you is to respond to what Senator Rudman 
did in his report that basically said we are giving money and 
we don't really have any standards to decide how it should be 
given. The States are being asked by the Department of Homeland 
Security to tell us your capabilities. But, for instance, if a 
local community says we can put out three fires at once, the 
question we then have is should the standard in that community 
be two or should it be four. In other words, is there 
capability matching what should happen or not. And I would like 
you to speak to how you are wrestling with standards and any 
recommendations you could have for us.
    Governor Rowland. Thank you very much, Congressman.
    Let me say first of all that the States don't operate in a 
vacuum and each and every State has the ability and is charged 
with assessing the threat to their State based on obvious 
issues, intelligence information, things that are shared with 
us, and based on what we have that is unique to our States, 
nuclear facilities, airports, shoreline, bridges. And the 
process right now is a lot simpler than we all think it is. We 
then put a proposal together. We submit it to Homeland Security 
Federal and say, listen, we need radios.
    To the point of Congressman Thompson, we very early 
determine we need the communication capabilities between our 
fire, police, and, of course, local officials and our State 
police. So we made the request. That was a no-brainer. That 
money came through quickly.
    Now after 2 years have passed and we have gotten through 
the initial stages and the sense of urgency, if you will, in 
getting some basic things in place, now we should be talking 
about standards. And I know that your committee has discussed 
it. Should be basic minimum standards to be followed. The hard 
part is measurement; how do you measure the standards in 
Connecticut and New York versus what may or may not happen in 
Utah? But I think that homeland security folks in concert with 
this committee and in concert with the Congress can come up 
with standards, so we have some measurement and some baseline, 
and we do that every day of the week.
    What I would suggest to the committee, and as I listen to 
some of the questions and as I watched the comments over the 
last several months and I have seen the press reports, what I 
think we want to avoid, we want to avoid an entitlement 
program. We want to kind of steer away from this concept that 
everybody deserves something, because. Make us prove, make the 
States prove what our needs are. Make us prove what our 
possible threats are, what our vulnerabilities are. And if I 
don't have radios, I need radios. If I got radios, I want to 
get contamination containers or monitoring equipment because I 
am near New York City. I have got a lot of ports or I got a lot 
of bridges. I may want something different. Make us prove, the 
homeland security folks, what we need, not based on entitlement 
but based on logical, thoughtful standards and hopefully 
objective information that is presented. I think that is really 
the challenge we are floundering through.
    Mr. Shays. If you were in New York City, the Bronx has 
about 2-1/2 million people. Our largest city is 140. So your 
administration has sought to have local communities team up. 
Can you kind of--and then apply for grants, not just from the 
Federal grant, but from the State. Can you speak a bit to the 
success of that?
    Governor Rowland. You bet. We bonded State money, about $3 
million for our own search and rescue teams. We have done a lot 
of regional mental health programs. We have linked, obviously, 
our police and fire regionally, but also we have done it 
directly with our State police. But the next step--and I was 
talking to the chief about this earlier--we recognize our 
threat and vulnerabilities are very much connected to Long 
Island, Long Island Sound, and New York City, evacuation 
issues, our airports, certainly our nuclear facilities. There 
are three within a pretty short stretch of mileage. So those 
are issues that we can regionalize and we do anyway because we 
need to--you know, nuclear problems and bioterrorism problems 
know no State borders, so we need to be working together on 
those issues. We will spend money at the State level rather 
than wait for the Feds. If we get money from the Feds, great. 
But I don't think there is a Governor in this country who sees 
a threat and sits back and waits 2 years to get radios, for 
example. You just got to go get them. And if you get 
reimbursed, fine. If you don't, then you know you have to do 
it.
    Mr. Shays. What is the most difficult challenge you have as 
it relates to homeland security?
    Governor Rowland. That is a good question. It is the most 
difficult challenge that Tom Ridge faces every day, an unknown 
threat by an unknown enemy at an unspecified time. And how do 
you not wreck our civil form of society and interrupt our 
lives--I am not talking about convenience but interrupting our 
lives--but at the same time provide as much protection as you 
possibly can?
    I think we are finding that balance every day. And I would 
say to you that every day it gets better. And we are learning. 
And the reports of the masking tape and all that stuff is 
behind us. We are now down to some real stuff and real focus. 
And you will hear from others who will be testifying today that 
I think we have come a long way in a short period of time. And 
I for one am impressed with what the Homeland Security Division 
has done and the work Tom Ridge has done.
    Mr. Shays. I thank you for your leadership on this issue 
and I yield back the balance of my time.
    Chairman Cox. Thank the gentleman. The gentleman from New 
Jersey, Mr. Pascrell, is recognized for questions.
    Mr. Pascrell. Mr. Chairman, I just want to clarify 
something before I ask the Governor some questions if I may. 
The figure of $4.4 billion in first responder funding, $915 
million of that is really the results of money for nonterror 
programs, basic needs as the Governor referred to it. And the 
$100 billion that the Governor referred to in his prepared 
remarks, two-thirds of that comes from the private sector in 
investment. I just want to make that clear, because we have the 
tendency to meld these dollars, and folks are apt to think that 
all Federal dollars are included here. We are talking about 
private investment as well. And I wanted to make that very, 
very clear before we went on.
    Governor I think you make a very, very cogent point on page 
3 of your testimony, second paragraph up, that you--we know 
that there is a difference between basic needs with our first 
responders. The Congress has tried to respond to those basic 
needs, not only through the Fire Act, which I think you 
rightfully say should be held harmless and separate from other 
programs that we are discussing today. The Fire Act was passed 
before 9/11 and dealt with very specific needs of our first 
responders. But you also referred to the COPS program as being 
an entity onto itself. And yet you know that there is a 
recommendation from this administration to reduce the COPS 
program by $560 million.
    Now your Governor, like most Governors, are struggling with 
budgets, like most mayors, like most councilmen. And that money 
has gone a long way in providing police officers in what we 
would call basic needs on the streets of Connecticut, and yet 
here we are discussing the threats of terror. You don't accept 
that proposed cut by the administration, do you, in terms of 
the COPS program, which has truly been proven, according to the 
Governors, effective in reducing crime in this Nation?
    Governor Rowland. Congressman, as I have learned from my 
experience in Washington, that a cut may not always be a cut. 
And before I give you an answer, I sure would like to know what 
the numbers were last year and what the proposals are this 
year, because there is a tendency for what I call the 
Washington talk and the Washington cuts. So I don't know what 
the numbers are.
    Without regard to the numbers, the COPS program is a great 
program and we do support it, and I endorse it as well as the 
Fire Act and other emergency programs that I made reference to. 
So I don't know if the jurisdiction of this committee takes in 
the COP act or not.
    Mr. Pascrell. No, it doesn't. But I think, Governor, what 
you are saying is that here we are talking about those things 
beyond those basic needs that communities have and States have. 
And the COPS program was in response to that. And the police 
officers have a lot to do with the protection of our 
communities, particularly in the area of terror. And yet we are 
reducing those very basic needs. And yet we will be talking 
about homeland security dollars going to the communities. It 
doesn't make sense.
    Governor Rowland. If I understood you correctly, I thought 
you said it was a proposal by the administration. That means 
that the Congress will take some action on it, and I suspect it 
won't be reduced, and whatever the numbers are--and I will let 
you guys figure that out but whatever the numbers are, I 
suspect it will not be reduced from last year. And I can sit 
there and start to calculate the money that is being spent now 
at the airports and the reimbursements and the number of 
Federal employees and the billions and billions and billions of 
dollars being spent on homeland security. And we are getting a 
lot of flexibility, the States have gotten a lot of 
flexibility, and we have been able to respond to, quote 
unquote, the basic needs. And I don't think anybody would argue 
across the country that our basic needs, if we use that term, 
had been enhanced, dollars had been enhanced, and that our 
police and firefighters are better prepared than they were 2 
years ago. No question about that. Could we do more? Could we 
use more funding? Absolutely.
    Mr. Pascrell. Governor, I think Connecticut, from what you 
are telling us, is moving in the right direction. If you had 
your choice then in terms of where the Federal dollars go, 
where would your priorities be?
    Governor Rowland. I think that the proposal that the 
dollars go through the State to the cities and towns is fine, 
because that is where the first responders are, the 80 percent. 
I would suggest to you that we continue to do the grant program 
where we do have the flexibility and the requirement, as I said 
in answer to another question, to show where our needs are, and 
stay away from the kind of entitlement bells and whistles and 
stick to some of the basics. If one State doesn't have 
appropriate communication equipment they should have the 
flexibility to request those dollars. If I determine with my 
homeland security folks that I need bomb trucks and I need 
monitoring equipment because I am concerned about bioterrorism, 
or if I want to have more border patrols for different States, 
then I think we should be allowed to put the resources there.
    Mr. Pascrell. You recognize, Governor, the Federal 
responsibility in these matters. I asked you a very specific 
question: What are your priorities at this point in Connecticut 
in view of what the State has done already? I mean, we are 
trying to determine where dollars are needed and where they 
will be spent without a national assessment, a risk assessment. 
And this is a very dangerous road for us to go down. We are 
going to be spending money we are going to find out we 
shouldn't have spent. What do you say in Connecticut are your 
basic needs for terror, to combating terror?
    Governor Rowland. I will repeat myself by saying, give me 
the flexibility to assess my vulnerabilities; and my 
vulnerabilities may be significantly different than other 
States. So we have responded to the communications. I may need 
more dollars for training on HAZMAT. I sure would like to get 
all the best equipment for every firefighter, throughout my 
cities especially, and then try to get some into the other 
rural communities. If you understand the process of 
application, we are tested and challenged to prove what the 
needs are to make the request, and then the grants come our 
way.
    Mr. Pascrell. If I do say so, I think your answer is 
evasive, and this is why I say that with all due respect. I 
asked you two times, given your basic needs are being responded 
to, given the fact that Connecticut has gotten out in front on 
a couple of the things that you brought out very distinctly and 
specifically in your report, then what do you need right now? 
You are saying to me and to this panel, give us the flexibility 
to find out what we need. And I am saying to you, we should be 
past that. And you should be telling us what are your basic 
needs that you can't afford to provide as a State and need 
Federal help in. And I don't think that that is an unrealistic 
request on my part, if I do say so through the Chair.
    Governor Rowland. I don't think you are making an 
unrealistic request. I am just giving you an honest answer. 
Congressman Thompson mentioned in his particular State he does 
not feel they have the communications equipment for his State. 
I am telling you that we got radio equipment and we got 
equipment for bioterrorism. We have 34 decontamination 
trailers. We have bomb trucks and robots. We have training for 
most of our cities and towns. But what you might not understand 
is that technology is changing even as we speak. And as the 
technology changes, I might want more monitoring equipment so I 
can pick up bioterrorism. I might want more equipment for the 
Department of Public Health. I have trained public health 
officials in case there is an outbreak of smallpox. I may need 
more training for our police officials to respond to something 
that may or may not occur at our ports or nuclear facilities or 
at our airports.
    So the answer is we need to continue to do more of what we 
have been doing for the last 2 years. And to quantify it in 
just one area is not appropriate, because there is no way you 
can quantify the threat. The threat is across the board. And 
today it might be my airports, tomorrow it might be my nuclear 
facilities. Day after, it might be my bridges. It might be the 
effect it is going to have on the bioterrorism.
    We have had anthrax in our State. Can you monitor anthrax? 
Do you know how to monitor anthrax? We are just learning how to 
do that. No one knew what anthrax was 2 years ago. So we may 
need the best possible technology for monitoring in all of our 
cities and perhaps in every single town. So this is a moving 
target. This is a work in progress. And you will find Governors 
diligently working with the best scientists, researchers, and 
public health officials and firefighters and police officers to 
prepare for the future, and that is where my answer is that I 
need flexibility and I need to figure out what tomorrow's 
threats are going to be, because we don't know what it is going 
and when we know what it is going to be tomorrow, we will get 
the proper equipment and be ready to go.
    Chairman Cox. Thank the gentleman. The gentleman's time has 
expired. And the gentleman from New York, Mr. King, is 
recognized for questions.
    Mr. King. I wasn't here during the Governor's testimony. I 
was over on the House floor, so I will yield my time to 
whomever on this side.
    Chairman Cox. Mr. Sweeney is recognized for some questions.
    Mr. Sweeney. I thank my friend from New York.
    Mr. King. If I had known that, I wouldn't have yielded.
    Mr. Sweeney. Thank you, Mr. Chairman, for the time. And I 
want to thank the Governor--this isn't faint praise, Governor. 
Your testimony has been the most concise and enlightening 
testimony that I have heard in 2 years while working 
specifically in this area as it relates to solving this 
fundamental, convolution of problems, and how we get the money 
to where we need to get it so we have the most impact to 
protect the American public. I have to tell you that.
    Serving on the approps side, the Homeland Security 
Subcommittee, I don't think it is--I was probably a principal 
in getting the high-threat urban density formula changed on the 
80-20. My friend and your colleague and my former boss, 
Governor Pataki, wasn't crazy about the idea. But coming from 
the 32nd largest rural district in America, I thought that was 
a practical way to make sure the dollars got to where they had 
to go.
    And your testimony seems to me to provide a great level of 
clarity in terms of what the challenge in Congress is ahead of 
us. I agree we need to avoid the notion that this is an 
entitlement program and that we need to find the honest broker. 
I am not so sure I know whether the honest broker is going to 
change based on circumstances that are presented before us.
    I have my own horse in this race a little bit. I have a 
bill, a formulation bill that bases funding on threat, 
vulnerability and consequences. ``Consequences'' being sort of 
a state-of-the-art term that says DHS, the States, and the rest 
of us all planning this out need to look with some aforethought 
as to what is going to be needed based on whatever the 
particular threat and challenge is going to be ahead of us.
    I would like to hear a little bit about your notion of the 
aforethought we can provide for this. But it seems to me the 
only difference I have with what you said and it is minor and I 
think you are right, we are real close to being able to figure 
this process out--is in establishing a minimum baseline support 
percentage. In my bill, we have it at 40 percent. How do we 
ensure that the hybrid cases in terms of threat-based dollars 
are taken care of? And I will give you a couple of examples.
    For example, Ray Kelly and Mike Bloomberg stand at a higher 
level of threat than almost anybody else in the country every 
day of the week. That means they obviously incur substantial 
costs, most of which they have not been reimbursed for from the 
Federal Government. Nevertheless they do it and do it, I think, 
better than anybody else in the world. The Port Authority of 
New York is a cross-jurisdictional enforcement entity and has 
enforcement responsibility at the World Trade Center, but it is 
essentially only responsible for first responder dollars on the 
20 percent figure rather than something else.
    And that is the real challenge that we all have here in 
trying to find something that isn't ``one-size-fits-all'', 
flexibility, but in real-time gets dollars to real places. And 
I would like your--I mean, I heard you say earlier that there 
needs to be some predetermined mechanism that has the States in 
there. You are absolutely right. That is why we had some 
percentage arbitrarily to do that. How are we sure Ray Kelly is 
going to be heard as well, and the extra layers of flow-through 
don't just cause a layer of hardship for Ray Kelly to get his 
the job done?
    Governor Rowland. That is the essential question, and the 
Chairman's bill I think begins to speak to this discussion. And 
the important factor to know is that Ray Kelly is going to have 
a different mission than there might be in other parts of the 
country. So if, indeed, you can in your collective wisdom come 
up with a baseline, a base amount--and we can argue that until 
cows go home in terms of what is baseline and what is readiness 
and how much is enough--it is what it is and whatever the 
number is going to be, then we will work with them. Then I 
think it makes a heck of a lot of sense for Ray Kelly to 
compete with me and make the argument to Homeland Security that 
their risk is greater than mine and whatever dollars are left 
over should go to the port authority, New York, police, fire, 
versus Connecticut. And I think that is the way it should work.
    And this is unlike anything else we have ever done. I mean, 
if you think about it, all the grants and things we do on 
education and human services and everything else is based on--I 
mean we got all the factors. We got population, poverty, 
income. There are 10 of them that we universally use for other 
formulas. This is different.
    Mr. Sweeney. Do you think DHS in that capacity can serve as 
that honest broker, at least based on what we know at this time 
and place to make that determination on that competition?
    Governor Rowland. Yes, I do. And I think it is because that 
is the only broker that can negotiate or can differentiate, if 
you will. Is there a lot of discretion there? Yes. But 
ultimatelyse hearing--and I had, for example an anthrax case--
ultimately you are the first line and the first responder. I 
had a 94-year-old woman die of anthrax. There was no way in the 
world I could have predicted that that was going to happen or 
combatted it or protected against it. That is what we up 
against, the unknown.
    So if HHS suggests with all their officials that a 
bioterrorism threat is greater in a 60-mile radius of New York, 
then you know what? That is good enough for me. And I think we 
need to put the necessary resources to address that. CDC and 
others will be the ones that will respond to any real or 
perceived threat.
    Mr. Sweeney. And I understand my friends on the other side 
of the aisle and Mr. Turner's bill call for the creation of an 
advisory group. And I understand the rationale of that. It is 
really sort of a basic sense of insecurity on the part of 
Members of Congress that if we don't develop something that 
devovles down to the most
basic levels, whether it is Ray Kelly or the fire chief in 
Schaghticoke, New York or somewhere else in the world, they are 
not going to be heard in this process. And I think that is why 
this hearing--.
    Governor Rowland. Could I make a political observation? I 
would suggest that it is an unnatural act for Democrats or 
Republicans in Congress to send any money back to the States 
without strings attached.
    Mr. Sweeney. That is where Mr. Shays' standardization comes 
into play. And I want to say thank you to the Chairman for 
incorporating the language of 2512 into his underlying bill. 
And I look forward to working with him and the Ranking Member 
in making sure this committee gets something that you can work 
with.
    Chairman Cox. Thank the gentleman. The gentlelady from New 
York, Ms. Lowey, is recognized.
    Mrs. Lowey. Thank you. Before I ask you a few questions, I 
just want to recognize Commissioner Kelly of New York. We have 
several hearings going on at the same time, so our movement in 
and out does not reflect our commitment and our interest in 
this issue.
    And I just want to say to you, Governor, that I am sure 
that you would support, given the proximity of Connecticut to 
New York, Commissioner Kelly's request for reimbursement of 
$261 million that he has spent on Operation Atlas. And if I get 
back in time to ask the Commissioner additional questions, I 
think it is important that we pursue this, because he has only 
been reimbursed 60 million. And I hope it is not a matter of 
time when New York will have to cut back because of all the 
other demands.
    And I also want to say at the outset, I am pleased to be 
working with my colleague, John Sweeney, on the whole issue of 
formula, because it really doesn't make sense that Wyoming may 
get upwards of $9 per capita and New York gets about $1.80; and 
then there are other formulations that say New York gets 5, and 
it is even higher for Wyoming. I think we do need a real 
formula based on threat assessment, vulnerability, et cetera. 
Just to give the money out across the country per capita to 
satisfy everyone's political needs without a real analysis of 
threat just doesn't make any sense to me. And I know in your 
wisdom you would agree with that. And I am hoping that Mr. 
Sweeney I and others who are really working on getting some 
real solid formula will get your support and the support of 
others.
    I wanted to refer to a recent report from the Conference of 
Mayors entitled ``Tracking Federal Homeland Security Funds Sent 
to the 50 State Governments.'' It highlighted many of the 
deficiencies of the current system of allocating Federal funds 
to State and localities. The results confirm much of what the 
first responders, frankly, in my district have been telling me 
for months, in all kinds of language, that funding from the 
Federal Government is coming too slowly, is not reaching the 
areas most in need, is not adequately reflecting input from the 
first responder community. This is not what Congress envisioned 
when appropriating money for our first responders.
    So perhaps--and I apologize if you discussed this before, 
based on the briefing I had, I don't think you have--if you can 
tell us in your judgment what are some of the challenges that 
you face, that States face, are facing, in distributing Federal 
funds to counties and municipalities? And how can we better 
incorporate the input of mayors and first responders to better 
allocate Federal resources based on real needs?
    I know in New York, I keep hearing from first responders, 
we are not in any better shape now than we were on September 
11. And I keep hearing from those who are distributing the 
funds, it is coming, it is coming, don't worry, it is coming. 
So perhaps you could comment on those two quick questions.
    Governor Rowland. Couple of thoughts. I am trying to a lay 
this illusion that checks are being sent to firehouses and 
police stations. And the truth is that Governors, in working 
with their homeland security officials, are doing the best they 
can to analyze the needs of our communities and then hopefully 
prioritizing. I think that is the key word I haven't used yet, 
``prioritizing'' what the needs are and how we get there from 
here.
    Having said that, we talked about radio technologies and 
talked about HAZMAT training and equipment. I am afraid that 
there is a lot of miscommunication to the first responders. And 
there is a first responders advisory committee to Governor 
Ridge, and they do an excellent job. I think the real challenge 
for Governors is to communicate directly with the first 
responders and the mayors and the police chiefs and find out 
what their needs are. Now the grab bag mentality takes off. We 
need a new fire truck. We need new this, we need a new that. I 
need a new fire boat for the Sound and so forth and so on. And 
I would argue with all due respect to my 169 fire chiefs and 
police chiefs, they may not have the information, the 
knowledge, or the capability to determine what the real threats 
are.
    Now, do they want stuff? Do they need stuff? Absolutely. 
Are they getting what they need to respond to the real and 
perceived threats that we face as a Nation and as States? We 
are in that process. And we are in that process.
    Mrs. Lowey. Where in that process?
    Governor Rowland. I can't speak to exactly what New York 
has or doesn't have, but billions of dollars have gone into the 
State. In Connecticut we now have the capability for 
communications. We have done training of all of our 
firefighters and HAZMAT, bioterrorism. We are also--we haven't 
said a lot about our public health officials. That is a whole 
new area where you have to train hundreds and hundreds, and, in 
the case of New York, thousands of public health officials how 
to respond to a bioterrorist attack. Bomb equipment, 
decontamination trailers, all the things we are trying to do to 
respond on a daily basis to what we think the threats are.
    I know $4.2 billion has been distributed. And I think the 
problem is--and if you think it is hard to watch with where the 
$4.2 billion is, imagine as we talk about this issue how you 
are going to keep track of the billions and billions dollars 
more and making sure it goes to the right places.
    What I come back to is the necessity of the money coming 
through the States and charging the Governors and their 
homeland security people to prove the needs, the 
vulnerabilities, and what we have or don't have in our arsenal, 
if you think about our arsenal to combat terrorism. And some 
States are more prepared than others and better prepared. And 
are there going to be firefighters out there complaining they 
don't have enough HAZMAT material or protective gear? 
Absolutely. Are we going to get there eventually? Yes.
    Mrs. Lowey. Following up on that, I have heard from many 
that there is a major obstacle standing in the way of our 
security, that State and local governments have not received 
clearly defined guidelines from the Federal Government to 
determine a basic level of emergency preparedness. Now maybe 
the Governors would like it that way, I am not sure, but we 
have all these various divisions set up at the Department of 
Homeland Security.
    So first of all, I wonder how much flexibility would you 
recommend be given to local officials for emergency 
preparedness plans? Should they be allowed to set their own 
priorities based on their specific needs in the absence of 
clearly defined Federal guidelines? I ask this question based 
upon my own experience in trying to figure out what was the 
best communication system that was being used around the 
country, because for the past year, frankly, everyone is 
wallowing in promotions, and there was no clear guideline from 
the Federal Government. And I remember someone sitting where 
you are from that division saying, well, we are first going out 
with a RFP, and probably a year from now will be able to get 
guidelines to our States and our communities on what kind of a 
communication system they should purchase. And no one is really 
waiting. And they are doing their own thing.
    I am not even sure, Mr. Chairman, if at this point the 
Federal Government has any clear guidelines to the States. Is 
it better that the States figure it out themselves or should 
there be clear guidelines from the Federal Government?
    Governor Rowland. The States should figure it out for 
themselves.
    Mrs. Lowey. Maybe we don't need that big Department of 
Homeland Security.
    Governor Rowland. I think you do need it, and they are 
doing a heck of a job. I say that because the--we are using the 
example of communication capabilities. The last thing you want 
in the State of New York is 73 different communication 
capabilities. One has Motorola, one has this, and one has got 
that. And if you can't communicate with your State officials, 
then it is all for naught. The simple fall-off-the-curb answer 
is that each State determines the best technology that they 
have available and what do you already have in your inventory. 
What I have in Connecticut may be significantly different than 
what is in Washington State and what works there. What works 
there may not work in Connecticut. The technology and the 
terrain may be so different. And if I have already invested, 
40, 50, $70 million in radio technology for my State police, 
doesn't it make sense for me then to apply and be able to give 
to every police chief and fire chief the same radio technology 
so we can communicate?
    Now in Washington State, maybe the State police can't 
communicate. Maybe they don't have that technology or maybe 
they are way ahead of us, but the State of Washington should be 
able to determine their best needs and their best information 
capabilities, where their investment should take place, and 
then be up and running.
    Mrs. Lowey. I see my red light is on, and just one other 
comment in conclusion. I hope when the Federal division figures 
out the best technology and recommends it to you, that we will 
have some kind of a buy-back program to buy back the equipment 
that you have invested in and we can provide you some up-to-
date technology. I think it is due in June, something like 
that. But thank you so much for appearing before us.
    Chairman Cox. Thank the gentlelady. The gentleman from 
Pennsylvania, Mr. Weldon, is recognized for questions.
    Mr. Weldon. I thank the Chairman.
    Governor it is good to see you, former neighbor on the 
Armed Services Committee and great star on the Republican 
baseball team that you were. My perspectives are all going to 
come from the local level up, and I want to make some comments 
and hopefully some clarifications.
    I want to first of all acknowledge the comments of the 
Chairman that this committee is aware of the frequency spectrum 
problem. It is the number one issue in the country to give us a 
unified interoperable system across America so our agencies can 
communicate with each other, and it is the biggest challenge we 
have in the country. I was at the APCO conference this year 
with Governor Sununu, and their number one priority of the 
6,000 representatives of every municipality in America is that 
we don't today have an interoperable communication capability. 
It is not talking about radios for the police. It is talking 
about interoperable frequencies, because, Governor, as it is in 
your State, it is across the country. You have a largely 
volunteer fire department. They bought those radios themselves. 
They bought them through tag days and chicken dinners without 
State money. So some of them got low-band frequency years ago. 
Some have high-band frequencies. They may both have Motorolas, 
but they are totally different in terms of their capability to 
interact. And our problem is having an interoperable system 
that can allow those different frequency spectrums to talk to 
one another.
    That does not exist in America today. The frequency bill 
that we put forward, the Chairman has agreed to help us, but he 
is right. Chairman Tauzin has claimed jurisdiction. It is a top 
priority and we must move that bill. The advisory committee 
report that came out in 1995 had the Congress saying what 
needed to be done, but unfortunately the TV stations in the 
upper area of the 60 to 69 TV channels in our cities across the 
country won't give up that frequency so we can use it for 
public safety. That has got to be addressed.
    I want to get to a more fundamental issue and I want to 
take the support of the 1.2 million first responders that I 
work with every day and have visited in every State including 
your State of Connecticut. They have been protecting America 
longer than America has been a country, in 32,000 organized 
departments; 85 percent of them are volunteer. They know what 
the threats are. They are not stupid.
    Now we say we have got these new threats. If you have been 
a firefighter and go into a chemical plant where you have got 
butane or you have got vinyl acetate exploding, that is in fact 
a chemical situation. I wonder how many of our military 
personnel have been exposed to a real chemical incident. I can 
tell you firefighters all across the country have. They go into 
a chemical plant with the training they have done on their own. 
They go into a place where there may be a hospital with 
contaminants or biological material that is on fire, and they 
do that and risk their lives. So we don't give our first 
responders, I don't think, enough credit. They know what they 
need to protect their communities.
    In fact, Mr. Chairman there is a rating system for America 
that I would challenge my colleagues to understand, called the 
ISO rating system. As the American Insurance Association allows 
insurance companies to underwrite policies for protection 
against the perils they are insured against, every municipality 
in America for the past 50 years has been given a rating, and 
that rating is from 1 to 10. And that rating, which is done 
independently of any company, looks at the water supply, 
weather conditions, threats, the protection of the fire 
department, whether or not they have got up-to-date equipment, 
how well they are trained. So we don't have to go out and 
reinvent the wheel.
    Every municipality in Connecticut, every municipality in 
California, already has an ISO grading assigned to it. And that 
grading is done independently, based on that municipality's 
ability to respond to an insured threat. And those threats 
could be fires, they could be floods, hurricanes, or tornadoes.
    And we somehow in Washington think we have to reinvent the 
way we protect our cities and towns. I would say if we listen 
more to the first responder and give them the basic tools they 
need, then we would be a lot better off in this war against 
terrorism. We have tried to do that. As Mr. Pascrell said, in 
2000 the Congress passed legislation to create a grant program. 
There is no middle person in that grant program. It goes 
directly to departments.
    Why do we do that? Let me give you an example. In the mid-
1990's, I remember D.C., when Marion Barry was the mayor, had 
been cutting its funds for the D.C. fire Department. The D.C. 
fire Department's mandate is to run 16 ladder trucks and 33 
engine companies to protect the city. In the mid--nineties, 
because they had not put any money into maintenance or repair, 
they had dropped down to two ladder trucks, two ladder trucks 
for the whole city.
    How can we talk about giving more money for homeland 
security when they are not even funding the basic needs to 
protect the people from the perils that the fire department has 
to respond to every day? So the first priority is to give the 
equipment to those municipalities that provide that basic level 
of protection and then come in with the kinds of extra 
resources for a biological incident, a nuclear contamination 
incident, a chemical incident. And we have got to understand 
they are two separate and distinct functions. If we don't deal 
with the basic needs of our municipalities, we are never going 
to be able have them feel comfortable that we are assisting 
them in dealing with homeland security threats.
    The only thing I will say in closing to my good friend the 
Governor, you didn't mention technology transfer. And what 
really bugs me, John, and you served on the Armed Services 
Committee, we spent $400 billion on the military. You were a 
big supporter. Much of the technology we spend in the R&D area 
could have direct application for the first responder, and we 
are not transferring that technology quickly enough.
    And I would hope that you as a representative of the 
Governor's Association would go back and demand us to do more 
to transfer that technology so it can be used, which has 
already been paid by the taxpayer, by our first responder 
community. Thank you for being here.
    Governor Rowland. Appreciate it.
    Chairman Cox. Thank the gentleman. Mr. Etheridge is 
recognized.
    Mr. Etheridge. Thank you Mr. Chairman.
    Governor, welcome. I don't know if I can add a lot more to 
what has been said, but I may say it again in a different way. 
But the point I want to make is that you talk about in your 
testimony the 25 percent max, and I happen to agree. I think 
that is a burden, especially on a lot of these jurisdictions, 
especially in my State of North Carolina that has the second 
highest unemployment of manufacturing job losses in the 
country, especially at a time when the threats are up, even in 
rural areas.
    But I am also reminded that we have to have some effort, 
because I remember years ago as a young county commissioner, we 
had a thing called revenue sharing in this country, and 
Congress figured out that they didn't have any figures in it 
and were sending money and it didn't take long to cut it out.
    This is too important for us to get to that point--I think 
there has to be, as you said earlier, whatever we call it, some 
strengths, so there is an investment, there is input at the 
Federal level, at the State level, and, as my colleague from 
Pennsylvania just said, truly at the local level because all 
the rest of us may get involved. But if it doesn't work at the 
local level it isn't going to get done. And you know that in 
putting together plans.
    So my question comes back to this whole issue of we have to 
have a national plan, I think, and I am not sure we have it 
yet. I know we are talking about getting there and we are 
sending the money out. Until we get a national plan, we have 50 
States with varying different issues, as you have so eloquently 
elaborated. But what we don't need to wind up at the end of day 
is 50 plans for homeland security that are not coordinated.
    And I just mention one area, and then I want to raise 
another question as it relates to interoperability of 
communication. And if every State had theirs, it brings to mind 
an issue that some States cross State lines and you have got to 
be able to communicate there as well. So there has to be a 
national plan that works, that is tied to the States, and they 
have to have flexibility.
    Because of the dynamic nature of the threat that we all 
perceive and we face, and I think we do, do you believe and you 
touched on this earlier, so I want to lay out the question on 
baseline funding. There has to be a baseline. I am not going to 
ask you to determine that baseline. I wish you could impart 
upon that.
    Governor Rowland. That leaves something for you guys to do.
    Mr. Etheridge. Because I think that is the critical piece 
we have to come up with. If we don't have a baseline for the 
rural departments that are out there or the small towns, the 
threat could be very well there tomorrow if we think about our 
food supply. May not be an issue in Connecticut, but in 
Mississippi or North Carolina or North Dakota, that could well 
be an issue tomorrow.
    Do you think that it is necessary for States to reach a 
baseline level of preparedness that can be adjusted quickly to 
a response threat? And if the answer to that is yes, which I 
think it has to be at some point, how do you think we should go 
about determining that baseline of preparedness for our first 
responders? Because those first responders are the people in 
every State we are going to call on first to get the job done. 
And I am not only just talking about a funding level. You know, 
funding is just one part of that process. There is a broader 
piece, because that response is beyond the issues we have 
talked about--our schools no one has talked about--as we look 
at this, as we allocate those resources beyond money.
    Governor Rowland. I think you bring up a great point. I 
think it kind of speaks to what Congressman Weldon was saying 
as well.
    First and foremost, in the real world that I work and live 
in every day, we don't put our plans together, nor does any 
Governor put his plan together in a vacuum. You have got two 
things at work. One, of course, is the national plan which 
somebody mentioned, and that national plan is here are the 
threats, here are the risks, here is what we are doing on a 
national level, here is what we are doing on border patrols, 
here is what we are doing with airport security, so forth and 
so on.
    Then as I kind of see this unfolding, there are 50 State 
plans, and those State plans are put together with good hard 
old-fashioned work and a lot of listening. And to Congressman 
Weldon's point, listening to first responders is the key.
    I hired a new emergency management director. He happened to 
be the fire chief of a small fire station in the State. And he 
has now become my person as the emergency director. So my point 
is I don't think that there is a Governor or a homeland 
security director in any State that is not listening to the 
first responders, responding to their base needs. I think the 
point here is you can't jump to have HAZMAT training of the 
tenth degree if you don't have radio technology or capabilities 
to put out a fire because you are a rural area or some other 
deficiency.
    Let me also say that in Connecticut, it took us over 20 
years for the State police to get their new radios. Alexander 
Graham Bell, I think, devised the first radio system. It took 
us 20 years to get there for all of our State police. We got to 
the capability to communicate with our cities and towns in less 
than a year. So your point is well made. And I think you all 
need to know Governors each and every day are assessing the 
threats, analyzing the information from a Federal standpoint, 
but religiously listening to our first responders and trying to 
differentiate from I wish we could have, from what we really 
need. That is kind of the key there.
    Mr. Etheridge. While I have a little time left, let me come 
back to that one, because Congressman Weldon touched on it. As 
we think of our first responders, they really are on the front 
line, whether they are in New York City or rural North Carolina 
or North Dakota. Their funding levels are different. Probably 
none will admit they are funded at a level they would like to 
be funded at. But some of them are on tax rolls where they get 
some money for that, and others have absolutely no dollars 
except the dollars they may get in a grant or the dollars they 
get from maybe having a barbeque or some other kind of funding 
mechanism.
    That is the kind of baseline funding we have to deal with 
here or at the State level, or a combination thereof, because 
those communities may not be a threat, as I said earlier today, 
but at some point our adversaries are going to find the weakest 
point. And if you can create something in the food supply here, 
that will end up in New York City or Connecticut or somewhere 
else in this country.
    Governor Rowland. Congressman, I think your point is well 
made. If we don't give the basics to everyone across the board, 
and to your point--I think in our State well over 75 percent 
are volunteer firefighters, but you can't expect them to have, 
from a volunteer status, to being experts on HAZMAT technology 
and HAZMAT threats, without going through a few other wickets 
first to get there; and maybe it is an understanding of 
chemical fires and maybe it is having the right equipment or 
maybe having the chemical capabilities within the fire 
department. What I found so far is everybody agrees on getting 
to the basic first, because you can't make that other leap of 
faith to respond to threats we are seeing nationally until we 
are all on the same page.
    Mr. Etheridge. Governor, thank you, and I yield back.
    Chairman Cox. The gentleman from Kentucky is recognized, 
Mr. Rogers.
    Mr. Rogers. Governor, good to have you with us. The 
essential question, I think here in this bill is do we replace 
the present formula distribution of funds with a system based 
entirely on threat assessment or vulnerability; i.e. do rural 
communities, rural areas need some form of funding irrespective 
of any other consideration, or do we take away the moneys that 
essentially rural areas have for a different formula? The new 
grant program would greatly favor high-density urban areas. But 
we have learned that terrorists do not often prepare for their 
attacks in urban areas; rather, they stage them in rural 
isolated parts of the country.
    For example, the recent terrorist cell broken up in 
Lackawanna, New York, the rural central Pennsylvania training 
camp used by terrorists prior to the first bombing of the World 
Trade Center, the reported interest in crop dusting equipment 
by terrorists and the like, we have seen many of the threats, 
if you will, originate in those isolated parts of the country. 
Do you not agree with that?
    Governor Rowland. Congressman, I would agree with you on a 
couple of things. One--and I think in my remarks I injected 
that I thought the Chairman's position was to spark the debate, 
which worked real well, and the importance in my opinion of 
having a base amount to all cities and towns and States, and I 
used the term we don't want to rob Peter and take the grant 
money to pay Paul.
    And so the baseline is what we have been discussing during 
this hearing. You need to maintain the baseline, whatever that 
baseline is. That is for all of you to determine. But then I 
think there ought to be an extraordinary effort in homeland 
security, and Governors and others working together to use a 
risk assessment or threat assessment for additional dollars. 
And I think that is necessary, because I think we can--and in 
most cases over the last year or so, although there has never 
been specific threats to a specific area, we have a pretty good 
idea that--we know one thing. We know that the terrorists want 
to do maximum damage to us. It is not going to be a small, 
disconnected event. All of our intelligence tells us it has to 
be a massive, big, destructive event. And so we know that. And 
that is why we need to have, I believe, a threat assessment 
added to the base.
    Mr. Rogers. Do we not have that now? We have the formula 
distribution based on population essentially to all States in 
order for them to have the base protection in all areas. And 
then we have the high-threat, high-density urban grant program, 
which is completely based on threat assessment and 
vulnerability on top of the base program. Is that not a 
workable program that fits the criteria that you have 
mentioned?
    Governor Rowland. It may very well be. I look at this as a 
work in progress. I look at this, frankly, as more funding 
coming this year, next year, and the year after. I don't think 
it is going to have any finality.
    One of the issues that came up in our discussion which I 
think is important is that it gets to the revenue sharing 
issue, is this going to be ongoing funding or is it just for 
capital investment and what about recurring costs? And so that 
is a whole other issue we need to grapple with.
    But I think your point--I would still stress to the 
Chairman's point that we need to have additional dollars to 
higher-risk areas, wherever they may be, and I am willing as a 
Governor to live with the consequences of what those decisions 
are.
    Mr. Rogers. In the 2004 appropriations, we provided 4.2 
billion for State and local first responders. That includes 1.7 
billion for the ODP's basic formula grant program to all 
States. And then on top of that, 725 million for the high-
threat, high-density urban grant program to focus money where 
we think the threat is the most severe and could cause the most 
damage. It seems to me that if we keep the formula grant 
program to all States, to allow their first responders to 
prepare and then even add to, if necessary, the high-threat, 
high-density urban grant program to cover the special needs of 
those areas, it seems to me that that is getting at the policy 
goals that you have set forward for us here; is that not 
correct?
    Governor Rowland. I don't think the debate is over. I think 
we are in the middle of it. And to your verbiage of ``add to,'' 
I would suggest if you are going to add to, that it be done 
based on threat assessment than just based on population.
    Mr. Rogers. That is what I am saying, too. High-density, 
high-threat urban grant program is just exactly that. We asked 
the Department to assess those areas of the country that are 
most vulnerable, most susceptible to attack, where great damage 
could be done because of population or some special 
circumstance, perhaps a nuclear power plant close to an urban 
area or what have you.
    The high-density, high-threat grant program is just for 
that purpose. In essence, it is a reflection of what the 
Chairman in his bill is attempting to do, and that is focus 
money where the threat is the worst. The question is, do we do 
away with the formula grant program to all States, such as 
yours, and just focus the money where we think the threat is 
the worst, disregarding, it seems to me, that many of the 
staging areas for these threats to the high-density areas 
actually come from more isolated areas? Do you find fault with 
the present program in those two aspects, formula grant 
distribution plus high-density extra special moneys?
    Governor Rowland. No. I don't think I find fault. I find 
improvement.
    Mr. Rogers. More money.
    Governor Rowland. More money. But I think you and I are on 
the same page, and maybe the way you skin the cat with the 
high-density program is what you enhance financially; in other 
words, what you put more money into. Whether that fits what we 
are talking about in this legislation, I don't know that off 
the top of my head, but I assume it is speaking--I think we are 
going in the same direction here. But I would not give up the 
base.
    Mr. Rogers. Now when we send money to you, you have a 
committee, a statewide committee, do you not, that helps you 
determine where in the State you need to spend money?
    Governor Rowland. Slightly more scientific than that. We do 
an assessment of all of our 169 cities and towns. We basically 
say, what do we have before us, what do we have in our arsenal 
and what do we need, and then we make some decisions. For 
example, we want to have decontamination equipment and have 
decontamination trailers, so if and when there is a 
bioterrorist attack, we are prepared. Do we need one in every 
city of town? No. We need 34. So there is some scientific 
process to determine that and they are spread out. We need new 
bomb trucks. We need new bomb detecting equipment. Do we need 
one in every city and town? No. We need one in New Haven and 
Hartford and Stamford. We do go through kind of a scientific 
analysis and try to do it as clean as possible, but it is--
there is a lot of discretion there.
    Mr. Rogers. Well, do you not think that Governors such as 
yourself with the statewide committees assessing the needs in 
each of your locales, do you not think that you know best where 
the threat is in Connecticut, or does some bureaucrat downtown 
here know where the threat is?
    Governor Rowland. I think the answer is that I can best 
determine the threat based on the bureaucrats' information, 
which is intelligence information and stuff that I have no 
access to on a daily basis. And I think you should know that 
homeland security folks get briefed more than once a day on the 
threats. My job is to go back and to inventory, if you will, my 
locals to see what we need and to match the two.
    So I am not saying we know best, but I am saying my job--
and in my testimony I refer to Governors as the traffic cops. 
And we have to be the traffic cops in determining where the 
dollars could and should go, and we have to be the traffic cops 
to try to get the dollars from the Federal Government and, in 
many cases, matching it on our own.
    Chairman Cox. Thank the gentleman. The gentleman's time has 
expired. The other gentleman from Kentucky, Mr. Lucas, is 
recognized for questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    Governor I appreciate your testimony and the end is near. 
First of all, I might say as it relates to Congressman Rogers, 
I think in the minority legislation we don't repeal the basic 
formula that he is talking about. I think that might speak to 
that as well. I would give you one last platform. You mentioned 
something that made a lot of sense to me about we all believe 
in regionalization, as you said, but you said that you know 
self-administered regionalization would be a disaster and that 
should probably come at the Governors' level. And I give you 60 
seconds to enhance.
    Governor Rowland. I will take 60 seconds. The last thing 
you want--you don't want 27, 30, 100 new regional self-
administered groups; i.e., three cities and towns getting 
together, three counties getting together, in addition to all 
the other political divisions, in addition to the State. If you 
think it is complicated and complex now, that is a recipe for 
disaster.
    Having said that, if there can be a process going through 
Governors, with his coordination with the traffic cops, or in 
your wisdom working with homeland security folks you decide 
there should be 10 regions in addition to, I buy that.
    Governor Rowland. But to have self-administered would be a 
recipe for disaster.
    Mr. Lucas. One other quick question. You obviously have 
dealt with the communications. Do you feel that you have--I 
know Congressman Weldon talks about interoperability being on 
the same channel, and we don't have that ability now. But do 
you feel that you have the interoperability in your 
communications setup now?
    Governor Rowland. I do now, in the State of Connecticut.
    Mr. Lucas. So we can do it. But as I understand it, and I 
am not a communications expert, that if we had one channel 
where everybody could be, it would be great; but now we don't, 
but we still have interoperability.
    Governor Rowland. We can within my State, Within my State 
police and all my local officials. We didn't have it 2 years 
ago.
    Mr. Lucas. In the interest of time, I will stop there.
    Governor Rowland. Thank you, kind sir.
    Chairman Cox. The gentleman from Washington, Mr. Dicks.
    Mr. Dicks. We miss you here, Governor, and appreciate all 
your good work and your comments here today. I will be very 
brief.
    One thing, the high-threat urban area program, the 
Department of Homeland Security has not laid out criteria, at 
least to our satisfaction, about how they make the decision 
about which of these high-density urban areas should be funded. 
Don't you think that they have a responsibility to come up with 
some way of deciding on which areas they fund?
    Governor Rowland. Congressman, I think that is a good 
point. I think part of the magic of what has occurred over the 
last 2 years is they have scrambled to put 320,000 people 
together, and I don't think that they have been able to, not 
because they don't want to, but to communicate what the 
criteria should be. So this is an imperfect process. But to the 
best of my knowledge, from what I have been able to do, what I 
have been able to request, what I have been able to apply for, 
they have been respectful of the unique needs of my State, 
which I think other Governors will say as well.
    But I think there is a legitimate question to be asked: 
what the heck is the criteria? Who is determining this, and how 
are you using the discretion to make those determinations?
    Mr. Dicks. I mean, even if it is threat, vulnerability 
risk, whatever, I think they ought to be able to put it down so 
that fair-minded people can look at it--.
    Governor Rowland.--And say it makes sense.
    Mr. Dicks. --and make a justification on it.
    I would also say to the distinguished Chairman of the 
Homeland Security Appropriations Subcommittee, you talk about 
these cells being out in rural areas planning these attacks on 
urban areas. I think what we have to focus on there in my 
judgment is prevention. I mean this again gets back to the FBI, 
our counterterrorism officials, the people who are supposed to 
be doing the job on a day-by-day basis of finding out where 
these people are and what they are up to. That, to me, may be 
the thing we want to focus on. If that is, in fact, how they 
are operating.
    Have you had any problems in Connecticut? Have you had any 
actual--we had out in the State of Washington, we captured one 
fellow coming in across the Strait of Juan De Fuca into Port 
Angeles, actually, into my district. And a former prosecuting 
attorney who had lost the election, went to work for Customs, 
and was one of those who captured Ahmed Ressam. They were 
either on the way to the Space Needle or down to L.A. airport.
    But have you had any problems in Connecticut?
    Governor Rowland. We haven't had any problems, but I will 
say that we have had concerns and we have had information.
    Mr. Dicks. About possible problems?
    Governor Rowland. Absolutely. And that is something 
everybody has to be catching and we have to be careful about 
our discussions. But you are absolutely right, that is the key. 
Because after the fact, it is almost possible. It is like try 
to track drugs once they get in; it is very difficult.
    Mr. Dicks. Right. You have to prevent.
    Finally, what ought to be in these State plans? What are 
the key elements? As each State develops their plan and as the 
Nation develops a plan, what are the things you think ought to 
be in the plans?
    Governor Rowland. Good question. What I try to do is to 
take the threat as analyzed by the Federal information and 
homeland security folks and they give us, if you will, a menu. 
What I then try to do is say, OK, in the big picture, having an 
out-of-body experience, what is the threat to my State, to my 
region, to my territory; what are my capabilities to respond to 
that threat; and then go to the first responders and say, OK, I 
am worried about bioterrorism, I am worried about nuclear 
fallout, I am worried about evacuation from Fairfield County, 
New York City, I am worried about something happening in our 
airports. What do you need to respond do that? Do you have the 
training, the personnel, the equipment? Do we have 
decontamination containers, and so forth?
    So what hopefully all of us are doing, and I think it has 
happened, and again in an imperfect way, is that we are taking 
the threat information as best we can, disseminating that 
information, going to our first responders and analyzing how 
prepared we are, and then making the request to Homeland 
Security, saying we need dollars for these things.
    And then it gets to your point about criteria. We talk 
about the political process here. We shouldn't assume that it 
is perfect and cleansed and white in their world either. So I 
think you are right about the criteria.
    So that is kind of what I go through and what my folks go 
through. It seems to be going in the right direction. It seems 
to be working.
    Mr. Dicks. Thanks for being here today. We miss you.
    Governor Rowland. Thank you. Miss you guys, sort of.
    Chairman Cox. We miss you sort of, too.
    Governor Rowland. Some days.
    Chairman Cox. Governor, you have been outstanding in your 
patience.
    We have Mr. Cardin, who has not been recognized. You will 
have to be further outstanding in your patience, I think.
    The gentleman is recognized, the gentleman from Maryland, 
for 5 minutes.
    Mr. Cardin. Thank you.
    Governor, thank you for being here. Appreciate it very 
much. I am intrigued by Mr. Rogers' suggestion about expanding 
the high-threat urban area programs. I understand Connecticut 
has applied for funds under that program, but have you been 
successful in obtaining any funds to date?
    Governor Rowland. We have. Off the top of my head, I can't 
remember exactly how much. And I have not looked into whether 
that is the venue to respond to the risk. It may very well be. 
And I haven't really sat down and analyzed. I mean, I was asked 
on Friday to come down and testify on this bill. So what I am 
in spirit suggesting is that you go with the baseline and then 
go to risk assessment. I don't know if the existing program, 
from a formula standpoint, whether the existing program 
satisfies that, but it may very well.
    Mr. Cardin. It is my understanding that there are a lot of 
areas that have high risks that have not been able to qualify 
for that grant to date. My own community in Maryland, some of 
our counties have qualified, others have not. Yet we all, like 
Connecticut, have a similar problem of close proximity to 
potential targets that provide us additional concerns on 
security.
    So I think if we could expand that program that is 
sensitive to high risk in a broader context, it might be a way 
in which we can get to one of the underlying points, and that 
is making dollars available based upon threat assessment rather 
than just a plain formula.
    You raised, though, an interesting point, that it is 
difficult for you as Governor to assess threat when it is a 
changing target. And although we are trying to make the formula 
more sensitive to threat, and I agree that we should, I am 
curious how you as Governor do planning if the funding is not 
going to be predictable. If you have to wait every year to 
determine whether you are going to get the funds from 
Washington or not, based upon a competitive assessment of risk, 
how do you as Governor do your planning to make sure that your 
State is properly prepared in regards to homeland security?
    Governor Rowland. Well, first and foremost, I am in the 
public safety business. So the last thing I would say is, well, 
geez, I really need to be able to communicate with the radios, 
but I am going to wait for as long as it takes to get the 
dollars from the Federal Government.
    So I think to answer your question, we do what we have to 
do, and it may mean overtime at the airports, it may mean more 
operational expenses for our first responders; it may mean 
capital investment at our public health laboratories. For 
example, we are going to bond $30 million to do some lab work, 
because our public health lab facilities are decrepit. So that 
is an investment I am willing to make. And I may or may not get 
reimbursed, but it is the right thing to do and I will do it 
anyway. So I think you will find that most first responders and 
Governors and even mayors will do what they have to do, 
politically and otherwise, to respond to the threats. And if 
the Feds are part of it, that is great and it is wonderful. But 
there may be cases where I am making investments where the Feds 
are not willing to reciprocate or to reimburse. But so far, we 
all seem to be on the same page.
    To your point about the urban dollar request and some of 
your counties not getting it, that I think leads to Congressman 
Dicks' point. We need to know what the criteria is. I think 
that is a real legitimate issue for Governors and for this 
committee.
    Mr. Cardin. I agree with that. A similar issue on which we 
all agree is that the States need to coordinate their requests 
from the first responders, because we don't want to see 
duplication or waste, and it is important to prioritize, using 
your terms. But on the other hand, we have constantly gotten 
complaints that the monies are not getting down fast enough to 
the first responders.
    I am just curious as to whether you think this is a problem 
with Federal law, or do we just have to have a better system in 
place to allow the first responders confidence that the system 
is working as quickly as it can to get the money to where it is 
needed for first responders to carry out their important 
functions?
    Governor Rowland. I think it is a problem of 
interpretation. I said this earlier--I don't know if you were 
here--that I hope that fire chiefs and police chiefs back home 
aren't thinking when am I going to get my check, because that 
is not really the process.
    Mr. Cardin. I was here when you said that.
    Governor Rowland. So I think there is that misinformation 
that bunches of money are going to be flowing to fire chiefs 
and police chiefs across the country, and that is not the case.
    Mr. Cardin. I can tell you in my State of Maryland and in 
Baltimore City which is, of course, a very large jurisdiction, 
there is money in the pipeline, but there is still not 
confidence from Baltimore City's use of those funds as to when 
those funds are going to be received. I am just wondering 
whether that is a unique problem or whether it is being 
confronted by other States, that there are monies that are 
being committed, but it seems like it takes a longer time than 
should be necessary for those funds to actually get approved.
    Governor Rowland. Some legitimate issues. First of all, you 
have bidding procedures and processes. We are finding, even to 
buy some of the equipment, we have to go through our own 
legitimate bidding procedural processes. So we are finding that 
we are holding ourselves up. And even after we have done--think 
about this: you are doing a whole new kind of unnatural process 
of examining a threat, doing a grant application, which is very 
new to all of us, stumbling through that, getting it to the 
Feds, letting them look at thousands and thousands and 
thousands of grant requests, getting the information back to 
us, crossing the T's, dotting the I's. We then go through the 
bidding procedures and processes. We then get the equipment 
back to the cities and towns.
    So it is kind of an unnatural act, if you will, to get 
through this pyramid. So I think that there is going to be 
snags and there are, and there is misinformation and 
misunderstanding. But, at the end of the day, are we better off 
than we were yesterday, than we were last year, or than we were 
2 years ago? And we certainly are.
    Mr. Cardin. Thank you.
    Chairman Cox. I thank the gentleman. And again, I thank 
you, Governor Rowland. You have been very, very helpful to this 
committee as we seek to determine the impact, both of the 
current grant programs and of potential changes in them.
    I would say to my colleagues, based on the discussion that 
we have just had concerning, for example, the high-threat, 
high-density program that we presently have in the law, that 
certainly it is not the aim of either the majority or the 
minority bills simply to perpetuate that system, or to use that 
terminology as interchangeable with threat or vulnerability or 
consequences. I think many times people are using the term 
``threat'' to mean vulnerability, the term ``vulnerability'' to 
mean threat; or when they say ``vulnerability,'' they mean 
``consequences.'' We are going to be very clear about defining 
our terms legislatively.
    But from my standpoint, the high-threat, high-density grant 
is at best a way station as we proceed towards more objective 
risk assessments that map threat against vulnerability. The 
high-threat, high-density program is, because of the fact that 
it was created so rapidly, somewhat arbitrary, extremely 
unsophisticated, it is an a priori determination that certain 
highly populated areas are more deserving of funding. I think 
the process by which these determinations are made lacks 
transparency and objectivity. It is one of the reasons we need 
legislation, and we are going to continue to develop it in this 
committee.
    Governor, as we proceed to do this, the concerns of the 
State of Connecticut and your responsibilities as Governor will 
be uppermost in our minds. We very much appreciate your 
willingness to cooperate on it.
    Governor Rowland. Thank you, Mr. Chairman. Good luck in 
your deliberations.
    Chairman Cox. Thank you.
    We would now like to welcome our very patient and expert 
next panel. Our next panel will consist of John D. Cohen, 
Special Assistant to the Secretary of Public Safety for the 
Commonwealth of Massachusetts; Ray A. Nelson, Executive 
Director, Office for Security Coordination, the Commonwealth of 
Kentucky; and Lieutenant Colonel Scott Behunin, Director, 
Division of Emergency Service and Homeland Security for the 
State of Utah, who is testifying on behalf of the National 
Emergency Management Association.
    Chairman Cox. Gentlemen, welcome. Mr. Cohen, we will begin 
with you. Before you testify, I know that, Mr. Lucas, you would 
like to make a special welcome for Mr. Nelson. We are getting a 
vote on the floor any time, so what I would like to do is get 
your testimony on the record first and then come back for 
questions, but I would first recognize Mr. Lucas.
    Mr. Lucas. Mr. Chairman, I will be brief. But it is my 
pleasure to introduce Colonel Ray Nelson who, after a 
distinguished career in the military, as of November of 2001, 
right after September 11, was appointed as the Executive 
Director of the Office of Security Coordination. I have worked 
with Mr. Nelson and we have had several town hall meetings with 
the local responders and he has been very effective and a very 
good advocate of homeland security. So it is a pleasure to have 
you here today, Mr. Nelson.
    Mr. Nelson. Good to be here.
    Chairman Cox. I would recognize also the chairman from 
Kentucky for an additional word.
    Mr. Rogers. Thank you, Mr. Chairman. I will be real brief. 
It is a pleasure to have Mr. Nelson with us. He is 
distinguished back home, doing a good job for the Commonwealth 
of Kentucky, and we are proud that he is here with us today. 
Thank you.
    Chairman Cox. You are all welcome. We will begin with Mr. 
Cohen.

STATEMENT OF JOHN D. COHEN, SPECIAL ASSISTANT TO THE SECRETARY 
        OF PUBLIC SAFETY, COMMONWEALTH OF MASSACHUSETTS

    Mr. Cohen. Thank you, Mr. Chairman, Ranking Member Turner 
and members of the committee. I appreciate the opportunity to 
be here with you today and congratulate you for taking on what 
I view and what many of the folks that I am working with in 
state and local governments view, as one of the most critical 
issues having to do with homeland security today.
    My perspective is somewhat unique because, in addition to 
working with Massachusetts over the last 2 years, I have worked 
with a number of cities, including Houston, Detroit, New York 
City and Los Angeles and other states, Arizona and Maryland on 
helping officials there think through the issue of homeland 
security and develop strategies to address these issues on 
state and local basis.
    I have to be honest. I guess to some degree my perspective 
on this issue differs a little bit from the governor's because, 
as I travel around the country and as recently as yesterday, I 
am hearing a high level of frustration over both the direction 
and the progress that we have made over our national homeland 
security efforts. In some sense that frustration stems from the 
fact that many state and local leaders who I am working with 
think that some in Washington have an overly narrow focus on 
what is meant by homeland security. They believe it is not just 
simply a domestic intelligence issue, but it is blending of 
intelligence capabilities with other key areas of government: 
public safety, public health, social services, and general 
government operations.
    Treating homeland security as an adjunct responsibility of 
state and local government with a different set of systems, 
rules and processes, many believe, is not only 
counterproductive but ineffective. We tell the public we need 
to be vigilant each day. We tell state and local governments 
they need to work each day to detect, prevent, and be prepared 
to respond to an act of terrorism. But we don't provide them 
the resources they need to carry out this critical function.
    We need to make sure that state and local governments have 
the information, communication systems, and operational 
processes that they use to provide daily emergency and 
nonemergency service each day and that these systems are robust 
enough to be prepared to respond to catastrophic emergencies.
    If the jurisdiction's 9-1-1 system becomes overloaded 
during a snowstorm, it is certainly not going to work during a 
terrorist attack. If the information systems used by local law 
enforcement cannot help us catch snipers, even though they are 
stopped over 11 times in the vicinity of each attack and even 
though their prints were lifted at the scene of a robbery-
homicide, then we are not going to be able to catch a terrorist 
or stop a terrorist attack. If our radio systems used by first 
responders do not allow them to talk to each other at the scene 
of an accident or at the scene of a structure fire or during a 
hurricane, they are not going to work in response to a 
terrorist attack.
    We need to become much more information driven in our 
homeland security efforts. Two years have passed since the 
attacks of September 11 and yet the Nation still lacks a 
comprehensive threat and vulnerability assessment, one that 
tells us which locations are most at risk and from what.
    To Congressman Rogers' point, it is unclear to me how the 
urban area security initiative grant funds can be distributed 
based on threat and vulnerability assessments when one has not 
even been completed yet. This is a serious deficiency, and it 
has resulted in a disjointed domestic homeland security effort, 
one that has resulted in a lack of consistency from city to 
city. Without a national threat and vulnerability assessment, 
our nation's first preventers and responders are forced to 
respond to a one-size-fits-all, color-coded threat and advisory 
system. They are forced to seek to obtain Federal funding 
resources through a system that essentially rewards the 
jurisdiction that hollers the loudest.
    If we were doing this correctly, this national threat and 
vulnerability assessment would be guiding all of our 
operational and tactical planning in the development of 
training exercises and funding decisions. But unfortunately, 
work on this assessment has only just begun, and although ODP 
has released some pretty good standards, recently we have heard 
from Homeland Security it may take up to 3 to 5 years to 
complete this assessment.
    We have to be careful that we do not just take a solution 
where we say we have to provide more funds. We have to be 
smarter about how we provide these funds. We have been told for 
years that interoperability can only be achieved if we spend 
hundreds of millions of dollars building these huge, statewide 
radio systems. But, what we have now learned over the last year 
is that is not in fact the case; you can achieve 
interoperability for a fraction of that cost.
    We need to make sure that dollars are provided to those 
communities that are most at risk. That is a valid point that 
somebody made earlier. But we also have to recognize that as we 
mitigate risks and harden targets, terrorists will seek out 
softer targets. And, the targets of today may not be the 
targets of tomorrow.
    We also need to be much more sophisticated in understanding 
how these groups operate. While a cell may be targeting a major 
city, the members of that cell may be most vulnerable to 
discovery or arrest while they are engaged in some type of 
traditional criminal activity or while they are in the rural 
community in which they live. If a major event occurs, no one 
city will be able to handle the response to that, as we saw 
with the Pentagon. The communities relied upon their neighbors.
    So, to separate funding from the regions in which that 
funding needs to be allocated doesn't make sense, because what 
you have to do is force that region to come together and plan--
to plan from a detection perspective, to come together and plan 
from a response perspective and to plan from a standpoint of 
inventorying what types of resources they have and what type of 
resources they need should an event occur.
    I know there is a lot of debate right now between whether 
the funds should go to states or go to localities directly, and 
that is a tough issue. But I would offer this piece of 
information to the members as they consider this: if states are 
going to be given the lead in disbursing funds to localities, 
there needs to be some type of oversight to ensure that county 
and local leaders are at the table when these plans are 
created.
    In Massachusetts, before they distributed interoperability 
funding, they brought every public sector entity that would 
need to be on the system together to develop a strategy. They 
will be distributing those funds in a smart, rational manner.
    We also need to ensure that statewide strategies are based 
on local needs, because when that 9-1-1 call goes in, it is not 
going to be the state that is going to respond; it is going to 
be the local fire department, the local police department, or 
the county fire and police departments.
    This is not a simple issue, but it doesn't require that we 
forget the lessons of the past. There are a lot of innovative 
people at the state and local levels out there--they just need 
to get the resources to get the job done.
    Chairman Cox. Thank you for your testimony.
    [The statement of Mr. Cohen follows:]

                  Prepared Statement of John D. Cohen

Introduction
    Good morning Chairman Cox, Ranking Member Turner and other 
distinguished members of the committee. Thank you for the opportunity 
to participate in this critically important hearing.
    The comments and observations I offer today are based on having 
spent my entire career--close to 20 years--involved in law enforcement 
operations, oversight and policy development. My views on this issue 
come from a somewhat unique experience base that includes service as a:
        <bullet> Special Agent in the Office of Naval Intelligence;
        <bullet> Police officer who regularly worked side by side with 
        federal agents to conduct investigations of international 
        criminal organizations;
        <bullet> Senior investigator for a Congressional committee that 
        conducted oversight reviews of our nation's intelligence and 
        law enforcement efforts;
        <bullet> Policy advisor to the Director of the Office of 
        National Drug Control Policy; and
        <bullet> A homeland security advisor who has helped a number of 
        city and state governments assess and improve their ability to 
        detect, prevent and respond to acts of terrorism. My clients 
        have included: the Commonwealth of Massachusetts, the State of 
        Arizona, the City of Detroit, the City of Houston, 
        Transportation for London, New York City, and the City of Los 
        Angeles.

Background
    President Bush has declared that we are a nation at war with 
terrorists. And, as you are well aware, since 9/11, the role of 
federal, state and local governments has become much more complex and 
is very much in a state of flux. Today, governments must identify and 
integrate homeland security needs and responsibilities into day-to-day 
activities. And, although we have come a long way in the 25 months 
since the attacks on the World Trade Center and the Pentagon, the view 
from state and local officials who serve at the front lines of our 
domestic war on terrorism is that we have not come nearly far enough. 
We still have a long way to go before we are truly and sufficiently 
secure in both our liberties and our safety.
    We should first learn a lesson from the British and the Israelis, 
who understand that terrorism is a daily threat and that an attack 
could happen any day, anytime and anywhere. The public needs to be 
vigilant each day, and state and local governments need to make 
detecting, preventing and being prepared to respond to acts of 
terrorism a part of everyday business. We also need to become more 
information-driven in our homeland security efforts. Over two years 
have passed since the Sept. 11 attacks, and the nation as a whole still 
lacks a comprehensive threat and vulnerability assessment--one that 
tells us which locations are most at risk and from what. This serious 
deficiency has resulted in a disjointed domestic homeland security 
effort--one without consistency in the level of preparedness from city 
to city. Without such a threat and vulnerability assessment, our 
nation's first preventers and responders are forced to respond to a one 
size fits all color coded threat and advisory system and seek to obtain 
federal funding resources through a system that rewards the 
jurisdiction that hollers the loudest. In theory, it is this national 
threat and vulnerability assessment that should be guiding operational 
and tactical planning, the development of training exercises, and all 
funding decisions. Unfortunately, work on this assessment has only just 
begun and some Department of Homeland Security officials are predicting 
the completion of this coordinated, proactive and long-term strategy 
over 3 to 5 years away.

Establish a national threat and vulnerability assessment
    There is no question that the lack of a comprehensive national 
threat and vulnerability assessment is a serious deficiency in this 
nation's homeland security efforts. Federal, state and local 
governments must make it a top priority to identify and ensure the 
protection of those infrastructures and assets that we deem most 
critical in terms of national public health, safety, governance, 
economic security and public confidence. Given that we do not have 
unlimited resources, we must allocate resources based on threat 
vulnerabilities which requires a comprehensive, national, state-by-
state, jurisdiction-by-jurisdiction, business-by-business and market-
by-market threat assessment and vulnerability analysis of critical 
infrastructures and assets. It cannot be done in an ad hoc, non-
inclusive, reactive or subjective way if it is to provide immediate, 
short and long-term success in achieving efficient and effective 
national security and homeland defense.
    The threat and vulnerability assessment not only serves as a guide 
for funding decisions but also directs state and local homeland 
security priorities and efforts. Unfortunately, aggressive awareness 
and prevention efforts cannot provide a 100 percent guarantee that all 
terrorist attacks will be prevented. Therefore, it must be a top 
priority of the national government to be prepared to mitigate the wide 
range of potential activity by terrorists (and others) that include, 
threats, hoaxes, small scale attacks designed to disrupt services and 
cause mass casualties. Preparedness is achieved by using threat and 
vulnerability information to develop potential incident scenarios and 
developing plans to respond to these scenarios; developing the systems 
and processes that support the rapid identification of the 
``indicators'' of emerging incidents; and training first responders to 
quickly identify emerging incidents and initiate pre-established 
mitigation procedures.
    Being prepared requires the constant evaluation of sustainable 
performance in order to prevent, prepare for and respond to incidents 
and diligence in seeking grant funding to support these efforts. Public 
safety entities must therefore establish a dynamic threat and 
vulnerability identification process that will guide operational 
planning and training activities. The monitoring of key threat-related 
information will involve blending existing threat and vulnerability 
assessments with other relevant information/intelligence (such as an 
inventory of all assets, crime reports, federal intelligence updates, 
etc.). The purpose of this effort will be to identify and document the 
``baseline threat'' and to create a process for updating that threat 
baseline on a continuing basis. This process will include the 
identification and collection of other non-public safety-related 
information (health, quality of life, litter and debris reports, etc.) 
that may be relevant to determining the vulnerability of the system. As 
a part of these efforts, local governments should establish a 
prioritized list of potential targets and potential methodologies of 
attack; share target lists with key officials in operations; identify 
environmental or other conditions that may facilitate the ability of a 
terrorist to successfully carry out an attack; establish a process for 
identifying and tracking key pieces of information that represent the 
``indicators'' of evolving/emerging terrorist-related activity; monitor 
these indicators as a part of their daily enforcement efforts; and 
disseminate key information to those responsible for geographic 
enforcement areas.

Allocate resources based on threat and vulnerabilities-provide more 
flexibility to state and local entities on how funds are used
    The current methodology used to allocate homeland security grant 
funds to state and local governments is inadequate to meet the needs of 
those governments. It is not just about providing more money. We need 
to become smarter on how we allocate funds ensuring that resources are 
provided to those jurisdictions or regional entities that face the 
greatest risk. It makes no sense from a law enforcement perspective to 
use population based formulas or other non-data driven techniques to 
determine what jurisdictions will get homeland security funding. One of 
the principle methods to disburse these funds is to make it contingent 
on the threat and vulnerability risk analysis. Priorities should be 
given to those jurisdictions that face the greatest risk because they 
are the locations of a target which is attractive to a terrorist 
attack. These funds should also be provided in such a manner to foster 
regional cooperation because at the end of the day, should a 
catastrophic event occur, effective emergency response will require 
collaboration on a regional basis.
    Once funds are allocated, state, county and local governments must 
have the flexibility to use those funds in a manner which best 
addresses their specific needs. Cities and localities have their own 
unique needs based on their specific threat assessments. Therefore, the 
provisions that guide the use of federal funds should not be structured 
so that they impede the ability of state and local governments to 
address the specific threat and vulnerability needs of these 
localities. The priorities of one large city may not be the same as 
those of another large city. Likewise, small states or rural areas may 
find that their threat and vulnerability assessments determine that 
there should be a greater importance on regional cooperation. And, with 
current information suggesting that in the future terrorists may focus 
on softer targets in more rural areas, funding should be fluid and 
flexible enough to adjust to communities? updated priorities.
    In the future, the federal government also needs to broaden its 
focus on homeland security to include the linkages between domestic 
counter-terrorism and crime control efforts. We need only to look as 
far as the involvement of terrorists in traditional criminal activity 
to realize that counter terrorism is inherently tied to fighting crime 
every day and we need to ensure that counter-terrorism and crime 
control efforts are interlinked. Therefore, to improve our homeland 
security, we need to improve existing technology, infrastructure and 
business processes so that cities and other localities can not only run 
more efficiently on a day-to-day basis, but also be prepared in the 
event of a terrorist attack.
    State and local authorities play a critical role in detecting and 
preventing such attacks. In the future, a police officer with the help 
from a member of the community may be the first to identify an 
impending terrorist threat. For example, the fact that a terrorist cell 
is operating in this country may first be uncovered by a local police 
officer or a member of the community. Terrorists are dangerous, not 
because they say or believe dangerous things, but because their beliefs 
motivate them to commit acts of violence targeting people, places and 
things. These acts of violence--whether motivated by political or 
religious ideology--are still criminal acts. Also, we know that 
terrorists work with crime organizations and often use traditional 
crimes such as drug and illegal weapons trafficking, money laundering 
and bank robbery to offset costs and further support their objectives. 
It is inefficient and dangerous to create barriers to effective 
information sharing because we choose to define counter-terrorism as a 
domestic intelligence issue and crime fighting as a law enforcement 
issue.
    For now and the foreseeable future, efforts to detect, prevent and 
respond to acts of terrorism will be a part of the day-to-day business 
of public safety entities. On-going problems of crime and disorder are 
not isolated incidents and, over time, they can escalate into more 
consequential situations. Public safety efforts in this regard should 
be based on the understanding that terrorists often commit 
``traditional'' crimes to support their extremist agenda; they often 
collaborate with individuals involved in ``traditional'' criminal 
activity; the same methods used to effectively address crime serve as 
the foundation for anti and counter-terrorism efforts. Consequently, 
public safety entities must be able to proactively and continuously 
monitor crime trends and emerging terrorist threats.
    We must work to incorporate efforts to detect, prevent and respond 
to acts of terrorism and other critical incidents into our national 
crime prevention efforts. Intelligence/information gathering and crime 
analysis efforts must be expanded to support police departments serving 
as the ``hubs'' for the collection, analysis, dissemination and re-
evaluation of threat and vulnerability information relevant to 
preventing crime. Departments should use this information to 
proactively develop and deploy risk mitigation strategies and monitor 
the implementation of those strategies to ensure success.

Establish a risk identification and mitigation process
    The federal government must also recognize that risk identification 
and mitigation efforts must be flexible and updated on a regular basis. 
As we expand the nation's ability to collect, analyze and update 
threat-related information, it will be critical that this information 
be disseminated. This approach will facilitate the development of 
effective law enforcement prevention and interdiction operations that 
deter, pre-empt or disrupt terrorist activities. As specific risk 
mitigation efforts are achieved, this information should be factored 
into system-wide vulnerability assessments so that appropriate re-
evaluation of risks can be accomplished. By constantly updating threat 
information with reports of suspicious activities and risk mitigation 
efforts, intelligence analysts will be able to more accurately assess 
real threats to the system.

Create national standards for radio interoperability
    There is a greater awareness today among policy makers and 
operational personnel of the problems caused by the lack of radio 
interoperability and the benefits that could be realized if independent 
radio systems used by first responders could be interlinked. The 
challenge of providing radio system interoperability has less to do 
with technology and more to do with identifying and putting in place 
the processes, protocols and agreements necessary to support multiple 
agencies using an integrated radio system.
    Addressing these non technology issues needs to be a part of the 
pre-design stage of system implementation. Once a state or region has 
identified what agencies need to talk to each other and under what 
conditions that communication should take place, the technical design 
of a system can then be accomplished. The lack of best practices and 
defined national standards has complicated the efforts of state and 
local governments to acquire and deploy radio interoperability systems. 
Some states have begun taking steps to answer these critical questions 
as a part of the pre-acquisition phase interoperability system 
deployment. For example, the Commonwealth of Massachusetts has begun to 
design and plan a strategy to provide a fully interoperable, statewide 
radio/data system. The Commonwealth began by aggressively surveying 
every public safety entity in the state to catalogue interoperability 
issues, identify necessary partners, and facilitate working with those 
partners.
    Initially, many in public safety believed that the only way to 
achieve radio system interoperability was through the use of a 
statewide radio system that allows state and local agencies to 
operate--if necessary--on the same radio channel. This belief stemmed 
from aggressive efforts by a number of radio system providers (the 
entities that would benefit from the sale of these types of system) to 
convince public safety officials that these types of systems offered 
the best solution to the problem. Some have argued that the lack of 
progress in achieving interoperability can be directly tied to the 
efforts of industry to influence the attitudes of federal, state and 
local officials on this issue.
    Over the past several years, state and local officials have begun 
to look at solutions other than statewide or regional networks to solve 
the interoperability problem. Statewide radio systems are expensive, 
costing tens and sometimes, hundreds of millions of dollars. Statewide 
radio systems also require that state and local agencies operate within 
the same frequency range, often requiring that their individual 
existing systems be upgraded.
    Through the efforts of the Public Safety Wireless Network Program 
(PSWN) and the National Institute of Justice, attention has focused on 
a more cost effective and efficient solution to achieve radio system 
interoperability--one that involves the use of inter-connector or 
``patching'' technology. The use of inter-connector technology provides 
for radio system interoperability at a fraction of the cost of a new 
statewide radio system, while allowing individual local jurisdictions 
the flexibility of maintaining existing radio infrastructures.
    A growing number of state and local jurisdictions are providing 
radio system interoperability utilizing this inter-connector or 
``patching'' technology. For example, the states of Maryland, Colorado 
and Arizona have begun to network a number of inter-connector devices 
in fixed locations in an effort to provide permanent radio system 
interoperability. Arizona is deploying a ``patching'' network that will 
be capable of supporting both day-to-day public safety operations and 
the response to critical incidents. The state will deploy a number of 
cross-band radio connector devices at various locations along the 
border region. Each of these devices will then be linked providing 
contiguous coverage for an area that stretches along the entire border 
between Mexico and Arizona. Once installed, the independent radio 
systems used by federal, state, county, local and Mexican public safety 
entities will be interlinked and personnel will able to communicate 
with each other. In support of this project, the state has established 
a project management advisory board comprised of state and local 
officials from the region that will be chaired by Yuma County. This 
board will focus on facilitating communication between US public-safety 
entities (police, fire, EMS) with appropriate entities from Mexico 
through the development of appropriate protocols and mutual aid 
agreements.

Focus on coordinated regional efforts
    Efforts to detect, prevent and respond to acts of terrorism require 
a high degree of regional cooperation. Like many other state and local 
governments, in the wake of the 9/11 terrorist attacks and subsequent 
anthrax threats, the greater Boston area began to reevaluate its 
priorities for existing and planned government programs. And, the 
efforts of the Massachusetts Bay Transportation Authority (MBTA) are a 
good example of how a single entity can take the lead in coordinating 
with other public safety entities within a region.
    The MBTA is the nation's oldest transit authority. With a service 
area that includes 175 communities within the greater Boston area, the 
MBTA provides bus, boat and rail service to approximately 600,000 
customers each day. The MBTA system includes four subway lines, 13 
commuter rail lines, five boat routes and 162 bus routes that service 
approximately 3,244 square miles and the 175 cities and towns that 
comprise the MBTA's service area. The system brings together persons of 
different socio-economic, racial, age and cultural groups who share the 
constricted transit environment. Today, the transit system includes not 
just subways and buses, but also commuter rail, commuter boat and para-
transit service. The MBTA system now extends beyond the immediate 
greater Boston area into such communities as Worcester, Newburyport, 
Middleboro, Plymouth and even Providence, Rhode Island.
    Crime and other safety issues are addressed through the activities 
of the MBTA Transit Police Department and through the Safety Department 
(a part of MBTA's Operations Component). Crime and disorder problems on 
the system are often linked to crime and disorder issues that originate 
in the neighborhoods through which the various components of the 
transit system travel. Typically, local public safety entities address 
neighborhood crime and other public safety issues, even those that 
impact the system.
    Mass transit systems around the world have long been considered 
attractive targets for individuals and groups wanting to commit acts of 
terrorism. Transporting large numbers of people within concentrated 
predictable areas and time frames each day, these public transportation 
systems provide the opportunity for a single attacker (using an 
explosive device or a firearm) to kill or injure a relatively large 
number of people. Additionally, the central purpose of these transit 
systems is to move people throughout a large geographic area. 
Therefore, they offer an effective dispersal mechanism for biological, 
chemical or radiological weapons. But, attacks by terrorists need not 
be mass casualty events to be catastrophic. A significant disruption in 
service--whether caused by an attack, a hoax or the threat of attack--
``can seriously impact a region's economy and the public's faith in 
government's ability to provide basic protections to its citizens.''\1\
---------------------------------------------------------------------------
    \1\ Protecting Public Surface Transportation Against Terrorism and 
Serious Crime: Continuing Research on Best Security Practices, Mineta 
Transportation Institute, September 2001.
---------------------------------------------------------------------------
    However, while acknowledging that the potential vulnerability of 
the MBTA is important, there is only limited value in determining that 
the entire system is an attractive target for terrorists. The MBTA 
Transit Police have neither the stamina nor the resources to post a 
police officer on every train, every boat, every bus, in every station 
and in every building within the system. The challenge for the MBTA 
Transit Police is to determine what component(s) of the system are most 
at risk for attack at any given time and then take steps to mitigate 
those risks. Therefore, they have developed a homeland security 
strategy that includes continually:

        <bullet> Collecting information about individuals and groups of 
        individuals who have the motivation and the means to carry out 
        an attack upon the system and are living in, visiting and 
        traveling through the MBTA service area;
        <bullet> Identifying the business processes, personnel behavior 
        and physical characteristics of the various components of the 
        system infrastructure that could be vulnerable to an attack;
        <bullet> Disseminating threat and vulnerability information to 
        relevant operational staff, law enforcement personnel and the 
        public so that risk mitigation strategies can be rapidly 
        developed and implemented; and
        <bullet> Tracking the progress of these risk mitigation efforts 
        so that senior management can support and hold key personnel 
        accountable for the effective implementation of these efforts.
    For now and the foreseeable future, efforts to detect, prevent and 
respond to acts of terrorism will be a part of the day-to-day business 
of the transit police department. The transit police department 
acknowledges the fact that on-going problems of crime and disorder are 
not isolated incidents and, over time, they can escalate into more 
consequential situations. With a strong emphasis on prevention, 
regional issues and conditions are being resolved to prevent future 
incidents; police time is being saved; and safety and security on the 
transit system significantly enhanced.

Conclusion
    If we as a nation are truly serious about preventing acts of 
terrorism, there are several challenges that must be addressed. The 
Department of Homeland Security must work with state and local 
officials to rapidly draft our national threat and vulnerability 
assessment; base the planning, training and allocation of resources on 
threat and vulnerabilities; establish a risk identification and 
mitigation process; proactively and continuously monitor crime trends 
and emerging terrorist threats; ensure that crime control and anti and 
counter-terrorism efforts are inter-linked; create national standards 
for radio interoperability; and focus on coordinated regional efforts 
to respond to terrorist acts and critical incidents.
    While stopping an attack by a committed terrorist is difficult, a 
strong emphasis on prevention, underlying issues and safety can 
significantly enhance our national security. We must always keep in 
mind that the threat of today may not be the threat of tomorrow. And, 
any program that is established must be flexible enough to take into 
account that the entities receiving money today may not be the highest 
priorities tomorrow.
    Thank you for the opportunity to participate in this hearing.

    Chairman Cox. Mr. Nelson.

  STATEMENT OF RAY A. NELSON, EXECUTIVE DIRECTOR, OFFICE FOR 
        SECURITY COORDINATION, COMMONWEALTH OF KENTUCKY

    Mr. Nelson. Chairman Cox, Ranking Member Turner, 
distinguished committee members, I, too, would like to 
personally thank you, and on behalf of the members of the 
Commonwealth, for being here today. In the essence of time, 
simplicity, and avoiding redundancy, I would like to reiterate 
a couple of minor points from our perspective.
    We have done some research in Kentucky, and we have found 
that not only does the Department of Homeland Security put out 
grants that touch our first responders and also the many other 
agencies that support them, but there is actually less than 50 
percent of those grants coming out of DHS. When you look at 
DHHS, DOJ, even Veterans Administration, they are putting out 
grants that touch either terrorism, homeland security, or our 
first responders.
    One of the challenges I have in the State, as the director, 
is trying to get my hands around these monies, as well to find 
out what is going down to our first responders, what programs 
are in place coming out of the other departments here in the 
Federal Government to ensure again that we don't have 
duplication, redundancy and waste in some of these programs. 
That has been a major challenge that we have had.
    The other point is that the States are mandated to do a 
statewide assessment. We are doing vulnerability assessments, 
needs assessments, which will culminate in a comprehensive 
strategy. Out of that strategy, we will develop our plans on 
how we are going to do that. The means to do that, of course, 
is the appropriations, the funding. What we don't have now is 
the information on our capabilities and needs. We don't have it 
refined. We think we have an answer, but we don't have a good 
one so that we can develop these plans. The only way that we 
are going to be able to do that from a State perspective is to 
have these funds come through the Governor's Office for 
coordination. The problem is there is less than 50 percent of 
this money that is coming through, so we don't have visibility 
on it. I have to read the newspaper or see the morning news 
about a new program that is coming to the State. So, we need to 
change how we do business there.
    The other thing we need to do, of course, and I want to 
just reiterate the point of maintaining baseline capability and 
capacity. Tactically speaking, you never want to put all of 
your eggs in one basket; you never want to put all of your 
forces at ground zero. We have to maintain baseline capacity 
and capability in a regional manner to allow us to respond 
anywhere that the threat may come.
    The last thing is we need to really enforce standards, 
cooperation, and interagency coordination process, from both 
Federal, State, and local governments. This will ensure that 
the information in all of these programs is integrated, and 
that it meets the goals and ideas of the strategy that the 
States are currently planning.
    So with that, I will summarize and thank you very much for 
the opportunity to be here today. I look forward to questions 
later.
    Chairman Cox. Thank you for your testimony.
    [The statement of Mr. Nelson follows:]

                    Prepared Statement of Ray Nelson

    Chairman Cox, Ranking Member Thompson and Distiguished Committee 
Members:
    I sincerely appreciate the opportunity to testify before you today 
and personally thank you on behalf of the citizens of Commonwealth of 
Kentucky.
    In providing you a state perspective, I hope I am able to aid you 
in your efforts to better plan for the use of federal grant programs as 
we prepare our nation for threats or acts of terrorism by making our 
communities safer and provide our citizens with the security they 
expect and deserve. Thanks to the efforts of Congress, states and 
communities have received millions of dollars to ensure that they have 
the resources necessary to meet this new threat. These enormous 
homeland security efforts have required unprecedented cooperation 
between disciplines and jurisdictions and the building of partnerships 
at every level of government. The result has been the recognition of 
the complexities of the interagency coordination process. The increased 
requirements for interagency coordination are paramount as we work 
together in preparing for acts of terrorism. On that note, I would like 
to provide you with some issues that states and local governments are 
dealing with as we receive and distribute federal grants.
    I would like to start by addressing the scope of homeland security 
`related' grant programs. The grant programs coming out of DHS are not 
the only Homeland security related grants that are being directed to 
our emergency responders, community leaders, state agencies, and the 
many supporting agencies that would be involved in any crisis. In 
working with GAO, we have identified over 92 federal grants that have 
an impact on homeland security. Of those, over 50 perecent (47) come 
from federal agencies outside DHS. Most of these grant programs have 
been in existence for some time, but their focus remains on our 
emergency responders and our ability to protect our communities and 
respond to a crisis. The grants coming from the other federal agencies 
are programs requiring direct application with direct funding 
(stovepipe) to the agency applying for the grant. This process 
circumvents the interagency coordination process.
    My second point is the requirement for each state to develop an 
integrated `Homeland Security Strategy'. We are all currently involved 
in conducting statewide threat, vulnerability and needs assessments; 
that will result in a comprehensive state strategy. We must ensure that 
we can deter, deny, detect, delay and defeat any would be terrorist; 
and then of course, be able to respond and recover from a successful 
attack should one occur. Our strategy will undoubtedly focus on a 
regional approach, to ensure that we maintain, and sustain, a base-
capability and capacity statewide, as well as maintaining our focus on 
population centers, critical infrastructure and the actual threat. As 
you can see, this approach cannot be accomplished working in a vacuum 
or through a stovepipe funding process.
    My third point today is to remember that development of a strategy 
and capabilities is only the beginning--sustainment of these efforts 
will be the challenge. States need to have assurances of baseline 
federal funding that will fund these initiatives for the long term. 
With limited shelf-life of equipment, improvements in technology and 
training upgrades, states will need consistent and predictable funding.
    This brings me to the focal point of my comments here today. We 
must develop, and enforce, a federal, state and local government 
interagency coordination process as it relates to federal homeland 
security grant programs. To effectively orchestrate a federal, state or 
local jurisdiction homeland security strategy, requires that all 
affected agencies coordinate to maximize the efforts and effects of 
current federal grant programs. The outcome of our efforts will depend 
upon the state's ability to build comprehensive and integrated plans at 
the state and local level. We can no longer afford to allow 
organizations to operate as autonomous entities and plan in a vacuum. 
As an example, the interoperability problems we face today are a direct 
result of a lack of interagency coordination.
    As states, we recognize our role and responsibility and are moving 
rapidly to ensure we take the steps necessary to develop and sustain 
our capabilities. As a nation, we can only be secure when every 
community in every county in every state is secure. Therefore, if our 
states, in particular our governors, are to be held responsible and 
accountable for the safety and security of our citizens, all federal 
grant programs that affect our emergency responders, or the multitude 
of agencies supporting their efforts, must be coordinated through the 
governor's office.
    As the state's homeland security coordinator, I frequently 
`discover' additional homeland security grant programs coming from 
federal agencies; whether it is for school terrorism planning, agri-
terrorism, inter-city bus security programs or eco-terrorism; by 
reading the local newspaper. This is not the most effective way of 
doing business. Having said this, I must complement the Department of 
Homeland Security in their efforts to coordinate all federal grant 
programs coming from the new department. However, there are numerous 
other federal agencies that have not embraced the necessity for 
interagency coordination at the federal, state and local levels.
    My final point is that to ensure the effective use of taxpayer's 
dollars, we must measure effectiveness, efficiencies, performance and 
compliance, in the expenditure of these funds. Without mandated 
coordination, performance and compliance measures, we will be no better 
off five years from now, than we were on 10 September 2001.
    In the words of professor Albert Einstein, ``Today's problems 
cannot be solved with yesterday's thinking''.
    This is no longer business as usual. We must coordinate all 
Homeland Security ``related'' Grant Programs throughout the federal 
government to allow a fully coordinated implementation by the States, 
counties and cities. There is only one strategy and all initiatives 
should support this statewide strategy.
    In closing, I would like to reiterate that each and every day our 
communities become more secure and our first responders better 
prepared. Achieving our goal to make our homeland secure will take 
time. This is a team effort and states are committed to being a team 
player. We need the resources to meet this challenge, but please don't 
tie our hands. Give us the flexibility and tools help us do our job 
better.
    I appreciate this opportunity and will be glad to answer any 
questions you may have.

[GRAPHIC] [TIFF OMITTED] T1512.001

[GRAPHIC] [TIFF OMITTED] T1512.002

[GRAPHIC] [TIFF OMITTED] T1512.003


    Chairman Cox. Lieutenant Colonel Behunin.

  STATEMENT OF LIEUTENANT COLONEL SCOTT BEHUNIN, DIRECTOR OF 
     EMERGENCY SERVICE AND HOMELAND SECURITY, STATE OF UTAH

    Lieutenant Colonel Behunin. Thanks, Chairman Cox and 
Ranking Member Turner, for allowing me to speak today on behalf 
of NEMA, the National Emergency Management Association.
    NEMA represents the 50 State directors who answer to the 
Governor on issues like emergency preparedness, homeland 
security, mitigation, response, and recovery activities for 
natural, man-made, and caused disasters.
    We appreciate the attention and funding that Congress has 
given to ensure first responders and emergency management is 
adequately prepared for threats to our Nation's homeland 
security. Our emergency responders are better prepared today to 
face the various threats associated with terrorism because of 
the Federal commitment to address the war on terrorism. This is 
being played out in our cities and towns and our States. States 
continue to take an all-hazards approach to disaster 
preparedness, as we have integrated our domestic preparedness 
efforts into proven systems that are already being used and 
dealt with on man-made and natural disasters.
    The most critical issue for NEMA is the opportunity to 
build and sustain a national emergency infrastructure that 
addresses the needs of the entire emergency community without 
taking away programs that are the basic building blocks of 
these systems. We must seek to build baseline capabilities in 
each State that are adequately funded through reliable and 
predictable multiyear funding.
    NEMA continues to support Federal efforts to increase 
emergency management capacity-building at the State and local 
level for personnel, planning, training, equipment, 
interoperable communication, coordination, and exercises. 
Building each State's homeland security capacity allows for a 
national system that is resilient enough to deal with ever-
changing threats. Our national system must also have resources 
in place to maintain and sustain a system as equipment changes, 
technology changes, and new training methods become available. 
A significant Federal commitment must be made to give State and 
local governments the tools to ensure adequate preparedness in 
every jurisdiction.
    All efforts to increase emergency management capacity-
building must be coordinated through the States to ensure 
harmonization with the State emergency operations plan and 
ensure equitable distribution of resources and to synthesize 
resources at intra--and interstate mutual aid. The Stafford 
Act, which governs the way disaster assistance is allocated, 
successfully uses States and Governors as the managers of 
Federal disaster relief funds for local governments which can 
be overwhelmed in the need of assistance when a disaster 
occurs.
    While many States are implementing programs to assist in 
regional coordination for homeland security, it is critical 
that Federal requirements for regional efforts are coordinated 
with the State homeland security plans. Otherwise we end up 
with a patchwork quilt of preparedness activities that are not 
systematically addressing holistic needs identified in a 
comprehensive plan. While NEMA supports incentives for regional 
initiatives, regional efforts must be coordinated with an 
accountable authority such as the Governor.
    States understand the need to get funds out quickly to 
first responders and have long coordinated, statewide and 
regionally, to ensure adequate State assistance to local 
governments for emergency preparedness and response. States 
continue to work to ensure the grants get out as quickly as 
possible to all localities.
    New requirements included in the 2003 and 2004 
appropriations bill mean that we have less time to get out 
significant amounts of funds to local governments, but States 
are managing the process and meeting deadlines put in place by 
Congress. While we strive to ensure the influx of funding gets 
to local governments swiftly, we also want to make sure that we 
are deliberative about the ways the grants are used in order to 
meet the goals of homeland security plans.
    Currently, States are doing assessments as directed by ODP. 
This process helps to identify gaps, shortfalls, priorities for 
addressing homeland security in each State. Federal funding 
should be flexible enough to allow for the State homeland 
security grant to address the unique needs identified by these 
strategic plans. Statewide strategic planning ensures a basic 
preparedness response capability throughout the State.
    Of critical importance to the State homeland security grant 
comes down to some key issues that have not been mentioned yet 
today, and that is being able to fund training for these 
personnel to attend training and exercise and to cover overtime 
and the backfill in overtime. I would also like to see the 
streamlining of the grant application and not so much oversight 
by the administrating agency.
    As far as the standard, we believe there should be 
standards established. There are standards, a current 
standardization program with the Emergency Management 
Accreditation Program, or EMAP, and that process is going on 
now to measure up the capabilities of State emergency 
management jurisdictions around the country.
    In conclusion, as we work to fully implement our new 
Federal Department of Homeland Security and revise the State 
homeland security grant program, we must not forget about the 
all-hazards approach to emergency management and the role it 
plays in preventing our Nation from losing focus on the daily 
perils that we face in addition to the new threats. We must be 
prudent and thoughtful in addressing homeland security 
enhancements in our preparedness and not waste the 
opportunities we have before us today. Only through a 
partnership of Federal, State, and local government, along with 
the citizens and businesses, can our country prepare and 
respond to all emergencies and all disasters.
    Thank you.
    [The statement of Lieutenant Colonel Behunin follows:]

         Prepared Statement of Lieutenant Colonel Scott Behunin

Introduction
    Thank you Chairman Cox, Ranking Member Turner, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with testimony on the state homeland security grant program. I am Scott 
Behunin, Vice-Chair of the National Emergency Management Association 
Homeland Security Committee and Director of Utah Division of Emergency 
Services and Homeland Security. In my statement, I am representing the 
National Emergency Management Association (NEMA), who are the state 
emergency management directors in the 50 states and the U.S. 
territories. NEMA's members are responsible to their governors for 
emergency preparedness, homeland security, mitigation, response, and 
recovery activities for natural, man-made, and terrorist caused 
disasters.
    We appreciate the attention and funding that the Congress has given 
to ensuring first responders and emergency management is adequately 
prepared for threats to our nation's homeland security. Our emergency 
responders are better prepared today to face the various threats 
associated with terrorism because of the federal commitment to address 
the war on terrorism that is being played out in our states, cities, 
and towns. States continue to take an all-hazards approach to disaster 
preparedness as we have integrated our domestic preparedness efforts 
into the proven systems we already use for dealing with both man-made 
and natural disasters.
    We recognize the efforts that Chairman Cox and Ranking Member 
Turner and the members of the Select Committee have made to simplify 
homeland security grants and appreciate the opportunity to provide 
input in the process of crafting a compromise bill that will make the 
state homeland security grant program stronger and more flexible. We 
salute the foresight of Congress in creating this Committee when 
forming the Department of Homeland Security, while maintaining 
individual program authorities for the 22 agencies included in the 
Department in the traditional Committees. The Select Committee is a 
step in the right direction to address the immediate threat of 
terrorism and for building preparedness for the national emergency 
system.

NATIONAL CAPACITY BUILDING
    The most critical issue for NEMA is the great opportunity that we 
have before us to build and sustain a national emergency infrastructure 
that addresses the needs of the entire emergency community (for 
example, fire, law enforcement, emergency medical services, emergency 
management, public health, and emergency communications) without taking 
away programs that are the basic building blocks of these components. 
We must seek to build baseline capabilities in each state that are 
adequately funded through reliable and predictable multi-year funding. 
NEMA continues to support federal efforts to increase emergency 
management capacity building at the state, territory, and local level 
for personnel, planning, training, equipment, interoperable 
communications, coordination, and exercises. Building each state's 
homeland security capacity allows for a national system that is 
resilient enough to deal with ever-changing threats. Our national 
system must also have resources in place to maintain and sustain the 
system as equipment changes, technology changes, and new training 
methods become available.
    In order to build this capacity, we must not take funding from the 
traditional program accounts that ensure our all-hazards preparedness. 
This includes programs like the Emergency Management Performance Grants 
(EMPG), the COPS program, and the Fire Grants. A significant federal 
commitment must be made to give state, territorial, and local 
governments the tools to ensure adequate preparedness. While states 
have significantly increased their commitment to emergency management 
over the last decade, states are struggling with budgetary issues and 
the increased investments necessary to meet new demands. The threat of 
terrorism is a national security issue that must be addressed with 
federal dollars and federal coordination.

State Coordination
    All efforts to increase emergency management capacity building must 
be coordinated through the states to ensure harmonization with the 
state emergency operations plan, ensure equitable distribution of 
resources, and to synthesize resources for intra-state and inter-state 
mutual aid. The Stafford Act, which governs the way disaster assistance 
is allocated, successfully uses states and Governors as the managers of 
federal disaster relief funds for local governments, which can become 
overwhelmed and in need of assistance when disasters occur. While many 
states are implementing programs to assist in regional coordination for 
homeland security, it is critical that federal requirements for 
regional efforts are coordinated within the state homeland security 
plans. Otherwise, we end up with a patchwork quilt of preparedness 
activities that are not systematically addressing holistic needs 
identified in comprehensive plans. While NEMA supports incentives for 
regional initiatives, regions must be coordinated with an accountable 
authority such as the Governor.
    States understand the need to get funding quickly to the first 
responders and have long coordinated statewide and regionally to ensure 
adequate state assistance to local governments for emergency 
preparedness and response. There has been some discussion of the 
states? effectiveness to coordinate these programs; our data shows that 
the criticism is exaggerated. States continue to work to ensure the 
grants get out as quickly as possible to the localities. New 
requirements including in the 2003 appropriations bill and the 2004 
appropriations bill mean that we have less time to get significant 
amounts of funds out to local governments, but states are managing the 
process and meeting the deadlines put in place by Congress. While we 
strive to ensure the influx of funding gets to local governments 
swiftly, we also want to ensure that we are deliberative about the way 
the grants are used in order to meet the goals of our state homeland 
security plans.
    Currently, states are working with local governments to complete 
state homeland security assessments with ODP. This process helps to 
identify gaps, shortfalls and priorities for addressing homeland 
security in each state. Federal funding should be flexible enough to 
allow for the state homeland security grant to address the unique needs 
identified in these strategic plans. Statewide strategic planning 
ensures a basic preparedness and response capability throughout each 
state in a coordinated approach.

REFORM FOR THE CURRENT PROGRAM
    Critically important to the state homeland security grant program 
is allowing funds for emergency responders to be used to pay for 
training and exercises. Additionally security costs for critical 
infrastructure and key assets, as well as hardening defenses and 
security to these potential targets, must be recognized in times of 
heightened alert associated with specific threats. Flexibility is 
needed to cover the overtime costs associated with training and 
exercising. In order to send a first responder to train on equipment, 
states and localities must pay overtime for that person's time, but 
also overtime for the person who takes their shift to replace them on 
duty.
    We suggest that the Department of Homeland Security provide 
quarterly reports on the status of federal funds for state and local 
governments in detail to Congress and share those reports with key 
state and local government associations and first responder 
associations. We believe this would provide the opportunity for all 
interested parties to see the same data regarding homeland security 
grants as well to see where assistance is needed in getting grant 
funding distributed and most importantly, it would provide an ability 
to track our progress in protecting our communities from terrorism.
    Federal streamlining is necessary to consolidate the federal grant 
application process for homeland security funds in order to ensure that 
funding can be provided faster to first responders. NEMA has been 
supportive of initiatives to eliminate duplication such as multiple 
planning requirements and efforts to allow for waivers on the uses of 
grant funds so grants may be best tailored for state and local needs. 
The current application submission, review, and approval process is 
lengthy and should be reviewed for efficiency. In particular, extra 
steps for federal approval are involved once a community and state 
identify equipment that they would like to purchase with grant funds. 
Allowing greater autonomy in the process would allow states to better 
meet unique needs in their communities and expedite funding to local 
communities.

Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
states and local governments are in the toughest fiscal situation since 
the deep recession in the early 1980s, we must be wary of programs that 
would require significant matches. In fact, for local governments to 
meet the match would be even more difficult given their fiscal 
constraints. If a significant match is required, the application of 
this initiative will only go to those agencies and governments that can 
fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. We support the idea of suspending the match requirement in the 
early years of the program.

Standards
    A national performance standard should be developed so state and 
local governments know specifically what is recommended for 
preparedness. The Department of Homeland Security should take into 
account the size of a jurisdiction when considering preparedness 
guidelines, knowing that there are not enough resources to go around. 
Having a definition of a robust homeland security and emergency 
management program will help state and local governments prioritize 
areas in need of funding.
    Standards must be developed to ensure interoperability of 
equipment, communications, and training across state, regional, and 
local jurisdictions. In terms of establishing voluntary minimum 
standards for the terrorism preparedness programs of state and local 
governments, NEMA offers itself as a resource in this area. Our 
organization, along with other stakeholder groups such as the Federal 
Emergency Management Agency, the International Association of Emergency 
Managers, National Governors? Association, National Association of 
Counties, International Association of Fire Chiefs, and others, has 
developed and is implementing an Emergency Management Accreditation 
Program (EMAP). EMAP is a voluntary standards and accreditation program 
for state and local emergency management that is based on NFPA 
(National Fire Protection Association) 1600 ``Standard for Disaster/
Emergency Management and Business Continuity Operations'' (an ANSI or 
American National Standards Institute approved standard) and FEMA's 
Capability Assessment of Readiness (CAR). Consequence management 
preparedness, response and recovery standards are being developed in 
conjunction with those for the traditional emergency management 
functions. NEMA suggests that these standards already being 
collaboratively developed through EMAP be considered in the development 
of minimum standards for training, exercises and equipment. 
Additionally, EMAP acceptance would provide the natural mechanism for 
federal and state agencies to meet the requirements of the Government 
Performance Results Act (GPRA). EMAP, in partnership with FEMA and the 
Department is conducting baseline assessments of all states, some of 
which wish to pursue accreditation in conjunction with this initial 
assessment. Last month, the EMAP program accredited the emergency 
management program of the State of Florida and the District of 
Columbia.

Other Needs
    As you consider legislation, we ask that you consider other 
specific needs to: improve information and intelligence sharing between 
federal, state and local governments; upgrade emergency operations 
centers; assess, plan, and provide interoperable communications 
equipment and solutions; address the lack of public safety spectrum and 
radio frequency; provide mutual aid planning assistance; and provide 
effective warning systems for all citizens.
    NEMA is taking the initiative to develop solutions to some of the 
issues and concerns of state government related to homeland security 
with strategic partnerships. On April 1, 2003, NEMA, along with the 
Adjutants General Association of the United States and Mitretek Systems 
launched a Center for State Homeland Security. The Center will provide 
assistance for states in implementing their homeland security missions 
by facilitating access to the best available tools, information and 
facilities. The Center will provide direct support to states in key 
areas where assistance is needed including engineering, analysis, 
program planning, management, and procurement, in addition to 
identifying best practices. This project will help states navigate the 
vast web of information on homeland security and provide a framework 
for benchmarks to assist with spending accountability.

    CONCLUSION
    As we work to fully implement a new federal Department of Homeland 
Security and revise the state homeland security grant program, we must 
not forget about the all-hazards approach to emergency management and 
the role it plays in preventing our nation from losing focus on the 
daily perils that we face in addition to new threats. We must be 
prudent and thoughtful in addressing the homeland security enhancements 
to our preparedness and not waste the opportunities we have before us 
today. Only through a partnership of federal, state, local government, 
along with our citizens and businesses, can our country prepare and 
respond to ALL emergencies and disasters. Thank you for your 
consideration.

    Chairman Cox. I thank each of you gentleman for your 
excellent testimony and for your willingness to help us here 
today.
    Let me begin, Mr. Cohen, with you. You have testified that 
intelligence and information-gathering and crime analysis 
efforts must be expanded to support police departments serving 
as the hubs for collection, analysis, dissemination, and 
reevaluation of threat and vulnerability information. And you 
are suggesting that we more closely integrate the two tasks of 
terrorism prevention/response on the one hand, and crime 
prevention and control on the other hand.
    I wonder if you are familiar with the existing provisions 
of Federal law enacted in the mid-1990's and signed by 
President Clinton that authorized State and local law 
enforcement to be deputized by the Federal Government to 
enforce immigration law. Is that an area where we can be doing 
more?
    Mr. Cohen. I think you hit on an area where there needs to 
be more advances made in how we are responding to this problem. 
Yesterday I attended a meeting and, Mr. Chairman, just by way 
of background, I was both a special agent in the Office of 
Naval Intelligence, and I was a police officer that was 
assigned to Federal task forces, so I have spent a good chunk 
of my career working both on the Federal side and the local 
side, working right on the streets. I don't think we have done 
a very good job yet as a country linking together the resources 
at the local law enforcement level with those at the Federal 
level. And, there is a reason for that. I think we are 
operating on two different sort of philosophical mindsets. On 
the Federal law enforcement side, at least with some agencies, 
we still tend to view homeland security as an intelligence or 
counterterrorism as an intelligence-type of issue in which we 
have to keep information close to the chest, and we have to be 
very selective in what we provide other law enforcement, 
whether they are local police, state police, or even some other 
Federal agencies. On the local side, the approach is bringing 
as much information as you can from as many different sources, 
blend it together and then develop a preventive approach to 
stopping that entity or that person from doing something 
violent.
    Right now, I would like to see a better job done. The law 
enforcement people who I am working with blend intelligence 
information with law enforcement information. Now, whether that 
information comes from an immigration investigation; whether 
that information comes from a drug dealing or a drug 
trafficking investigation; or whether that information comes 
from an intelligence source; the key is that we have to blend 
those law enforcement and information-sharing activities 
together.
    Chairman Cox. As we blend, we recognize that fighting 
terrorism and fighting crime are complementary functions. We 
are being asked at the same time or at least, Mr. Behunin, in 
your testimony you have suggested this, and I think we have had 
this suggestion from other first responder groups--we are being 
asked to get rid of matching requirements. If you get rid of a 
matching requirement, you have made something entirely a 
Federal responsibility and not a State or local responsibility.
    How do we conform those two approaches? If at once we are 
supposed to be recognizing that these are complementary 
functions and melding fighting terrorism with fighting crime 
and, on the other hand, we are supposed to have it be purely 
federally funded, how can we accomplish one at the same time as 
the other? Shouldn't we maintain some local interest in how 
these funds are spent? In particular, as we are considering 
making regional grants to units beneath the State level, don't 
we lose the opportunity for the United States Congress and even 
for the executive branch of government to conduct proper 
oversight? Don't we need the States and our regional 
governments to do some oversight and have a financial stake?
    Lieutenant Colonel Behunin. Well, in a perfect world, yes, 
I think that is appropriate. Our office runs through, for 
example, the CSEP program; it falls under our responsibility 
and other Federal grants that are matched. I guess the best 
example in this particular time it makes it very difficult--is 
the money that is out there now is the only reason there is a 
game in town. That is the only reason they get together, 
because what I am hearing from local jurisdictions is I have 
enough on my plate right now, I cannot stand to have any other 
burden. We all know the States are at increased burden and 
cannot meet those matches.
    We just recently had a round of emergency operation center 
grants that were 75-25. And when you look at the distribution 
of funds, those that had the money were able to match and get 
the largest cut. I received one of those grants, but I was able 
to match the minimum and received a pittance compared to what 
they received. The money is not there to match. Now, if you 
want to match in personnel and in other areas, you can do that 
to some degree, but right now the money is not there. I would 
like to see more State involvement. The bottom line is the 
money is not there.
    Chairman Cox. Mr. Nelson, you have tried to direct our 
attention to having government at all levels cooperate. And, of 
course, the name of the game in homeland security is sharing 
and cooperation in ways that we have not before. We are trying 
to break down the barriers between law enforcement and 
intelligence, between Washington and the States and localities.
    In addition to the structures that are already in place, do 
you have in mind anything specific that we should be 
generating?
    Mr. Nelson. As these--for example, the grants, if we could 
get the grants to come through the Governor's office, we could 
coordinate those with the State's strategic plan. That would be 
the first step with that; because then with the guidance that 
would come out of Congress on how to expend those funds, the 
Governor could put on additional guidelines, perhaps, on focus 
areas within the State, not telling the mayors or the Governors 
how to do their job, but to emphasize with them what the focus 
is, what the current priorities might be, that we can then 
execute and take advantage of the monies that are coming. That 
is basically what we really need more than anything else.
    Chairman Cox. Mr. Turner.
    Mr. Turner. Mr. Chairman, I am not sure how much 
opportunity the witnesses have had to look at the legislation 
before our committees. We have two pieces of legislation, one 
sponsored by the Chairman, one by me and other members on the 
Democratic side. When we look at trying to improve how we fund 
homeland security--which is our mutual objective here, because 
we feel that in many ways the funding has been haphazard--it 
hasn't been focused. One of the things that I have envisioned 
is trying to establish a process where we can determine the 
essential capabilities that our States and our locales need, 
and I will ask each of you to briefly respond to this.
    Do you perceive that as a need, to establish some standard 
that we are trying to target so that we can measure our 
progress in preparing all of our communities to meet the 
essential capabilities that you need to respond and, as I think 
you said, Colonel, not just to terrorism but to all hazards? Do 
you think that would be an important contribution that we could 
make?
    Lieutenant Colonel Behunin. Yes. We are trying to find that 
in our State, the State of Utah at this point. We have six 
counties that have an all-hazards capability response. I mean 
the bomb team, HAZMAT, and all that kind of stuff. We have 23 
counties that have little or nothing, we are trying to bring up 
to a basic level of expected response capability or, as you 
define it, as essential. I think that is certainly easier in 
our State than it is for the Nation. How many decon units per 
thousand do we need, what kind of communications systems do we 
need, what kind of training and so forth? How do you measure 
that? I think that is yet to be determined.
    But I think it makes sense, because at some point the money 
is going to dry up and there is going to have to be a balance 
where real life is. And if we meet the minimum, so be it, and 
if we are a high-threat city, maybe that notches us a little 
higher and so forth and so on, based on threat. But I think 
that is a smart move; yet to define is a tough job.
    Mr. Nelson. I agree that we need to identify a baseline so 
that we always have a measuring point. In a sense, I think we 
have already established that point. We know what resources we 
have used to conduct crime prevention. The public health sector 
knows what we have had to do over the past 20, 50 years to keep 
in check these diseases. Fire service knows what we need to 
have to support the community.
    Now, have we fully funded those to support those basic 
needs? Probably not. But I think that may be the baseline to 
support our communities.
    Then, as we get into the terrorism and counterterrorism 
arena, those are all kinds of add-ons. One of the things I try 
to emphasize with our mayors, judge executives, and the 
corporate leaders is that there are some things that we need to 
do permanently to protect ourselves, whether it is physical 
security, operational security, or whatever. But there is this 
surge capacity we must have and build so we can move resources 
around the State, around the city, wherever, based on that 
threat. Because the threat will change.
    The more we harden a facility and reduce our 
vulnerabilities, the terrorists are going to look for some 
other way to hit us, either through a vulnerability that we 
haven't detected, or they are going to go to a different 
target. So we have to do some things permanently, long term, 
and then again, we have to establish a surge capacity.
    So baseline is protection of us today on all of those 
things we have been doing for the last 200 years.
    Mr. Cohen. I think you bring up an excellent point. I think 
there is a lot of confusion out there still, over 2 years since 
September 11, on what we actually mean by homeland security. 
Depending on which jurisdiction you are in at any given time, 
that definition may be different. Localities right now are 
creating their own definitions and standards, and that makes it 
very complex when they are looking to draw resources down from 
the Federal Government.
    Interoperability is a perfect example. Secretary Ridge, I 
think a week ago in Detroit when he was at the Homeland 
Security Advisory Council, said that they have started a new 
project which I think he calls the lexicon program. The 
Department is going to actually define words that are commonly 
used throughout homeland security, because depending on where 
you go throughout the country, interoperability can mean 
something different. In some cases, it is something that you 
only need in the event of a catastrophic incident. In other 
jurisdictions, it is something that you need to have every 
single day.
    So I think a very important step, if we are going to get a 
handle on this funding issue and making sure we are putting the 
dollars where they can do the best, is we all have to be 
operating off of a common philosophy, common terminology, and 
common standards.
    Chairman Cox. I thank our witnesses for appearing today.
    Ms. Jackson-Lee. Mr. Chairman, I have not had a chance to 
ask questions.
    Chairman Cox. Well, there is a vote on the floor right now.
    Ms. Jackson-Lee. I have voted already, and I will be 
willing to continue questioning while the Chairman goes to 
vote.
    Chairman Cox. The gentlewoman will be able to submit her 
questions for the record, but we are going to have to excuse 
the panel. They have been with us since 10:30 this morning.
    Ms. Jackson-Lee. I would like to pose some questions at 
this point and make some comments on the record. I think it is 
more than appropriate.
    Chairman Cox. We will leave the record open for questions 
and comments. The gentlewoman--.
    Ms. Jackson-Lee. Well, can I make a comment on the record, 
please?
    Chairman Cox. Please be brief, in 30 seconds or less.
    Ms. Jackson-Lee. First of all, let me say that I think this 
is the most important hearing that we have had probably in the 
whole session of homeland security, because it goes back to the 
crucial point of first responders. And what I hear you saying, 
Mr. Nelson, is that more funding, as I glean from your 
testimony, is necessary and needed for homeland security. I 
will be asking that question as well as being able to provide 
monies directly to the first responders. I have concern that 
there are too many layered processes before the first 
responders, like firefighters and police persons, can get 
monies to the community. If you can just answer that one 
question, and I will submit the rest of my questions for the 
record, because as I said, this is a very important hearing.
    Chairman Cox. I appreciate the gentlewoman putting her 
questions on the record. The witnesses are excused. The hearing 
is adjourned.
    [Whereupon, at 1:45 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ------------

                   Material Submitted for the Record

          Prepared Statement of Commissioner Raymond W. Kelly

    Chairman Cox, Congressman Turner and Members of the Committee, 
thank you for the opportunity to discuss with you what New York City 
has done and is doing in response to the terrorist attacks of September 
11 and to the continuing terrorist threat, especially as it concerns 
New York City.
    There is no question that the terrorist threat to New York City is 
serious and ongoing. As recently as February of this of this year, a 
tough, seasoned Al Qaeda operative named Iyman Faris was in New York 
City on a mission to destroy the Brooklyn Bridge. This is the same man 
who fought alongside Osama Bin Laden, who engaged in a battle which 
included the wholesale slaughter of Russian prisoners, and who helped 
supply Al Qaeda fighters more recently with sleeping bags, airline 
tickets, cash and cell phones. Nearly two years after the destruction 
of the World Trade Center, Iyman Faris was in New York City. He stayed 
in a hotel near Newark airport. He rented a car there and drove into 
Manhattan. He ate at a Pakistani restaurant a few blocks from City 
Hall. And after conducting surveillance of the Brooklyn Bridge, Faris 
reported back to his handlers that, ``the weather is too hot;'' meaning 
security was too tight for the plot to succeed. I want to stress, 
again, that an experienced Al Qaeda operative, linked directly to Bin 
Laden, was in Manhattan plotting to destroy the Brooklyn Bridge just 
eight months ago.
    We know how Al Qaeda thinks: If at first you don't succeed, try, 
try again. They viewed the first attack on the World Trade Center as a 
failure. So they came back. New York City has been the target of six 
separate plots--that we know of--by Islamic terrorists in the last 
decade alone. There was the first bombing of the World Trade Center in 
1993, followed by the plot to simultaneously attack the Lincoln and 
Holland Tunnels, the George Washington Bridge, the United Nations, and 
26 Federal Plaza--the Federal office complex in lower Manhattan. 
Fortunately that plot was uncovered, as was another plot in 1997 to 
attack the New York City subway system. This was followed, of course, 
by the horrendous destruction of the World Trade Center in 2001. Two 
more plots against New York City, one involving the Garment District, 
and the one to destroy the Brooklyn Bridge were underway this year when 
they too were uncovered.
    The highly visible security that the New York City Police 
Department had in place on the Brooklyn Bridge, in addition to the 
unseen protection, appeared to pay off in the Faris case. The added 
coverage we have been providing at sensitive locations like the 
Brooklyn Bridge is just the tip of the iceberg in a comprehensive 
counter-terrorism strategy. At the beginning of 2002, we created a new 
Counter Terrorism Bureau. We assigned over 250 officers to it. About 
half of them were posted to the Joint Terrorist Task Force with the 
FBI. On September 11th of 2001 we had 17 detectives assigned to the 
Task Force. Now 121 are assigned there.
    When all is said and done, we have about a thousand police officers 
directly involved in protecting the city against another terrorist 
attack. We also dramatically expanded the role of our Intelligence 
Division. We are conducting around-the-clock threat assessments, and 
integrating this real-time information into daily decisions about where 
to place resources and personnel. We appointed outstanding individuals 
from outside the Department to lead our intelligence and counter-
terrorism functions. They have decades of CIA, counter terrorism and 
national security experience.
    We built a new counter terrorism center from scratch and staffed it 
with police officers who speak Farsi, Urdu, Arabic, and Pashto. We have 
sent New York City detectives with the FBI to Guantanamo, Cuba and to 
Afghanistan to interrogate terrorist suspects there. We have also sent 
our detectives to other international capitals to work directly with 
their counterparts in tracking down any threats to New York.
    At home, we are engaged in extensive training, and we are 
conducting drills on a daily basis. Our Hercules teams, comprised of 
specially trained officers, with heavy weapons, appear unannounced at 
sensitive locations. They are there to respond to a terrorist incident 
and to disrupt the kind of surveillance we know Al Qaeda engages in. We 
also regularly conduct something we call Sampson drills, involving 
teams of up to 100 officers at a time, including snipers, who can be 
dispatched quickly to any given location in the city.
    Our detectives meet with suppliers of explosives, laboratory 
equipment, scuba gear, specialized rental equipment. . . just about 
anything that a terrorist may want to acquire in advance of an attack. 
The Police Department has also held briefing sessions for various 
segments of the public who may come in contact with terrorist plotters. 
For example, we briefed real estate agents on exactly what Al Qaeda 
tells its operatives to look for in renting an apartment.
    Last March, with the commencement of the war in Iraq, we launched a 
heightened security program called ``Operation Atlas'' to protect New 
York City from possible reprisal. Given the ongoing terrorist threat, 
Operation Atlas remains in place today. It brings together all of the 
core elements of the Police Department; Patrol, specialized units, 
Counter Terrorism, and our Intelligence Division, in a coordinated 
defense of New York City. Checkpoints are established periodically at 
key locations into and out of Manhattan. COBRA teams, which specialize 
in biological and radiological response, have been deployed throughout 
the city. We have increased protection of commuter ferries. Archangel 
teams, composed of emergency services personnel, bomb experts and 
investigators, have been staged across the city. Hammer teams, the 
police and fire department experts in hazardous materials, have been 
deployed jointly. We are also having teams of officers board subway 
trains, and search them car-by-car for anything suspicious. We want to 
discourage or even intercept a terrorist attack in the subway system. 
We have put a medical team together to help us train and protect police 
officers who might face biological or other unconventional weapons.
    The short version is this: We are doing a lot, and it is costing us 
a lot; something on the order of $200 million a year in operational 
expenses for counter terrorism in the Police Department alone. The 
police department has also identified $261 million in training needs, 
equipment and supplies directly related to counter terrorism. We asked 
the Federal government for $261 million. We've received a little less 
than $60 million. And that $261 million does not include requests from 
other NYC departments. Only recently has financial help from the 
Federal government begun to arrive. We are grateful for the help, but 
it does not come anywhere near the needs that we have. Part of our 
challenge is, of course, the fiscal restraints under which we all must 
operate. You may not be able to do anything about those. But you can 
correct the system that sends more than 80 percent of the Federal 
assistance to first responders across the country in a manner that is 
blind to the threats this country faces, blind to the vulnerable 
infrastructure that exists in different places, and blind to the 
consequences of an attack.
    The City of New York's initial estimate of its counter terrorism 
needs for all agencies was $900 million. I have attached a summary of 
that estimate to my testimony and would like to submit a more detailed 
description for the record. To date, the City has been awarded about 
$84 million in assistance from the Federal government for homeland 
security. It began arriving in August of this year. We expect that an 
additional $75 million will be approved from fiscal 2003 funds. I want 
to thank all those who helped create and who funded the High Threat 
Urban Area program but, as you can see, far and away, the people and 
City of New York are bearing the cost of defending the homeland in New 
York. This is despite New York being the number one target and that the 
consequences of an attack there could have national and worldwide 
repercussions.
    Of the total of approximately $160 million in Federal assistance 
for New York City, eighty percent of those funds have come from the 
High Threat Urban Area program, even though that program accounts for 
only about twenty percent nationally of the federal assistance for 
first responders. The High Threat Urban Area program attempts to 
compensate for the failure of the other programs to address the 
country's counter-terrorism needs. Unfortunately, it does not succeed 
in correcting the lack of any consideration for threat in the other 
programs.
    In fiscal 2003, the Federal government provided a total of $3.45 
billion for first responders through the Department of Homeland 
Security in three major programs: $1.9 billion in homeland security 
formula grants to states, $750 million in Firefighter Assistance 
Grants, and $800 million for high threat urban areas. Only the last 
program for High Threat Urban Areas--which was only 23 percent of the 
total--takes into account terrorist threat, vulnerabilities and 
consequences.
    In fiscal 2004, the total amount and proportion of funds being 
distributed on the basis of threat and need will decline. For this 
year, high threat urban areas will receive $725 million, nearly a ten 
percent cut, while the other programs will receive $2.95 billion, more 
than a ten percent increase. The result is that more than 80 percent of 
the Department of Homeland Security's first responder funds will be 
distributed blind to the nation's counter-terrorism needs.
    Let me first tell you why I am including the firefighter assistance 
grants in these totals. I recognize that there are needs in many 
communities throughout the country and that the Firefighter Assistance 
grant program existed prior to the events of September 11, but it has 
been increased greatly in response to September 11. I am not suggesting 
that those funds should be distributed on the basis of threat, but 
neither can their existence be ignored. Because these grants are 
limited to a maximum of $750,000 per jurisdiction, they are of little 
help in those areas that have significant counter-terrorism needs, 
though they can be a significant help to rural areas and smaller 
communities.
    Regarding the Homeland Security formula grants to the states, they 
were created after the events of September 11 and are a direct response 
to those terrorist attacks. They should be distributed on the basis of 
known threats, the presence of critical infrastructure and the 
magnitude of the consequences of an attack. Currently, those grants are 
distributed completely otherwise. Each state receives three-quarters of 
one percent of the total amount and the remainder is distributed on the 
basis of the state's population.
    The result is virtually a complete mismatch between the funding 
provided under this program and the need, as evidenced by the 
Department of Homeland Security's funding of the high threat urban 
areas. I have attached a table that compares the funding received by 
the ten states that received the most high threat urban area funds and 
their ranking, on a per capita basis, of the formula grants. New York, 
which received the most high threat funds, ranked 49th in the formula 
grants. California, which received the second most high threat funds, 
ranked 50th. Texas, which received the third most high threat funds, 
ranked 48th.
    Incidentally, Mr. Chairman, I was Commissioner of U.S. Customs when 
Ahmad Ressam, the millennium bomber, was captured by Customs inspectors 
as he attempted to smuggle explosives into the U.S. as part of a plot 
to bomb Los Angeles International Airport. More evidence, I believe, 
that Al Qaeda focuses on high profile, major city targets.
    It is clear that large amounts of the first responder funding are 
not going where they are needed. The result is wasted resources and, 
much worse, a population placed at risk of attack and of the economic 
consequences of an attack. Some have suggested that the high threat 
funds ``make up'' for the misdirected block grant and firefighter 
grants but the goal is not to even out every state and locale. We are 
in a war against terror and we must deploy our resources where they 
will do this country the most good.
    In light of this, I have a few recommendations.
    First, the funds in all of the programs to assist first responders 
established after September 11 should be distributed on the basis of 
three factors--known threats, the presence of vulnerable critical 
infrastructure, and the consequences of an attack. I want to thank 
Chairman Cox, Congressman Turner and Congressman Sweeney for 
introducing legislation that would move these programs in that 
direction.
    Second, as you can see from my description of the steps that New 
York has taken, personnel costs are a significant part of the expense. 
Consequently, overtime costs and the personnel costs associated with 
training and with filling positions while personnel are being trained 
should be eligible uses of the funds.
    Third, the funds should be directed to local governments. 
Currently, this is done by requiring a minimum pass-through to local 
governments. In New York, the City and the State are working very well 
together. However, it may be that the Department of Homeland Security 
should have the authority to provide grants directly to regional 
consortiums, as is provided for in Chairman Cox's bill. I would also 
recommend that the Department have the authority to provide grants 
directly to individual local governments, as was done in the first 
round of High Threat Urban Area grants.
    The funds should not require maintenance of effort on the part of 
the local governments as a condition of the grant. Such a requirement 
can result in the denial of Federal assistance just when it is needed 
most. Unlike the federal government, local governments cannot run 
deficits. As a result they may have to cut expenditures and if there is 
a maintenance of effort requirement they could become ineligible for 
federal grants. Similarly, any matching requirements should be 
interpreted to include, for example, in kind contributions.
    Finally, State and local governments should be able to make 
procurement purchases through the federal contracts already negotiated 
by the General Services Administration. In New York, for example, the 
City can purchase equipment through statewide contracts. If State and 
local governments were able to do this through federal contracts, it 
would be more expeditious, help ensure the interoperability of the 
equipment and would probably produce a cost savings. The City has its 
own budget difficulties. This year the City of New York closed an $8 
billion deficit. The deficit for next year is estimated to be an 
additional $2 billion. Although the Mayor has attempted to protect the 
Police Department from cuts, even we have had to reduce our expenses. I 
would just like to note here, that the City estimated that it lost $3 
billion in revenues directly as a result of the September 11 attacks, 
and not as a result of the general economic slowdown, in 2002 and 2003. 
That estimate was reviewed and validated by the General Accounting 
Office. Although the City has been promised $20 billion from the 
federal government post-September 11, that figure will cover only about 
one-quarter or less of the actual losses, both to the City and the City 
economy, from the attack. The City did not receive any Federal 
assistance for lost tax revenues. We are grateful for the Federal 
assistance received to date but the City needs further assistance to 
meet the threats posed by this war on terror.
    Thank you for this opportunity. I would be happy to work with you 
on any proposals and I will be glad to answer any questions.

          Attachment For Raymond W. Kelly's Prepared Statement

 Emergency Preparedness and Response Needs of First Responders City of 
                                New York

    New York City has 5 first responder agencies--New York Police 
Department (NYPD), Fire Department of New York (FDNY), Office of 
Emergency Management (OEM), Department of Health and Mental Hygiene 
(DHMH), and Health and Hospitals Corporation (HHC).
<bullet> These agencies are responsible for the prevention of and 
response to any terrorist attacks in New York City, with its resident 
population of approximately 8 million and approximately 11 million 
population total during the workday. New York City is the center of 
national and international finance, media and diplomacy. It has been a 
target of six Al Qaeda-linked attacks, twice successfully.
<bullet> The City has taken steps to protect against terrorist attacks, 
including establishing a Counterterrorism Bureau and expanding its 
Intelligence Bureau in the NYPD. One thousand police officers are now 
devoted to these activities. The City has undertaken emergency planning 
and preparation in all of the first response agencies. Virtually all of 
these efforts have been funded from the City's own funds despite the 
City's struggles to meet the more usual responsibilities of a 
municipality in a time of large City deficits.
<bullet> However, these funds will apparently be distributed through 
existing programs that were not designed to prepare the country for a 
terrorist attack.
        The risk of terrorist attack is not distributed by population. 
        New York City is approximately 2.85 percent of the nation's 
        population and Washington DC is approximately 0.2 percent. 
        Those two cities represent far more than 3 percent of the risk 
        of attack.
<bullet> New York's 5 first responder agencies have identified $900 
million in needs. The Federal Government should provide that one-third 
to half of the first responder funds go directly to 3 or 4 or 5 local 
jurisdictions most at risk of attack and with the largest needs--
including New York City and Washington, DC.
<bullet> In addition, the First Responder and Bioterrorism programs 
must not be funded by eliminating existing federal programs that 
currently provide funding for the City, such as the Local Law 
Enforcement Block Grant or the State Criminal Alien Assistance Program 
(SCAAP)

    EMERGENCY PREPAREDNESS AND RESPONSE NEEDS CITY OF NEW YORK FIRST
                               RESPONDERS



Counterterrorism, Intelligence                              $200,000,000
 and Public Safety

Training for First Responders
Police                                                       $40,053,028
Fire                                                         $41,761,026
Dept. of Health and Mental                                   $16,050,000
 Health
Public Hospitals                                              $1,861,600
Subtotal                                                     $99,725,654

Security Enhancements for
 Facilities
Police                                                       $90,256,275
Fire                                          (included under equipment)
Office of Emerg. Managment                                    $6,500,388
Dept. of Health and Mental                                   $78,195,000
 Health
Public Hospitals                                             $12,788,825
Subtotal                                                    $187,740,488

Emergency Preparation and
 Response Equipment
Police                                                       $81,848,251
Fire                                                         $76,150,000
Office of Emerg. Managment                                    $7,448,690
Dept. of Health and Mental                                   $10,368,185
 Health
Public Hospitals                                             $13,712,179
Subtotal                                                    $189,527,305

Communications and Information
 Technology
Police                                                       $49,484,646
Fire                                                        $160,000,000
Office of Emerg. Management                                   $9,183,429
Dept. of Health and Mental                   (included under facilities)
 Health
Public Hospitals                                              $5,301,000
Subtotal                                                    $223,969,075

TOTAL                                                       $900,962,522


 COMPARISON OF RANKING OF HIGH THREAT FUNDING AND BLOCK GRANT FUNDING 
                               PER CAPITA

                              FISCAL 2003

    The Department of Homeland Security distributes First Responder 
funds through two basic programs--High Threat Urban Area programs, 
where the funds are distributed based on an assessment of the threat of 
a terrorist attack, and State Block Grants where the funds are 
distributed under a formula where each state gets the same flat amount 
and the remainder of the funds are distributed based on population. 
Under the Block Grants, which account for more than 70 percent of the 
First Responder funding, there is no consideration at all of the threat 
of terrorist attack. The chart below shows how the 10 states that 
received the most High Threat Urban Area funding rank on a per capita 
basis under the block grant programs.



                       RANK FOR  HIGH THREAT      RANK FOR  BLOCK GRANT
       STATE                  FUNDING                  PER CAPITA

       New York                          1                        49
     California                          2                        50
          Texas                          3                        48
       Illinois                          4                        45
   Maryland \1\                          5                        32
     Washington                          6                        36
   Virginia \1\                          7                        39
   Pennsylvania                          8                        46
        Florida                          9                        47
     New Jersey                         10                        42

\1\ Funding for the National Capital Area ($60.6 million) was divided
  evenly between Maryland and Virginia.

    Questions From the Hon. Jim Turner for the Hon. John G. Rowland

Question: 1. In your testimony, you stated that the regionalization 
concept in the Chairman's legislative proposal would never work, and 
that if such regionalization was self-administered by localities, it 
would be chaos. As an alternative, would you support the process 
envisioned in the PREPARE Act (H.R. 3158) where Department of Homeland 
Security (DHS) provides guidance to States and localities to assist 
them in determining their needs for essential preparedness 
capabilities, and the States and localities then make a joint 
determination on how to best meet these needs, whether it be at the 
State, local, or regional level of government? No response has been 
received.

Question: 2. You also indicated in your testimony that a grant matching 
requirement of 25 percent was not needed, and that such an economic 
requirement would prevent some states and localities from applying for 
grant funds. Would you support legislation that provided: (1) the 
ability to adjust the cost share to up to 90 percent federal/10 percent 
state and local, and if so, what criteria should be used to make such 
an adjustment; and (2) the ability for States and localities to provide 
a ``soft-match'' to meet the matching requirements (i.e., meet the 
matching requirements by using means other than cash)? No response has 
been received.

Question: 3. You testified that Congress should maintain a minimum 
baseline of funding to all States for terrorism preparedness. As 
opposed to setting a percentage or some other formula to determine this 
baseline of funding, would you support legislation that mandated that 
each State be provided with funding to meet its need for essential 
preparedness capabilities, after such needs have been determined by the 
States and localities using DHS guidelines? Would you support multi-
year funding to meet such needs? No response has been received.

Question: 4. In response to questions from Members of the Select 
Committee, you stated that DHS should be tasked to develop basic 
minimum standards, and that grant programs for terrorism preparedness 
should not be entitlements, but rather, that grant programs should meet 
the terrorism preparedness needs--based on these standards--of the 
States and localities. The PREPARE Act (H.R. 3158) would require DHS to 
provide such minimum standards, and to fund the preparedness needs of 
the States and localities based on these standards. Is the PREPARE Act 
consistent with your construct of how the terrorism grant programs 
should be executed? No response has been received.

Question: 5. In another response to a question from a Member of the 
Select Committee, you stated that the State of Connecticut had received 
funding under the High-Threat, High-Density Urban Area Grant program. A 
review of the Office for Domestic Preparedness' grant application for 
the two rounds of this program (fiscal year 2003 appropriation and 
fiscal year 2003 supplemental appropriation) clearly indicates that 
Connecticut was not eligible for any of these grant funds. Therefore, 
can you clarify your response to the Committee's question, and provide 
any insight as to why cities in the State of Connecticut were not 
eligible for this program? Would you be concerned with moving 
completely to a grant system exclusively based on threat? No response 
has been received.

Question: 6. The grant process in Chairman Cox's bill, H.R 3266, is 
open to states, interstate regions, and intrastate regions. This would 
potentially require the Under Secretary of Information Analysis and 
Infrastructure Protection to sort through hundreds of applications on a 
regular basis, making detailed threat comparisons for each. The PREPARE 
Act, H.R. 3158, requires states to include local and regional entities 
in a detailed planning process to identify needs and where the grant 
funds need to flow in order to pay for those needs. In your experience 
with receiving federal first responder grants, which funding model is 
more likely to reach the goal of fast, effective, and accountable grant 
funding? No response has been received.

Question: 7. I agree with the problem that Chairman Cox has repeatedly 
raised, that of first responder grant money going to places with lower 
needs. Can you describe how Connecticut has used the first responder 
funds it has received, and why it is important to keep funding intact 
for regions that don't have the same threat profile as New York or Los 
Angeles or Washington D.C.? No response has been received.

Question: 8. States and local jurisdictions have prepared detailed 
analyses and assessments to meet requirements established by the Office 
of Domestic Preparedness. Have these assessments been useful as you 
compile state plans? Shouldn't the federal government take into account 
all of the specific vulnerabilities identified? No response has been 
received.

Question: 9. Chairman Cox's bill draws a clear line between funding for 
terrorism preparedness and funding for traditional missions of the 
first responder communities. I don't think a clear line between the two 
can be drawn in a practical sense. Did first responders in law 
enforcement and public works in Connecticut take actions during the 
August blackout? Would their actions have been any different if the 
blackout was caused by an act of terror? No response has been received.

Question: 10. When states and regions assess their emergency response 
needs, is that generally based on threat (what terrorists want to do), 
vulnerabilities (what targets are in the vicinity and how secure are 
they), or a combination of the two? Shouldn't grants take into account 
the total risk, both threat and vulnerability? No response has been 
received.

Question: 11. H.R. 3266 requires grant applicants to provide, as part 
of the application, a ``description of the source of the threat to 
which the proposed grant relates, including the type of attack for 
which the applicant is preparing for in seeking the grant funding.'' Do 
states and regions typically have access to the intelligence necessary 
to know the exact source of a terrorist threat that may affect them? 
Aren't a lot of first responder grants used to improve general 
emergency readiness rather than to improve defenses against a specific 
type of attack? No response has been received.

Question: 12. Since 9/11, the federal government has spent four to five 
billion dollars each year on first responder grants. I am unaware of 
any justification for why this is the right amount--certainly the 
amount isn't based on an assessment of threat, of vulnerability, or of 
first responder needs. Would you support legislation that tied the 
first responder budget to some assessment of what is needed by the 
nation's first responders? No response has been received.

Question: 13. The PREPARE Act, H.R. 3158, includes a provision that 
would require the federal government to reimburse state and local 
jurisdictions for the overtime costs incurred when the threat level is 
elevated. How difficult is it for your jurisdictions to increase 
operations under heightened threat? No response has been received.

Question: 14. Almost none of the federal first responder grants since 
9/11 cover personnel costs. The PREPARE Act, H.R, 3158, states that 
having an adequate number of trained first responders is essential to 
be prepared to prevent or respond to terrorist attack. Can you comment 
on whether grant funds should include personnel costs? No response has 
been received.

          Questions from the Hon. Jim Turner for Scott Behunin

Question: 1. The grant process in Chairman Cox's bill, H.R 3266, is 
open to states, interstate regions, and intrastate regions. This would 
potentially require the Under Secretary of Information Analysis and 
Infrastructure Protection to sort through hundreds of applications on a 
regular basis, making detailed threat comparisons for each. The PREPARE 
Act, H.R. 3158, requires states to include local and regional entities 
in a detailed planning process to identify needs and where the grant 
funds need to flow in order to pay for those needs. In your experience 
with receiving federal first responder grants, which funding model is 
more likely to reach the goal of fast, effective, and accountable grant 
funding? No response has been received.

Question: 2. Threats from terrorists are based, in part, on what a 
terrorist intends to attack. Terrorists intend to attack the United 
States where the defenses and countermeasures are weakest. Terrorists 
will presumably know what areas have been deemed worthy of receiving 
grant funds. So, areas that DHS determines to be ``low threat'' will 
automatically become higher threat. So doesn't it make sense to ensure 
that all communities have some baseline level of preparedness? No 
response has been received.

Question: 3. States and local jurisdictions have prepared detailed 
analyses and assessments to meet requirements established by the Office 
of Domestic Preparedness. Have these assessments been useful as you 
compile state plans? Shouldn't the federal government take into account 
all of the specific vulnerabilities identified? No response has been 
received.

Question: 4. The Chairman has said that the Under Secretary for 
Information Analysis and Infrastructure Protection has the resources 
needed for conducting the threat assessment to guide the grant review 
because he can draw upon the combined resources of the federal 
government. Other than the Department of Homeland Security, the only 
entity I know of that is conducting terrorist threat assessments on the 
homeland is the Terrorist Threat Integration Center. Do you believe 
that the TTIC has the extra resources available to assist the Under 
Secretary with grant application reviews, or is it at maximum capacity 
already? No response has been received.

Question: 5. According to testimony from Under Secretary Libutti and 
Assistant Secretary for Infrastructure Protection Liscouski, the 
Department of Homeland Security will have a plan for completing a 
threat and vulnerability assessment by December 15. Not a completed 
assessment, a plan of how they will do such an assessment. In fact, Mr. 
Liscouski indicated that he would be surprised if an actual 
comprehensive risk assessment will be done within FIVE years. Is it 
reasonable that we should wait years for an assessment to be done 
before targeting first responder grant? No response has been received.

Question: 6. When states and regions assess their emergency response 
needs, is that generally based on threat (what terrorists want to do), 
vulnerabilities (what targets are in the vicinity and how secure are 
they), or a combination of the two? Shouldn't grants take into account 
the total risk, both threat and vulnerability? No response has been 
received.

Question: 7. Chairman Cox's bill, H.R. 3266, would have the allocation 
of all first responder grants go by threat. The program that does this 
now, the High Threat Urban Area grants has distributed grant funds to 
30 urban areas in 19 states. While we have repeatedly asked the 
Department of Homeland Security to explain how these grant funds are 
distributed, we have yet to receive a satisfactory answer. Do any of 
you have any insight into the Department's funding process? Would you 
support turning all first responder funding over to a system with no 
visibility and no way of knowing Washington is distributing billions of 
dollars? No response has been received.

Question: 8. A Council on Foreign Relations Task Force found recently 
that there are no agreed upon standards for emergency preparedness and 
no way to measure how prepared a locality is or should be. Do you feel 
that it is important that there be some way to measure preparedness 
levels and preparedness needs? No response has been received.

Question: 9. In addition to providing first responder grant funds, 
should the Department of Homeland Security be giving states and local 
communities guidance in what equipment and training to buy? Isn't this 
guidance and planning necessary for equipment interoperability? No 
response has been received.

Question: 10. H.R. 3266 requires grant applicants to provide, as part 
of the application, a ``description of the source of the threat to 
which the proposed grant relates, including the type of attack for 
which the applicant is preparing for in seeking the grant funding.'' Do 
states and regions typically have access to the intelligence necessary 
to know the exact source of a terrorist threat that may affect them? 
Aren't a lot of first responder grants used to improve general 
emergency readiness rather than to improve defenses against a specific 
type of attack? No response has been received.

Question: 11. Since 9/11, the federal government has spent four to five 
billion dollars each year on first responder grants. I am unaware of 
any justification for why this is the right amount--certainly the 
amount isn't based on an assessment of threat, of vulnerability, or of 
first responder needs. Would you support legislation that tied the 
first responder budget to some assessment of what is needed by the 
nation's first responders? No response has been received.

Question: 12. The PREPARE Act, H.R. 3158, includes a provision that 
would require the federal government to reimburse state and local 
jurisdictions for the overtime costs incurred when the threat level is 
elevated. How difficult is it for your jurisdictions to increase 
operations under heightened threat? No response has been received.

Question: 13. Almost none of the federal first responder grants since 
9/11 cover personnel costs. The PREPARE Act, H.R, 3158, states that 
having an adequate number of trained first responders is essential to 
be prepared to prevent or respond to terrorist attack. Can you comment 
on whether grant funds should include personnel costs? No response has 
been received.

       Questions from the Hon. Christopher Cox for John D. Cohen

Question: 1. The current formula used to distribute funding for the 
largest grant program for first responders is based on political 
formulas. What are the dangers of funding homeland security efforts 
based largely on political formulas?
Answer: 1. Today, not every city across the nation faces the same 
threat of attack. We know that there are some areas of the country that 
represent more attractive targets than others. From an operational 
perspective, the danger that arises from using population based 
formulas or other non-data driven techniques is that the very 
jurisdictions that face the greatest risk of attack may not receive 
adequate resources to support efforts to detect, prevent and respond to 
a terrorist attack. Given that the nation does not have unlimited 
resources, it makes sense to take into account threat, vulnerability 
and risk when allocating homeland security related funding. Priority 
should be given to those jurisdictions that face the greatest risk. 
Homeland security funding should also be provided in such a manner to 
foster regional cooperation because at the end of the day, should a 
catastrophic event occur, effective emergency response will require 
collaboration on a regional basis.

Question: 2. In your testimony, you stress the importance of regional 
cooperation and give anecdotes from your experiences with the MBTA. Can 
you cite examples from your experiences as Special Advisor to the 
Secretary of Public Safety on Homeland Security in Massachusetts where 
directing funds specifically to one locale has in fact shortchanged 
regional planning because surrounding areas were not involved in the 
planning process?
Answer: As the Commonwealth began the process of disbursing 2002 
homeland security related funding, two things became clear. First, a 
top priority for a number of local entities for the use of these funds 
focused on establishing interoperability among the independent radio 
systems used by first responder entities. Second, while there was 
general agreement that interoperability was important, there had been 
little coordination amongst these local entities in developing a plan 
to address this issue. This lack of collaboration and communication 
among individual local entities resulted in different agencies having 
different perceptions of both the problem and the potential solution. 
This inconsistency was not surprising because, traditionally, there is 
little collaboration among individual public safety entities when they 
acquire information and communications systems. This lack of 
coordination has resulted in the proliferation of radio and information 
systems that cannot interoperate with each other.
    Accordingly, before providing this funding to localities, the 
Commonwealth worked with local entities throughout the state to develop 
a statewide interoperability plan that required collaboration among 
federal, state and local entities on a regional basis in designing and 
implementing radio interoperability systems. Through this process, we 
found that the radio interoperability solution that best met the needs 
of one region in some cases differed from that which best met the needs 
of other regions. With the completion of this plan, these funds will be 
allocated for the acquisition of interoperability solutions that 
effectively address the needs of each region throughout the state.

Question: 3. As Special Advisor to the Secretary of Public Safety on 
Homeland Security in Massachusetts, you have surely become frustrated 
with the application process for funding first responder needs. 
Governor Rowland testified that sixteen different grant programs for 
first responders are spread across three major federal agencies, and 
several sub-offices, and are cumbersome and confusing. Would it be 
helpful for States to have one sole interface within the federal 
government for homeland security grants, as Chairman Cox outlines in 
his legislation?
    Answer: In the past, there has been much confusion and uncertainty 
regarding grant applications, requirements, guidelines, allowable 
expenses, due dates and, of course, the distribution of funds. This 
confusion stemmed from the fact that relevant grant programs were 
typically managed by numerous entities throughout different departments 
of the federal government. However, recently, there has been progress 
in addressing this issue. The Department of Homeland Security has 
combined a number of homeland security grants and has centralized the 
management of these grants within the Office of Domestic Preparedness. 
Hopefully, DHS will continue moving in the direction of centralizing 
the management of all homeland security related grants. As part of this 
centralization, establishing one sole interface within the federal 
government for homeland security grants would be helpful.

          Questions from the Hon. Jim Turner for John D. Cohen

Question: 1. H.R. 3266 allows first responder grant funds to be spent 
on the purchase or upgrading of equipment; exercises to strengthen 
emergency response; training in the use of equipment; and training to 
prevent terrorist attack. (Conversely, the PREPARE Act allows first 
responders to spend grant funds as necessary to provide the essential 
capabilities their jurisdiction needs.) Isn't it possible that H.R. 
3266 would allow first responders to use funds year after year without 
meeting all of their preparedness needs?
Answer: Homeland security efforts will be more effective if coordinated 
at the statewide level. The collection, analysis and distribution of 
terrorism and other relevant information on a statewide basis should 
serve as the foundation for all operational planning and training 
efforts that focus on detecting, preventing, responding to and managing 
the consequences of a terrorist attack or other critical incident. It 
is fiscally irresponsible but also operationally dangerous to have a 
local and county entity operating in a stovepipe environment and making 
key decisions based on operational priorities that may be different 
from other entities within a state. Operating in this stove piped 
manner will pretty much guarantee that the use of funds will not be as 
efficient as it would if decisions are made on a regional and/or 
statewide basis. But, statewide plans need to be based on the 
understanding that local governments are generally the first to respond 
and the last to leave a catastrophic event, and homeland security 
funding needs to be used to support the needs of local first 
responders. Therefore, local and county governments (as well as the 
private sector) need to be at the table when statewide plans are 
created. There needs to be flexibility built into how localities can 
use these funds so that they operate in a manner consistent with the 
statewide plan but also address their specific needs. There is no 
``one-size-fits-all'' answer, and the provisions that guide the use of 
federal funds should be structured in recognition of the fact that the 
threats of today may not be threats of tomorrow, so states need the 
flexibility of meeting the essential needs of communities and first 
responders in light of updated risk priorities.

Question: 2. The PREPARE Act, H.R. 3158, includes an authorization of 
$20 million to immediately deploy interoperable communications 
equipment to every major metropolitan area and at least one per state. 
Can you discuss these ``switch technologies,'' whether they're 
available for deployment, and the importance of connecting first 
responders on different radio systems?
    Answer: County and local officials across the nation have 
complained for years that the ability of multiple public safety 
entities to effectively work together at the point of service--fires, 
accidents, natural disasters, search and rescues, etc.--has been 
seriously compromised because the radio systems used by independent 
entities operate on different radio frequencies. This means that first 
responders from one agency may not be able to use their radios to 
communicate with first responders from other agencies. This can result 
in a difficult (if not life threatening) operational environment, 
because every emergency response requires that information and 
instructions be communicated rapidly and accurately to all personnel 
that are on the scene. There has been much debate about the best way to 
achieve this interoperability. Today, there still remains a lot of 
confusion about what is actually meant by the term 
``interoperability.'' For example, in the minds of some public safety 
officials, interoperability is something that is only necessary during 
a critical and/or catastrophic incident, and it can best be achieved 
through the deployment of temporary capabilities (stockpiled radios, 
command vehicles, etc.). Others believe that interoperability is a 
crucial part of day-to-day emergency and non-emergency service 
delivery. Under this model, the infrastructure that supports 
interoperability must be permanent, and front line personnel must be 
trained so that these systems can be used daily. In many respects, the 
challenge of providing equipment interoperability has less to do with 
technology and more to do with identifying and putting in place the 
processes, protocols and agreements necessary to support multiple 
agencies using an integrated system.
    Some have suggested that the only way to achieve interoperability 
is through the establishment of regional or statewide radio systems 
that cost millions of dollars and will take years to establish. First 
responders need interoperability today and do not have the money to pay 
for such systems nor the time required to free up the spectrum 
necessary to establish the regional and/or statewide radio systems. As 
a result, over the past several years, state and local officials have 
begun to look at solutions other than statewide or regional networks to 
solve the expensive interoperability problem. Through the efforts of 
the Public Safety Wireless Network Program (PSWN) and the National 
Institute of Justice, attention has focused on a more cost effective 
and efficient solution to achieving radio system interoperability. It 
is a solution that involves the use of inter-connector ``patching'' or 
``switch'' technology. The use of inter-connector technology provides 
for radio system interoperability at a fraction of the cost of a new 
statewide radio system, while at the same time allowing individual 
local jurisdictions the flexibility of maintaining existing radio 
infrastructures. Patching technology is readily available for 
deployment, and a growing number of state and local jurisdictions are 
providing radio system interoperability utilizing this technology. For 
example, the States of Maryland, Colorado and Arizona have begun to 
network a number of inter-connector devices in fixed locations in an 
effort to provide immediate radio system interoperability.

Question: 3. The Subcommittee on Emergency Preparedness and Response 
held a hearing where one witness talked about the importance of not 
supplanting state and local first responder dollars with federal funds. 
We all agree that preparing first responders needs to be a federal, 
state, and local partnership. Can you explain why it is so difficult to 
separate what the federal government should pay for and what is better 
left to state and local governments?
Answer: The difficulty in ``separating what the federal government 
should pay from what state and locals governments should pay'' stems 
from the fact that to some degree, state and local officials viewed 
homeland security from a different perspective than some in Washington. 
Many state and local officials understand that efforts to protect the 
nation from future acts of terrorism need not be done at the expense of 
effective day-to-day service. Nor does it require that the state and 
local governments invest millions of dollars for technology and 
equipment that is only used in the event of a terrorist attack. In 
fact, the very information technology, communication systems, and 
business processes that support effective service delivery each and 
every day provide the foundation for effective efforts to detect, 
prevent and respond to terrorism and other critical incidents. If the 
information systems used by law enforcement entities day-to-day are 
designed in such a manner so that the sharing of crime related 
information is difficult, they will also have difficulty sharing 
terrorism related information. If first responders from multiple 
entities cannot use their radios to communicate at the scene of a major 
traffic accident because they all operate on different frequencies, 
then they will have the same problem at the scene of a terrorist 
incident. If a local 9-1-1 system becomes overwhelmed during a 
snowstorm, then it stands to reason that it will be unable to handle 
the large number of calls that arise during a terrorist incident. From 
a state and local perspective, being prepared to detect, prevent and 
respond to acts of terror means having the capabilities to provide 
effective service each day. For some time, this philosophy of ``dual 
use'' was not understood by some in Washington. However, recent 
guidelines disseminated by the Department of Homeland security suggest 
that the concept of ``dual use'' capabilities has become more accepted.
    As the Commonwealth of Massachusetts looks toward the future, 
efforts to enhance its ability to detect, prevent, respond to and 
manage the consequences of acts of terrorism and other critical 
incidents will be based on three fundamental principles:

        <bullet> The same multi-discipline methods used to effectively 
        address crime, disorder, public health, social service and 
        other emerging problems serve as the foundation for homeland 
        security related efforts;
        <bullet> Terrorists often commit ``traditional'' crimes to 
        support their extremist agenda (they often collaborate with 
        individuals involved in ``traditional'' criminal activity); 
        and, therefore,
        <bullet> The Commonwealth must be able to proactively and 
        continuously monitor and respond to crime trends, emerging 
        terrorist threats, public health conditions and other emerging 
        problems on a neighborhood--by-neighborhood basis and then be 
        able to support efforts of local, regional, private sector 
        entities and community members to rapidly develop, implement 
        and track efforts to mitigate the identified problem.

Question: 4. The Chairman has said that the Under Secretary for 
Information Analysis and Infrastructure Protection has the resources 
needed for conducting the threat assessment to guide the grant review 
because he can draw upon the combined resources of the federal 
government. Other than the Department of Homeland Security, the only 
entity I know of that is conducting terrorist threat assessments on the 
homeland is the Terrorist Threat Integration Center. Do you believe 
that the TTIC has the extra resources available to assist the Under 
Secretary with grant application reviews, or is it at maximum capacity 
already?
Answer: I have no personal knowledge of whether the TTIC has adequate 
resources. However, completing this national threat assessment must be 
a top priority of our country's homeland security efforts. However, it 
is unrealistic to believe that the federal government alone can 
complete the national assessment. The only effective way to conduct a 
national threat assessment to guide the grant process is to include 
state and local governments in completing this effort. The federal 
government should provide a consistent format and guidelines so that 
each state, in close collaboration with local governments, can complete 
a statewide threat, vulnerability and risk assessment that can then be 
used by federal authorities to complete a national assessment.

Question: 5. According to testimony from Under Secretary Libutti and 
Assistant Secretary for Infrastructure Protection Liscouski, the 
Department of Homeland Security will have a plan for completing a 
threat and vulnerability assessment by December 15. Not a completed 
assessment, a plan of how they will do such an assessment. In fact, Mr. 
Liscouski indicated that he would be surprised if an actual 
comprehensive risk assessment will be done within FIVE years. Is it 
reasonable that we should wait years for an assessment to be done 
before targeting first responder grants?
Answer No. There should be no greater priority than the completion of a 
comprehensive national threat and vulnerability assessment. This threat 
and vulnerability assessment will not only serve as a guide for funding 
decisions, operational and tactical planning and the development of 
training exercises, it should direct state and local homeland security 
priorities and efforts. Over two years have passed since the Sept. 11 
attacks, and it is regretful that the nation as a whole still lacks a 
comprehensive threat and vulnerability assessment--one that tells us 
which locations are most at risk and from what. This has resulted in 
what some have described as an ad-hoc, disjointed domestic homeland 
security effort--one without consistency in the level of preparedness 
from city to city. Without such a threat and vulnerability assessment, 
our nation's first preventers and responders have been forced to 
respond to a ``one size fits all,'' color coded threat and advisory 
system and to seek to obtain federal funding resources through a system 
that rewards the jurisdiction that hollers the loudest. A number of 
states (such as the Commonwealth) have recognized that the completion 
of a statewide threat, vulnerability, and risk assessment is critical 
to the development of risk mitigation strategies. As more states 
develop these statewide assessments, the federal government may want to 
use them to support their efforts.

Question: 6. When states and regions assess their emergency response 
needs, is that generally based on threat (what terrorist want to do), 
vulnerabilities (what targets are in the vicinity and how secure are 
they), or a combination of the two? Shouldn't grants take into account 
the total risk, both threat and vulnerability?
Answer: The allocation of grant funding should be based on risk--a 
combination of both threats and vulnerabilities. However, nationally, 
there is a lack of consistency regarding the criteria that states, 
regions and localities use to assess their threat, vulnerability and 
risk. In the coming months, the Commonwealth intends to establish a 
dynamic threat, vulnerability and risk identification process that will 
guide operational planning and training activities and direct federal 
grant funds to those most in need. The risk faced by any individual 
community is fluid, and the threats of today may not be threats 
tomorrow. Therefore, the federal government should help states and 
localities create systematic approaches to continually evaluate and 
update statewide risk assessments and therefore their preparedness 
levels and future needs.

Question: 7. A Council on Foreign Relations Task Force found recently 
that there are no agreed upon standards for emergency preparedness and 
no way to measure how prepared a locality is or should be. Do you feel 
that it is important that there be some way to measure preparedness 
levels and preparedness needs?
Anwer: Yes. The Department of Homeland Security should work 
collaboratively with all levels of the government and private sector 
organizations to establish and identify national preparedness levels, 
preparedness needs, performance goals and performance metrics that 
define success. The lack of defined national standards has complicated 
the efforts of state and local governments to design and implement 
homeland security strategies.

Question: 8. In addition to providing first responder grant funds, 
should the Department of Homeland Security be giving states and local 
communities guidance in what equipment and training to buy? Isn't this 
guidance and planning necessary for equipment interoperability?
Answer Yes. Once state and local governments have determined their 
operational requirements, national standards of what equipment, 
technology and systems best address these requirements would be 
helpful. But, while national standards should be provided, at the end 
of the day, decisions regarding equipment and training should be left 
to state officials and should be based upon the individual threat and 
vulnerability and risk assessments of states and localities.

       Questions from the Hon. Christopher Cox for Ray A. Nelson

Question: 1. Why are cities not receiving the appropriate funds? What 
further incentives do states need to distribute funds in a timely 
manner?
    Answer: The Commonwealth of Kentucky has developed a coordinated 
effort for planning for, reacting to and recovering from natural and 
man-made disasters. This effort develops Emergency Management Plans 
from the county level up and then seeks to provide funds, training and 
planning necessary to make them workable. This means that funds in 
Kentucky are distributed with the goal of meeting the needs of all of 
the citizens of a given County, not just a few select cities. In the 
Commonwealth, all disbursements of funds must be made through the 
'county'. Furthermore, Ky Statutes require each county to establish an 
Emergency Planning Committee; whereas this body will develop 
contingency plans, establish operating procedures, and delineate the 
dispersal of state and federal grants. If cities say they are not 
receiving federal grant funds, then they are not participating the 
emergency planning committees that are mandated by state law.
    The dispersal of funds through the state to local jurisdictions 
(i.e. counties here in Ky) is encumbered by federal requirements for 
detailed budgets, which is often delayed due to the requirement to 
'bid' purchasing requirements. Incentives: Allow all state and local 
jurisdictions to make purchases from the GSA catalog.

Question: 2. Why are cities often not included in statewide homeland 
security planning?
Answer: As mentioned in the previous question, Ky Statues require 
cities to participate in local emergency planning committees. Is this a 
reality in all 120 counties in the Commonwealth?--Probably not! 
However, the current ODP Homeland Security assessment that is being 
conducted statewide, the Ky League of Cities and Ky Association of 
Counties were jointly contracted to coordinate the assessment of local 
jurisdictions; to ensure representation by all jurisdictions across the 
state. This is model we intend to utilize in all future grant programs.

Question: 3. Would it be helpful for States to have one sole interface 
within the Federal government for homeland security grants, as Chairman 
Cox outlines in his legislation?
    Answer: In our research, working alongside GAO, we have identified 
92 grant programs that support first responders, secondary responders, 
or specifically mention terrorism or homeland security. Furthermore, 51 
percent of these grants are not coming out of the Department of 
Homeland Security (DHS). What exasperates this problem further, is that 
DHS is not coordinated with, nor informed of, other grant 
opportunities. If the other federal agencies that offer these grants 
would ``coordinate'' with DHS, or the state homeland security 
coordinators, then these additional programs could be integrated, 
coordinated and synchronized with state strategies. This is very 
difficult under the current grant management program.
    The Department of Homeland Security is actively developing a 'one-
stop-shopping' grant program, for those grants controlled and managed 
by DHS. However, there is no such effort to coordinate the other 51 
percent of homeland security 'related' grant programs. If these grant 
programs are not coordinated at the state level, then where would it be 
coordinated? ``Isolation by Grant'', which turns cities and counties 
into islands of federal funding, with no logical connection to their 
surrounding jurisdictions, reflects a very harmful ``me first'' 
attitude that results in lives lost and money misspent.

          Questions from the Hon. Jim Turner for Ray A. Nelson

Question: 1. In your experience with receiving federal first responder 
grants, which funding model is more likely to reach the goal of fast, 
effective, and accountable grant funding?
    Answer: There is only one model that can solve the disconnect 
between inter-state jurisdictions and the hundreds of federal grant 
coming into our state. That model is the model where 'all federal grant 
programs' be coordinated through the Governor's office. Anything short 
of this method will result in the continued 'stove piping' of funds to 
local jurisdictions and the inability to coordinate, integrate and 
synchronize this funding in to a state strategy.

Question: 2. So doesn't it make sense to ensure that all communities 
have some baseline level of preparedness?
    Answer: It is paramount that we maintain baseline capabilities and 
capacities not only across the nation, but across jurisdictions within 
the states. Furthermore, we must ensure continued baseline funding to 
each state so that capabilities and capacities that have been acquired 
can be sustained and maintained.
    Note: The more we openly communicate the threat, then the threat 
will change. So, the more we openly designate high-threat areas, the 
terrorists will seek out a less protected target that can be used to 
deliver their message of fear and terror.

Question: 3. Have these assessments been useful as you compile state 
plans? Shouldn't the federal government take into account all of the 
specific vulnerabilities identified?
    Answer: 3.a Absolutely yes! The continuing assessment process is 
invaluable in the development of strategies, protective measures, 
contingency plans, and the expenditure of federal grant dollars.
    3.b Although we must take into account all vulnerabilities 
identified, we must also prioritize our assets and resources. It will 
take years and billions of dollars to mitigate every vulnerability 
identified during the assessment process. Tough decisions must be made, 
and a certain level of risk accepted in our everyday lives.

Question: 4. Do you believe that the TTIC has the extra resources 
available to assist the Under Secretary with grant application reviews, 
or is it at maximum capacity already?
    Answer: I do not feel that I am qualified to comment on the 
capabilities, or capacity, of the TIIC.

Question: 5. Is it reasonable that we should wait years for an 
assessment to be done before first targeting first responder grants?
    Answer: Although I would like to say no, that we need a 
comprehensive assessment now, I understand the reality of limited 
resources to conduct these assessments. In fact, it may take five years 
or more to complete detailed assessments of our entire critical 
infrastructure across the state. Our greatest limitation is qualified 
personnel to conduct these assessments.
    Note: The ODP mandated statewide assessments being conducted are 
not site-specific, detailed vulnerability assessments; that could be 
used to develop protective measures, counter-measures and contingency 
plans. It will take years to complete these detailed assessments.

Question: 6. When states and regions assess their emergency response 
needs, is that generally based on threat (what terrorists want to do), 
vulnerabilities (what targets are in the vicinity and how secure are 
they), or a combination of the two? Shouldn't grants take into account 
the total risk, both threat and vulnerability?
    Answer: Here in the Commonwealth, we have identified a risk 
management approach to defend against terrorism, to enhance levels of 
preparedness, and to respond to national and state emergencies, whether 
man-made or unintentional in nature. The approach is based on assessing 
Threats, Vulnerabilities, and the importance of assets--Criticality. 
The results of the assessments are used to balance threats and 
vulnerabilities, and to define and prioritize related resource and 
operational requirements. Therefore, grant programs should take into 
account all three aspects of this process: threat, Vulnerability and 
Criticality.
    Additionally, a `Threat Index' must be developed that can be used 
to measure the probability of attack occurring within a given region. 
State, sector or special event. The index would be used to establish 
the base amount of funds allocated to a state. Keeping in mind that not 
all terrorist attacks are planned and staged outside the US, some funds 
would continue to be sent to states which have a low probability of 
attack index rating, but may have a greater potential of being a 
staging site for the terrorists. Making the index rating the primary 
guide for distribution and the population distribution the secondary 
guide would improve the funding streams to those most likely to have an 
attack. The Information Analysis and Infrastructure Protection 
Directory would be the primary agency for developing the probability of 
attack index, based on input from US intelligence services and Law 
Enforcement Agencies.

Question: 7. Do any of you have any insight into the Department's 
funding process? Would you support turning all first responder funding 
over to a system with no visibility and no way of knowing Washington is 
distributing billions of dollars?
    Answer: 7.1(a) It is my understanding, the distribution model for 
the ODP State Homeland Security Grant program utilized a base amount 
for each state, plus a percentage of the remaining funds based on state 
population. Therefore, Base+Population=state allocation.
    7.1(b) I believe they considered Threat + Critical Infrastructure + 
Population as part of the formula, but I have no knowledge on the 
criteria used for selection cities that will receive funds in the High 
Threat Urban Area grant program.
    7.2 I would not support any funding methodology that excluded 
states and local jurisdictions from participating in the development 
of, or execution of, grant programs.

Question: 8. Do you feel that it is important that there be some way to 
measure preparedness levels and preparedness needs?
    Answer: Performance measures and readiness levels are imperative in 
measuring our ability to prevent, respond or recover from acts of 
terrorism. Our military has used a standards based evaluation system 
for many years and has proven to be effective in not only determining 
readiness levels, but also in determining resources required to achieve 
desired readiness levels.

Question: 9. In addition to providing first responder grant funds, 
should the Department of Homeland Security be giving states and local 
communities guidance in what equipment and training to buy? Isn't this 
guidance and planning necessary for equipment interoperability?
    Answer: 9.(a) General guidance is acceptable, and welcome, 
particularly in establishing interoperability and standardization 
requirements. However, vendor specific equipment, services or training 
resources should be avoided at all costs. Additionally, states need the 
flexibility to resource unique requirements identified within their 
jurisdictions; so long as it meets interoperability requirements.
    9.(b) In the Commonwealth of Kentucky we have an established 
coordination process through which our Emergency Services Groups are 
working to coordinate the planning for and the expenditure of Homeland 
Security Funding. These Groups are comprised of all County, City, 
Industry and Volunteer agencies within a jurisdiction.

Question: 10. Do states and regions typically have access to the 
intelligence necessary to know the exact source of a terrorist threat 
that may affect them? Aren't a lot of first responder grants used to 
improve general emergency readiness rather that improve defenses 
against a specific type of attack?
    Answer: 10.a All required intelligence resources 'are' available 
within the state. Either through federal or state agencies, including 
the National Guard, and local jurisdictions can receive the necessary 
information to conduct threat assessments. However, classified 
information may not be passed to those without the requisite clearance. 
From my personal experience, this has not been a hindrance to 
conducting a through assessment. Routinely, knowing the 'source' of 
intelligence is not important, and the source is often what makes it 
classified. Therefore, strip the sourcing and classified information, 
and relevant information can then be passed to the end-users of the 
intelligence. We must develop a system that will allow for the 
``sanitizing'' of National Security Information to a working level that 
can be used by those engaged in the detection, prevention, response and 
recovery from a terrorist attack.
    10.b Over the past two years, federal grant programs, and the 
preponderance of efforts within the states, have been focused on 
'response' rather than prevention. The equipment restrictions placed on 
the states, and first responders, often prohibited the acquisition of 
defensive and anti-terrorism protective measure equipment and devices. 
The FY04 ODP grant will finally address 'anti-terrorism', although it 
is not at the desired level. Most of us in the homeland security arena 
have said that 'prevention' is the cornerstone to our war terrorism 
here at home. Until we aggressively implement anti-terrorism and 
counter-terrorism programs, we will always be focused on 'responding' 
to an attack that we should have prevented.

Question: 11. Would you support legislation that tied the first 
responder budget to some assessment of what is needed by the nation's 
first responders?
    Answer: The question presupposes that there is a direct correlation 
between the safety of a community and the amount of money spent on its 
First Responders. We have yet to see that proven. Maybe Utah does not 
need millions in First Responder funds, but really needs to be given 
good actionable information on how to short circuit terrorist 
activities that are staging within the state. Maybe they need better 
training of law enforcement officers to detect and deter terrorist 
activity, not another multi-million dollar drop. The question must be 
asked, when is enough, enough, and when can any state say that they are 
relatively secure. What is the definition of ``secure''?
    I believe that all budgets must be linked to a strategic plan. We 
must identify the Ends, Ways, and Means by which we achieve our goals 
and this will result in 'Requirements'--i.e. Funding. As we refine our 
strategies, we are also assessing our current capabilities and needs. 
This snapshot will provide us with current 'Requirements'--as it 
relates to the federal budget. These requirements will change over 
time, and therefore, a continual assessment process is necessary.
    Additionally, the shorter timelines for obligating funds to local 
governments has placed an arbitrary deadline on a decision that should 
be a process of informed response to a stated need, but is instead a 
race to meet the deadline first, and figure out what we've done 
afterwards. It makes the entire process of distribution of funds 
suspect and thus lowers confidence in the stated goal of improving the 
security of citizens. Imposing penalties on states for not meeting 
deadlines created out of thin air rather than reasoned discussion will 
not improve the planning or distribution process for the funds. 
Penalties would only increase the cynicism of those involved and 
reinforce the appearance of funding for political gain rather than 
providing for the common defense of the Nation.

Question: 12. How difficult is it for your jurisdiction to increase 
operations under heightened threat?
    Answer: Without some reassurance of reimbursement of expenditures 
used for additional protective measures, most jurisdictions will 
respond to a change in threat levels my redirecting and prioritizing 
existing resources. Personnel overtime costs are not the only expense 
incurred when implementing a higher level of protective measures. 
Additional fuel and maintenance of vehicles, barrier materials, 
revisions to credentialing programs, additional lighting, and changes 
to security programs, are just examples of additional costs associated 
with going to a higher level of security. Some jurisdictions with 
larger budgets may have budgeted for times such as these. The 
development of contingency funds is one way of covering the costs 
associated with a heighten threat level, bur the preponderance of 
jurisdictions do not have this luxury.

Question: 13. Can you comment on whether grant funds should include 
personnel costs?
    Answer: With the majority of states experiencing some sort of 
financial crisis, the inclusion of personnel in the grant programs 
would help significantly. For example, all efforts, including personnel 
manning, within my office is covered by money that was never budgeted 
for, yet the coordination requirements continue. The State Police and 
Emergency Management have been forced to take personnel reductions due 
to budget constraints, yet the majority of homeland security efforts 
evolve around law enforcement and emergency management. Governors have 
been placed in a difficult position by redirecting resources toward 
homeland security, when public attention remains on jobs, healthcare 
and education. Homeland Security does not get a governor reelected.

[GRAPHIC] [TIFF OMITTED] T1512.004

[GRAPHIC] [TIFF OMITTED] T1512.005

[GRAPHIC] [TIFF OMITTED] T1512.006

[GRAPHIC] [TIFF OMITTED] T1512.007

[GRAPHIC] [TIFF OMITTED] T1512.008

[GRAPHIC] [TIFF OMITTED] T1512.009

[GRAPHIC] [TIFF OMITTED] T1512.010

                                 <all>

</pre></body></html>
